APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Seventh Circuit
(November 12, 2019) . . . . . . . . . . . App. 1
Appendix B Memorandum Opinion and Order in
the United States District Court for
the Northern District of Illinois,
Eastern Division
(September 21, 2018) . . . . . . . . . App. 61
Appendix C Judgment in a Civil Case in the
United States District Court for the
Northern District of Illinois, Eastern
Division
(September 21, 2018) . . . . . . . . . App. 83
Appendix D Memorandum Opinion and Order in
the United States District Court for
the Northern District of Illinois,
Eastern Division
(July 15, 2016). . . . . . . . . . . . . . . App. 85
Appendix E Order Denying Petition for Rehearing
and Rehearing En Banc in the United
States Court of Appeals for the
Seventh Circuit
(December 12, 2019) . . . . . . . . . App. 166

App. 1

APPENDIX A
IN THE
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
No. 18-3232
[Filed November 12, 2019]
__________________________
STEVEN MENZIES,
)
)
Plaintiff-Appellant,
)
)
v.
)
)
SEYFARTH SHAW LLP,
)
an Illinois limited liability )
partnership, et al.,
)
)
Defendants-Appellees. )
__________________________ )
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 1:15-cv-3403 — John Robert Blakey, Judge.
____________________
ARGUED MAY 22, 2019 —
DECIDED NOVEMBER 12, 2019
____________________
Before HAMILTON, SCUDDER, and ST. EVE, Circuit
Judges.

App. 2
SCUDDER, Circuit Judge. Insurance executive
Steven Menzies sold over $64 million in his company’s
stock but did not report any capital gains on his 2006
federal income tax return. He alleges that his
underpayment of capital gains taxes (and the related
penalties and interest subsequently imposed by the
Internal Revenue Service) was because of a fraudulent
tax shelter peddled to him and others by a lawyer, law
firm, and two financial services firms. Menzies
advanced this contention in claims he brought under
the Racketeer Influenced and Corrupt Organizations
Act or RICO and Illinois law. The district court
dismissed all claims.
Menzies’s RICO claim falls short on the statute’s
pattern-of-racketeering element. Courts have labored
mightily to articulate what the pattern element
requires, and Menzies’s claim presents a close question.
In the end, we believe Menzies failed to plead not only
the particulars of how the defendants marketed the
same or a similar tax shelter to other taxpayers, but
also facts to support a finding that the alleged
racketeering activity would continue. To conclude
otherwise would allow an ordinary (albeit grave) claim
of fraud to advance in the name of RICO—an outcome
we have time and again cautioned should not occur. In
so holding, we in no way question whether a fraudulent
tax shelter scheme can violate RICO. The shortcoming
here is one of pleading alone, and it occurred after the
district court authorized discovery to allow Menzies to
develop his claims.
As for Menzies’s state law claims, we hold that an
Illinois statute bars as untimely the claims advanced

App. 3
against the lawyer and law firm defendants. The
claims against the two remaining financial services
defendants can proceed, however.
So we affirm in part, reverse in part, and remand.
I
The original and amended complaints supply the
operative facts on a motion to dismiss. On appeal we
treat all allegations as true, viewing them in the light
most favorable to Steven Menzies. See Moranski v.
Gen. Motors Corp., 433 F.3d 537, 539 (7th Cir. 2005).
Menzies is the co-founder and president of an
insurance company called Applied Underwriters, Inc.
or AUI. In 2002 advisers from Northern Trust
approached him to begin a financial planning
relationship. In time these advisers pitched Menzies
and his colleague and AUI co-founder Sydney Ferenc
on a tax planning strategy (dubbed the Euram Oak
Strategy) to shield capital gains on major stock sales
from federal tax liability. Not knowing the strategy
reflected what the IRS would later deem an abusive tax
shelter, Menzies agreed to go along with the scheme.
He conducted a series of transactions that, through the
substitution of various assets and the operation of
multiple trusts, created an artificial tax loss used to
offset the capital gains he realized upon later selling
his AUI stock.
Northern Trust worked with others in marketing
and implementing the strategy. Christiana Bank, for
example, served as trustee for some of Menzies’s trusts
while tax attorney Graham Taylor and his law firm,
Seyfarth Shaw, provided legal advice. Taylor

App. 4
repeatedly assured Menzies and Ferenc of the tax
shelter’s legality, eventually opining that there was a
“greater than 50 percent likelihood that the tax
treatment described will be upheld if challenged by the
IRS.” Taylor stood by his more-likely-than-not opinion
even after being indicted in 2005 for the commission of
unrelated tax fraud—a development he never disclosed
to Menzies.
In 2006 Menzies sold his AUI stock to Berkshire
Hathaway for over $64 million. Nowhere in his 2006
federal income tax return did Menzies report the sale
or any related capital gains. Nor did Christiana Bank,
which filed tax returns on behalf of Menzies’s trusts,
report any taxable income from the stock sale. When
the IRS learned of these developments, it commenced
what became a three-year audit and found that the
primary purpose of the Euram Oak Strategy was tax
evasion. Facing large fines and potential adverse legal
action, Menzies agreed in October 2013 to settle with
the IRS, paying over $10 million in back taxes,
penalties, and interest.
In April 2015 Menzies filed suit in the Northern
District of Illinois, advancing a civil RICO claim and
various Illinois law claims against Taylor, Seyfarth
Shaw, Northern Trust, and Christiana Bank. The
district court granted the defendants’ motion to
dismiss, but from there twice allowed Menzies to
amend his complaint. Indeed, the district court
afforded Menzies a full year of discovery to develop
facts to support renewed pleading of the RICO claim
that appeared in his second amended complaint in
August 2017. On the defendants’ motion, the district

App. 5
court dismissed that complaint for failure to state any
claim. Menzies now appeals.
II
A. The RICO Bar for Actionable Securities
Fraud
Before addressing the district court’s dismissal of
Menzies’s RICO claim, we confront a threshold issue
pressed by the defendants—whether an amendment to
the RICO statute added by the Private Securities
Litigation Reform Act of 1995 or PSLRA precluded
Menzies from bringing a RICO claim in the first
instance. We agree with the district court that the bar
now embodied in 18 U.S.C. § 1964(c) did not prevent
Menzies from pursuing a RICO claim on the facts
alleged in his complaint.
In enacting the PSLRA, Congress did more than
seek to curb abusive practices in securities class
actions by, for example, imposing a heightened
pleading standard, requiring a class representative to
be the most adequate plaintiff, and limiting damages.
See Amgen Inc. v. Connecticut Ret. Plans & Trust
Funds, 568 U.S. 455, 475–76 (2013) (describing the
PSLRA). The enactment also amended RICO to
prohibit a cause of action based on “any conduct that
would have been actionable as fraud in the purchase or
sale of securities.” 18 U.S.C. § 1964(c) (emphasis
added).
Upon reviewing the allegations in Menzies’s original
complaint, the district court denied the defendants’
motion to dismiss the RICO claim based on the bar in
§ 1964(c). The district court started with the

App. 6
observation that “nothing about the sale of his AUI
stock itself was fraudulent.” Menzies v. Seyfarth Shaw
LLP, 197 F. Supp. 3d 1076, 1116 (N.D. Ill. 2016)
(“Menzies I”). “By selling Plaintiff a bogus tax shelter
plan,” the court reasoned, “[d]efendants were
attempting to hide the resulting income from Plaintiff’s
sale of stock from the IRS,” and “[i]n both form and
substance” this was a “case about tax shelter fraud, not
securities fraud.” Id.
The defendants urge us to reverse, contending that
the RICO bar applies because the whole point of the
Euram Oak Strategy was for Menzies to avoid realizing
taxable gains from a stock sale. But for the stock sale,
the tax shelter meant nothing, thereby easily
satisfying, as the defendants see it, the requirement for
the alleged fraud to be “in connection with” the sale of
a security and thus actionable as securities fraud under
section 10(b) of the Securities and Exchange Act of
1934, 15 U.S.C. § 78j(b), and SEC Rule 10b-5, 17 C.F.R.
§ 240.10b-5.
We see the analysis as more difficult. By its terms,
the bar in § 1964(c), as the district court recognized,
requires asking whether the fraud Menzies alleged in
his complaint would be actionable under the securities
laws, in particular under section 10(b) and Rule 10b-5.
See Rezner v. Bayerische Hypo-Und Vereinsbank AG,
630 F.3d 866, 871 (9th Cir. 2010) (assessing the PSLRA
bar and explaining that “[a]ctions for fraud in the
purchase or sale of securities are controlled by section
10(b) of the Securities Exchange Act of 1934”); Bixler v.
Foster, 596 F.3d 751, 759–60 (10th Cir. 2010) (adopting
a similar approach); Affco Investments 2001, LLC v.

App. 7
Proskauer Rose, LLP, 625 F.3d 185, 189–90 (5th Cir.
2010) (same).
Had he sought to plead a securities fraud claim
under those provisions, Menzies would have had to
allege a material misrepresentation or omission by a
defendant, scienter, a connection between the
misrepresentation or omission and the purchase or sale
of a security, reliance, economic loss, and loss
causation. See Glickenhaus & Co. v. Household Int’l.,
Inc., 787 F.3d 408, 414 (7th Cir. 2015) (citing
Halliburton Co. v. Erica P. John Fund, Inc., 573 U.S.
258, 267 (2014)). The district court got it right in
concluding that the allegations in Menzies’s original
complaint did not amount to actionable securities fraud
under federal law.
The Supreme Court supplied substantial direction
in SEC v. Zandford, 535 U.S. 813 (2002). The SEC
brought a civil securities fraud action against a
stockbroker who sold his elderly and disabled clients’
securities and pocketed the proceeds. See id. at 815.
The Court granted review to determine whether the
stockbroker’s theft, which the SEC alleged also
constituted securities fraud, was sufficiently “in
connection with” the sale of the clients’ securities to fall
within section 10(b) and Rule 10b-5. The Court
answered yes, explaining that both provisions “should
be construed ‘not technically and restrictively, but
flexibly to effectuate its remedial purposes.’” Id. at 819
(quoting Affiliated Ute Citizens of Utah v. United
States, 406 U.S. 128, 151 (1972)). As a practical
pleading matter, the Court continued, that meant a
plaintiff need not allege any misrepresentation or

App. 8
omission about a security’s value. Nor was it necessary
to allege misappropriation or, even more generally,
another form of manipulation of a security. What would
be enough, the Court held, are allegations where “the
scheme to defraud and the sale of securities coincide.”
Id. at 822.
The SEC’s allegations met this standard because
the stockbroker defendant, alongside affirmatively
misrepresenting how he intended to manage his clients’
investments—he “secretly intend[ed] from the very
beginning to keep the proceeds”—acted on that intent
by engaging in unauthorized securities sales. Id. at
824. This misconduct “deprived [his clients] of any
compensation for the sale of their valuable securities.”
Id. at 822. The “securities transactions and breaches of
fiduciary duty coincide[d],” the Court explained,
because the “[clients’] securities did not have value for
the [stockbroker] apart from their use in a securities
transaction and the fraud was not complete before the
sale of securities occurred.” Id. at 824–25. Put another
way, the SEC’s allegations left no daylight between the
alleged fraud and the securities sale.
Measured by these Zandford standards, Menzies’s
allegations do not satisfy the “in connection with”
requirement for an actionable claim under section 10(b)
or Rule 10b-5. Start with the alleged fraud itself.
Menzies’s complaint focused not on the AUI stock sale,
but instead on its tax consequences. He alleged that the
defendants marketed a tax shelter that they knew was
abusive—that would conceal capital gains from the
U.S. Treasury—and caused him to incur not just
unexpected taxes and related interest and penalties but

App. 9
also substantial professional fees. Yes, this may be
enough to show that but for following the defendants’
advice and selling his AUI stock he would not have
incurred the taxes and related interest and penalties.
Yet we know that such “but for” allegations do not
satisfy section 10(b) under the teachings of Zandford.
See Ray v. Citigroup Global Mkts., Inc., 482 F.3d 991,
995 (7th Cir. 2007) (explaining that “[i]t is not
sufficient [under section 10(b) and Rule 10b-5] for an
investor to allege only that it would not have invested
but for the fraud” and instead the investor must go
further and “allege that, but for the circumstances that
the fraud concealed, the investment … would not have
lost its value”) (quoting Caremark, Inc. v. Coram
Healthcare Corp., 113 F.3d 645, 648–49 (7th Cir.
1997)).
If Menzies had tried to bring a securities fraud
claim, he would have had to close this pleading gap.
His complaint would have had to tether more directly
the fraud to the stock sale by including allegations that
went beyond any “but for” link and allowed a finding
that the defendants’ misrepresentations more closely
coincided with Menzies’s sale of his AUI stock.
Menzies, in short, would have needed to plead facts
demonstrating that he incurred his alleged losses as a
more direct consequence of misrepresentations that
closely touched the stock sale itself and not just its tax
consequences. That the purpose of the tax shelter
aimed to maximize the profits that Menzies realized
from his stock sale cannot itself bridge this gap. See
Ouwinga v. Benistar 419 Plan Servs., Inc., 694 F.3d
783, 791 (6th Cir. 2012) (affirming a district court’s
conclusion that the RICO bar did not apply because the

App. 10
plaintiffs’ “fraud claim relates only to the tax
consequences of the Benistar Plan, and it is merely
incidental that the [insurance] policies happen to be
securities”); Rezner, 630 F.3d at 872 (concluding the
RICO bar did not apply where, in a tax shelter fraud,
“the securities were merely a happenstance cog in the
scheme”).
We can come at the analysis another way. No aspect
of the complaint challenged any term or condition on
which Menzies sold his AUI shares to Berkshire
Hathaway. The complaint all but says every aspect of
the stock sale itself was entirely lawful. Even more
generally, no portion of the complaint alleged that any
defendant engaged in an irregularity that tainted or
affected the stock-sale transaction, including, for
example, by influencing the sales price or somehow
causing the proceeds to be mishandled. Every
indication is that Menzies received every last dollar he
expected from the sale. The fraud Menzies alleged is at
least one step removed—focused not on the sale of the
AUI stock but on how and why he charted a particular
course in his treatment of the sale for federal tax
purposes and the losses he sustained by doing so.
Do not read us to say that Menzies failed to allege
fraud. He plainly did when considered through the
prism of common law standards. What we cannot say,
though, is that—for purposes of applying the RICO bar
in § 1964(c)—Menzies’s allegations amounted to
actionable securities fraud under the standards the
Supreme Court has told us are required by section
10(b) and Rule 10b-5.

App. 11
While not aligning with the defendants’ view of the
law, our holding does seem on all fours with what we
see and do not see in the securities fraud case law. Our
research, limited though it is to reported decisions,
reveals no meaningful number of section 10(b) and
Rule 10b-5 private federal securities fraud claims
brought to challenge abusive tax shelters. Nor do we
see an indication that the SEC has brought many
enforcement proceedings alleging securities fraud to
combat abusive tax shelters. None of this suggests that
fraud perpetrated as part of a scheme to evade taxes
can never be actionable under section 10(b). Our point
is limited only to the observation that the federal
reporters do not contain many examples of such
actions, whether by private parties or the SEC. And
perhaps that reality owes itself, at least in part, to the
demanding requirements for pleading a federal
securities law claim.
Unable to conclude that Menzies’s allegations of
fraud would be actionable under section 10(b) or Rule
10b-5, we turn, as did the district court, to his civil
RICO claim.
B. Civil RICO Claims and the Pattern Element
Enacted in response to long-term criminal activity,
including, of course, acts of organized crime, RICO
provides a civil cause of action for private plaintiffs and
authorizes substantial remedies, including the
availability of treble damages and attorneys’ fees. See
18 U.S.C. § 1964(c). Establishing a RICO violation
requires proof by a preponderance of the evidence of
“(1) conduct (2) of an enterprise (3) through a pattern
(4) of racketeering activity.” Sedima, S.P.R.L. v. Imrex

App. 12
Co., 473 U.S. 479, 496–97 (1985) (interpreting
§ 1964(c)). It follows that a plaintiff must plead these
elements to state a claim. Congress defined a “pattern
of racketeering activity” to require “at least two acts of
racketeering activity” within a ten-year period. 18
U.S.C. § 1961(5).
Satisfying the pattern element is no easy feat and
its precise requirements have bedeviled courts. See
Jennings v. Auto Meter Prod., Inc., 495 F.3d 466, 472
(7th Cir. 2007) (emphasizing that “courts carefully
scrutinize the pattern requirement”); J.D. Marshall
Int’l, Inc. v. Redstart, Inc., 935 F.2d 815, 820 (7th Cir.
1991) (“Satisfying the pattern requirements—that
there be continuity and relationship among the
predicate acts—is not easy in practice.”).
The Supreme Court has considered the issue at
least twice, and our case law shows many efforts to
articulate what a plaintiff must plead to establish a
pattern of racketeering activity. See, e.g., Sedima, 473
U.S. at 496; H.J., Inc. v. Northwestern Bell Tel. Co., 492
U.S. 229, 237–38 (1989); Vicom, Inc. v. Harbridge
Merchant Servs., Inc., 20 F.3d 771, 779–80 (7th Cir.
1994); McDonald v. Schencker, 18 F.3d 491, 497 (7th
Cir. 1994). Over these many cases the law has landed
on a pleading and proof requirement designed “to
forestall RICO’s use against isolated or sporadic
criminal activity, and to prevent RICO from becoming
a surrogate for garden-variety fraud actions properly
brought under state law.” Midwest Grinding Co., Inc.
v. Spitz, 976 F.2d 1016, 1022 (7th Cir. 1992) (citing
H.J., Inc., 492 U.S. at 240–41).

App. 13
To plead a pattern of racketeering activity, “a
plaintiff must demonstrate a relationship between the
predicate acts as well as a threat of continuing
activity”—a standard known as the “continuity plus
relationship” test. DeGuelle v. Camilli, 664 F.3d 192,
199 (7th Cir. 2011). The Supreme Court announced this
test in H.J., Inc. and made plain that the relationship
prong is satisfied by acts of criminal conduct close in
time and character, undertaken for similar purposes,
or involving the same or similar victims, participants,
or means of commission. See 492 U.S. at 240. The
relatedness of the predicate acts often does not yield
much disagreement, and much more often the focus is
on the continuity prong of the test. See Vicom, 20 F.3d
at 780.
Just so here: the battleground in this appeal is
whether Menzies adequately pleaded the continuity
dimension of the continuity-plus-relationship test.
Doing so requires “(1) demonstrating a closed-ended
series of conduct that existed for such an extended
period of time that a threat of future harm is implicit,
or (2) an open-ended series of conduct that, while shortlived, shows clear signs of threatening to continue into
the future.” Roger Whitmore’s Auto Servs., Inc. v. Lake
County, Ill., 424 F.3d 659, 673 (7th Cir. 2005).
Do not let the labels create confusion. The big
picture question is whether Menzies adequately alleged
that the challenged conduct occurred and went on long
enough and with enough of a relationship with itself to
constitute a pattern. Answering that question is aided
by focusing on two, more particular, inquiries. One of
those inquiries—designed to ascertain the presence of

App. 14
a so-called “closed-ended” series of misconduct—asks
whether there were enough predicate acts over a finite
time to support a conclusion that the criminal behavior
would continue. See Vicom, 20 F.3d at 779–80. The
focus, therefore, is on “the number and variety of
predicate acts and the length of time over which they
were committed, the number of victims, the presence of
separate schemes and the occurrence of distinct
injuries.” Id. at 780 (quoting Morgan v. Bank of
Waukegan, 804 F.2d 970, 975 (7th Cir. 1986)).
The alternative continuity inquiry—applicable to an
“open-ended” series of misconduct—focuses not on what
acts occurred in the past but on whether a concrete
threat remains for the conduct to continue moving
forward. See id. at 782. This can be done by showing
that a defendant’s actions pose a specific threat of
repetition; that the predicate acts form part of the
defendant’s ongoing and regular way of doing business;
or that the defendant operates a long-term association
for criminal purposes. See Empress Casino Joliet Corp.
v. Balmoral Racing Club, Inc., 831 F.3d 815, 828 (7th
Cir. 2016). On these fronts, it is not enough to base an
open-ended continuity theory on just one prior
predicate act and an otherwise unsupported assertion
that criminal activity will continue into the future. See
Gamboa v. Velez, 457 F.3d 703, 709 (7th Cir. 2006)
(explaining that when “a complaint explicitly presents
a distinct and non-recurring scheme with a built-in
termination point and provides no indication that the
perpetrators have engaged or will engage in similar
misconduct, the complaint does not sufficiently allege
continuity”).

App. 15
Added complexity enters where, as here, a plaintiff
seeks to plead RICO’s pattern element through
predicate acts of mail or wire fraud. When that occurs
the heightened pleading requirements of Fed. R. Civ. P.
9(b) apply and require a plaintiff to do more than allege
fraud generally. See Jepson v. Makita Corp., 34 F.3d
1321, 1327 (7th Cir. 1994) (“Of course, Rule 9(b) applies
to allegations of mail and wire fraud and by extension
to RICO claims that rest on predicate acts of mail and
wire fraud.”). Rule 9(b) requires a plaintiff to provide
“precision and some measure of substantiation” to each
fraud allegation. United States ex rel. Presser v. Acacia
Mental Health Clinic, LLC, 836 F.3d 770, 776 (7th Cir.
2016). Put more simply, a plaintiff must plead the
“who, what, when, where, and how” of the alleged
fraud. Vanzant v. Hill’s Pet Nutrition, Inc., 934 F.3d
730, 738 (7th Cir. 2019).
Given these heightened pleading standards and
Congress’s insistence that a RICO claim entail a clear
pattern of racketeering activity, we have cautioned that
“we do not look favorably on many instances of mail
and wire fraud to form a pattern.” Midwest Grinding,
976 F.2d at 1024–25 (quoting Hartz v. Friedman, 919
F.2d 469, 473 (7th Cir. 1990)); see also Jennings, 495
F.3d at 475 (explaining that this court “repeatedly
reject[s] RICO claims that rely so heavily on mail and
wire fraud allegations to establish a pattern”). We can
leave for another day a more fulsome articulation of the
interrelationship of RICO’s pattern requirement and
mail and wire fraud as predicate acts. Our focus here
is whether Menzies, within the four corners of his
complaint, alleged with sufficient particularity the acts

App. 16
of mail and wire fraud he believes demonstrate a
pattern of racketeering activity.
C. Menzies’s
Activity

Allegations

of

Racketeering

In his second amended complaint, Menzies detailed
chapter and verse the fraud the defendants allegedly
perpetrated on him. He told of the defendants
approaching and pitching him the tax benefits of the
Euram Oak Strategy. Reassured multiple times of the
shelter’s legality, Menzies relied on the defendants’
representations, executed the strategy’s component
steps through transactions with trusts and the like,
and ultimately sold his AUI stock for over $64 million
to Berkshire Hathaway. Again relying on the
defendants’ assurances, he then filed his 2006 tax
return without reporting his AUI stock sale as a
taxable event.
Menzies sought to plead RICO’s pattern element by
including allegations that the defendants marketed the
identical or a substantially-similar tax shelter to three
others—his business partner and co-founder of AUI,
Sydney Ferenc, and two other investors, one in North
Carolina and another in Arizona.
Menzies alleged that Northern Trust contacted him
and Ferenc at the same time to develop a financial
advisory relationship. See SAC ¶¶ 25, 42, and 43. The
complaint provides substantial detail on the
defendants’ interactions with Ferenc, including the
dates and content of phone calls, emails, and meetings
geared toward selling and advancing the scheme. See
SAC ¶¶ 58, 62, 63, 76, 81, 86, 88, and 115. By way of

App. 17
example, consider these two factual allegations
detailing the timing and substance of Ferenc’s
interactions with attorney Graham Taylor:
• “On September 30, 2003, Taylor provided
Ferenc with an outline of the pre-arranged
steps of the Euram Oak Strategy via email,
assuring Ferenc that the strategy was
legitimate tax planning.” SAC ¶ 81.
• “On or about August 5, 2004, August 11,
2004 and August 18, 2004, Taylor sent
Ferenc a revised version of the tax opinion
letter via e-mail assuring Ferenc (and
Menzies) that the Euram Oak Strategy was
legitimate tax planning.” SAC ¶ 115.
From there Menzies alleged that Ferenc ultimately
“entered into a transaction substantially similar” to the
one undertaken by Menzies, including by receiving a
loan from Euram Bank, establishing a grantor trust,
and maneuvering various assets in anticipation of a
major stock sale—all in accordance with the
instructions supplied by Taylor and others. SAC ¶ 91.
While the complaint clearly alleges the defendants
marketed the same fraudulent tax shelter to Ferenc,
Menzies stopped short of alleging whether Ferenc
followed through with his sale of AUI stock and
incurred substantial capital gains tax liability and
related penalties and interest as a result of subsequent
IRS scrutiny. The absence of such allegations in no way
meant that Menzies failed to plead a predicate act of
mail and wire fraud involving Ferenc, however. See
United States v. Koen, 982 F.2d 1101, 1106 (7th Cir.

App. 18
1992) (explaining that mail fraud under 18 U.S.C.
§ 1341 requires not actual and successful deception but
only “(1) a scheme to defraud and (2) use of the mail for
the purpose of executing, or attempting to execute, the
scheme to defraud”).
Menzies further alleged an Arizona investor fell
victim to the defendants’ scheme. The second amended
complaint alleged that the Arizona investor received
legal opinions from Taylor and Seyfarth Shaw
regarding the Euram Oak Strategy sometime in 2004.
From there, though, the complaint says little more,
alleging only that it is “reasonable to assume that any
such opinion letter asserts the legality of the [Euram
Oak] Strategy.” SAC ¶ 162. On “information and
belief,” the complaint then alleges that the Arizona
investor incurred unspecified damages from the tax
deficiency that resulted from the scheme, penalties and
interest, professional and attorneys’ fees, and the lost
opportunity to invest in a legitimate tax planning
vehicle. See SAC ¶ 165.
In much the same way, Menzies included similar
allegations of fraud against a North Carolina investor.
According to the complaint, the defendants approached
this investor not with the Euram Oak Strategy but
with a different abusive tax shelter of the same nature
called the Euram Rowan Strategy. See SAC ¶¶ 166,
167. With the exception of Northern Trust, the other
defendants pushed the Euram Rowan Strategy, which
“involved a series of integrated, pre-arranged, and
scripted steps designed to provide a taxpayer who had
significant ordinary or capital gain with a noneconomic ordinary or capital loss.” SAC ¶ 167. Here too,

App. 19
however, the second amended complaint adds few
details. In 2003 the North Carolina investor received
legal opinions from Taylor and Seyfarth Shaw—leaving
Menzies to allege that “it is reasonable to assume that
any such opinion letter asserted the legality of the
transaction.” SAC ¶ 177. From there the complaint
alleges that the North Carolina investor, as a result of
the scheme, owed a tax deficiency of $17.5 million to
the IRS, along with nearly $1 million in penalties. SAC
¶ 180.
The second amended complaint also included broad
allegations of future harm. On this score, Menzies
alleged that “[t]here is a threat of continued
racketeering activity in that Defendants’ predicate acts
of mail and wire fraud were part of their regular way
of conducting business.” SAC ¶ 183. This future threat,
the complaint added, is clear from the “manner in
which the Euram products were presented as products,
with a preexisting team that could execute and support
the tax shelter for other taxpayers and from the
regular manner in which this enterprise did business
with Menzies, Ferenc, [the Arizona and North Carolina
investors] and other investors in the fraudulent Euram
strategies.” SAC ¶ 184.
D. The District Court’s Opinion
The district court dismissed Menzies’s RICO claim
for failing to adequately plead a pattern of racketeering
under either the closed- or open-ended theories of
continuity. See Menzies v. Seyfarth Shaw LLP, No.
15C3403, 2018 WL 4538726 (N.D. Ill. Sept. 21, 2018)
(“Menzies II”).

App. 20
As to the closed-ended approach, the court focused
on Menzies’s allegations of fraud against Ferenc and
the North Carolina and Arizona investors. Relying on
Emery v. American Gen. Fin., Inc., 134 F.3d 1321 (7th
Cir. 1998), the district judge assessed whether these
additional allegations showed the other victims were
“actually deceived” by the defendants’ communications
regarding the scheme. Menzies II, 2018 WL 4538726, at
*4. The district court read Menzies’s complaint to lack
particularity about statements any defendant made to
the Arizona investor about the Euram Oak Tax
Strategy and, even more specifically, whether any
misrepresentation led to the investor being deceived
and suffering adverse tax consequences. The same
deficiency plagued Menzies’s allegations about the
North Carolina investor, as the complaint was silent as
to whether and how the defendants marketed the
Euram Rowan Strategy in a way that resulted in actual
deception and related losses. As to Ferenc, the district
court emphasized that Menzies “does not allege that
Ferenc was deceived, how he was deceived, or even that
he suffered any injury in the way of IRS penalties or
disallowances.” Id. at *5.
In summing these pleading shortcomings, the
district court reasoned that they were “particularly
problematic in a case, like this one, where the
purported victims knowingly entered into tax shelters,
which by their nature are designed to avoid taxes.” Id.
The district court was unwilling to afford Menzies
additional leeway to develop a potential RICO claim
because he had already filed two prior complaints and
had over a year to conduct discovery before filing his
second amended complaint. See id. at *9.

App. 21
Turning to whether that complaint adequately
alleged an open-ended theory of continuity, the district
court likewise concluded that Menzies came up short.
The court emphasized that the complaint identified no
specific threat of the tax avoidance strategy repeating,
in no small part because the attorney responsible for
orchestrating the scheme, Graham Taylor, had been
indicted for tax fraud in 2005 and convicted in 2008.
See id. at *6. These facts, without some alternative
explanation from Menzies, undermined any meaningful
possibility that Graham and the other defendants
would continue to perpetuate the alleged fraud. See id.
What is more, the district court was unwilling—
without supporting facts appearing somewhere in
Menzies’s complaint—to permit an inference that the
alleged fraud reflected any of the institutional
defendants’ regular way of doing business. On
Menzies’s pleading, the district court saw any such
conclusion as reflecting rank speculation. See id. at *7.
E. Menzies’s Insufficient Pleading of the
Pattern Element
We agree with the district court that Menzies failed
to allege a pattern of racketeering based on mail and
wire fraud predicates. The proper analysis begins by
returning to Menzies’s second amended complaint, and
it is there that the details—or lack thereof—matter.
This is so because of the combined demands of RICO’s
pattern element and Rule 9(b)’s particularity mandate.
Menzies is right that he pleaded enough to support
a conclusion that what Sydney Ferenc experienced
qualifies as a predicate act of racketeering activity for
pattern purposes. The second amended complaint is

App. 22
replete with details describing how the defendants used
phone calls, e-mails, and meetings to assure Ferenc
that the Euram Oak Strategy reflected lawful tax
minimization. Those allegations speak directly to the
nature and substance of the mail and wire fraud
allegedly perpetrated on Ferenc and are advanced with
the specificity necessary to clear Rule 9(b)’s
particularity hurdle. And this is so even though
Menzies’s complaint does not allege that Ferenc went
through with AUI stock sales and the Euram Oak
Strategy tax treatment. See Koen, 982 F.2d at 1107.
Menzies’s complaint is night and day different,
though, when it comes to the allegations regarding the
Arizona and North Carolina investors. The details of
the defendants’ interactions with both investors are few
and far between. The second amended complaint says
little more than that one or more of the defendants
targeted these investors and sought to sell them either
the Euram Oak or Rowan Strategies. Nowhere, though,
does the complaint spell out the specifics of any
defendant’s communications with either investor and
instead resorts to saying “on information and belief”
that each of the two investors received an opinion letter
from defendant Graham Taylor and furthermore that
“it is reasonable to assume that any such opinion letter
asserted the legality of the transaction.” SAC ¶¶ 162,
177.
These allegations meet neither Rule 9(b)’s
particularity requirement nor the demands of our
RICO case law. In Emery, we emphasized that RICO’s
pattern element requires more than a plaintiff pointing
to others and saying, on information and belief, that

App. 23
those persons received mailings about an allegedly
fraudulent loan scheme. See 134 F.3d at 1322. The
plaintiff needed to come forward, not with general
statements about what others may have received, but
with particular allegations detailing the content of the
communications with others allegedly defrauded by the
defendant’s conduct. See id. at 1323. Without those
alleged facts there was no way to conclude that the
plaintiff had advanced with particularity the predicate
acts of mail or wire fraud against anyone other than
himself. The complaint, in short, failed to plead the
requisite pattern of racketeering activity. See id.
We see Menzies’s second amended complaint in
much the same way. He did not plead enough about
what transpired with the Arizona and North Carolina
investors for us to know what any defendant
represented, misrepresented, or omitted. Emery
teaches that the pleading bar requires more than
positing that he believes these two investors received
similar opinion letters from Graham Taylor. Resorting
to that level of generality sidesteps what Rule 9(b)
requires. What Menzies needed to do—drawing
perhaps on what he learned in the year of discovery
afforded by the district court—was allege at least some
particulars about the precise communications with
each investor. See Kaz v. Household Int’l, Inc., 91 F.3d
1036, 1040 (7th Cir. 1996) (explaining the demands of
Rule 9(b) are relaxed only if discovery is unavailable to
a plaintiff). Without such allegations, we have no way
to determine whether multiple predicate acts of mail or
wire fraud occurred in a manner that satisfies RICO’s
pattern requirement.

App. 24
Without predicate acts of fraud covering the Arizona
and North Carolina investors, Menzies is left only with
the allegations of what he and Sydney Ferenc
experienced with the defendants. That falls short of
pleading a pattern of racketeering under the closedended approach to the continuity-plus-relationship test
that the Supreme Court announced in H.J., Inc. We
need to look at the number and variety of predicate
acts, the length of time over which they were
committed, the number of victims, the presence of
separate schemes, and the occurrence of distinct
injuries. Vicom, 20 F.3d at 780; see also Roger
Whitmore’s Auto Servs., 424 F.3d at 673 (explaining
that, in this analysis, “[n]o one factor is dispositive”). In
doing so, we keep foremost in mind a “natural and
commonsense approach to RICO’s pattern element,”
which requires enforcing “a more stringent
requirement than proof simply of two predicates, but
also envisioning a concept of sufficient breadth that it
might encompass multiple predicates within a single
scheme that were related and that amount to, or
threatened the likelihood of, continued criminal
activity.” H.J., Inc., 492 U.S. at 237.
But here we only have two individuals (Menzies and
Ferenc)—two business partners and indeed co-founders
of AUI—who allegedly fell victim to the same
fraudulent scheme (the Euram Oak Strategy) at the
same time. While the scheme lasted from 2003 to 2006,
the complaint alleges only that Menzies went through
with the strategy and suffered adverse tax
consequences. The second amended complaint says not
a word about whether Ferenc followed through on the
strategy or suffered financial harm of any kind. Given

App. 25
Menzies’s close business relationship with Ferenc, the
absence of particular factual allegations about how and
to what degree Ferenc was defrauded is noteworthy.
On the whole, though, Menzies alleged enough with
respect to Ferenc to establish a predicate act of mail or
wire fraud. And with those allegations he advanced, in
total, at least two such predicates (against himself and
Ferenc). But RICO’s pattern element is not just
quantitative; it includes qualitative components
designed to ascertain the presence of a pattern of
racketeering activity. And it is on this precise
point—whether Menzies alleged enough, quantitatively
and qualitatively, to show a qualifying pattern of
racketeering activity—that we determine his pleading
was deficient.
To conclude that Menzies has failed to plead closedended continuity is not to say that he has failed to
plead fraud. He clearly has and indeed he uses those
precise allegations of fraud as the basis for his state
law claims against the defendants. But what we are not
permitted to do is allow a plaintiff to shoehorn a statelaw fraud claim into a civil RICO claim. See Jennings,
495 F.3d at 472. It is the statute’s pattern element that
separates the viable RICO wheat from the common-law
chaff, and, despite substantial effort, Menzies has come
up short.
Our analysis of the open-ended theory of a pattern
of racketeering is more straightforward. Only a few
lines of the second amended complaint even hint at any
threat of continued fraud by the defendants, and even
then Menzies presents only conclusory assertions to
support those allegations. He urges us to infer a future

App. 26
threat of repetition because the Euram Oak Strategy
was developed for marketing to many taxpayers and
thus inherently presented a “threat of repetition”
capable of defrauding others.
But “[a] threat of continuity cannot be found from
bald assertions.” Vicom, 20 F.3d at 783. The law
requires us to examine Menzies’s complaint for
allegations of “predicate acts, [which] by their very
nature, pose ‘a threat of repetition extending
indefinitely into the future,’ or ‘are part of an ongoing
entity’s regular way of doing business.’” McDonald, 18
F.3d at 497 (quoting H.J., Inc., 492 U.S. at 242).
What we see is insufficient. Even if we credit
Menzies’s contention that the development and
marketing of the Euram Oak Strategy foretold future
offenses, the claim still would fail to measure up to the
standard of alleging open-ended continuity. That the
tax shelter scheme was, as our dissenting colleague
puts it, an “of-the-rack product” capable of distribution
to other victims does not alone threaten continuity. We
cannot conclude as a legal matter—altogether without
regard to what a plaintiff alleges in a complaint—that
all fraudulent tax shelters designed for use by multiple
taxpayers satisfy open-ended continuity for purposes of
RICO’s pattern element.
A close look at the complaint shows allegations
suggesting that any risk of future fraud was drying up.
As the district court highlighted, a grand jury indicted
Graham Taylor for tax fraud in 2005, and he was
convicted in 2008. With Taylor out of the factual
equation it is unclear how Menzies’s complaint
supports any inference that the alleged scheme would

App. 27
continue. Menzies’s complaint is full of indications that
the scheme was running its course—reaching its
“natural ending point,” Roger Whitmore’s Auto Servs.,
424 F.3d at 674—and was not being shopped to new
targets:
• In 2007, Euram Bank divested from its
subsidiary, Pali Capital, which made integral
contributions to the implementation of the
Euram Oak and Rowan strategies. SAC ¶ 19.
• In 2008, Seyfarth Shaw forced one of Taylor’s
colleagues who had helped with the opinion
letters to resign for himself promoting illegal
tax shelters. SAC ¶ 122.
• As early as 2003, Christiana Bank and
Euram Bank were conducting internal
investigations with the assistance of outside
counsel “regarding the possibility that the
Euram Oak Strategy might be a reportable
transaction to the IRS.” SAC ¶ 94.
Nowhere does Menzies counterbalance these
allegations with facts suggesting the schemes promoted
by the defendants presented any meaningful prospect
of continuing. Instead, the thrust of Menzies’s
complaint conveys that the defendants were taking
action to move away from the promotion of the
fraudulent tax shelters challenged here.
The dissent sees our analysis as falling prey to
“hindsight error” by considering these intervening
events. Not so. All we have done is reach a conclusion
about the sufficiency of Menzies’s RICO pleading by
assessing the totality of his factual allegations. We

App. 28
cannot stop halfway by, for example, over-looking what
Menzies chose to plead about Taylor’s indictment and
what did (and did not) happen in its wake. The openended continuity inquiry requires more than
pinpointing a moment in time where it looked like a
scheme may entail continuity but then disregarding
facts supplied by the plaintiff that point in the opposite
direction. What is missing from Menzies’s second
amended complaint is any factual allegation supporting
his conclusion that, following Taylor’s arrest and
indictment, there existed a threat of the defendants
fraudulently marketing the tax shelter into the
indefinite future.
Because Menzies did not plead a pattern of
racketeering under either an open- or closed-ended
theory of continuity, we agree with the district court’s
dismissal of his RICO claim.
III
In closing we turn to Menzies’s state law claims.
Beyond his federal RICO claim, Menzies advanced
claims under Illinois law for fraudulent
misrepresentation, conspiracy, joint enterprise liability,
negligent misrepresentation, breach of fiduciary duty,
and unjust enrichment. Exercising supplemental
jurisdiction, the district court addressed each of these
claims in one broad stroke. The court determined each
claim was untimely under the five-year statute of
repose formerly found in Illinois Securities Law, 735
ILCS 5/12 et seq., and in effect during the relevant
period—in particular, during the five years after
Menzies’s May 2006 sale of his AUI stock. (In August
2013, the Illinois legislature amended the Securities

App. 29
Law to remove this provision.) While we disagree with
that conclusion, we nonetheless find that a separate
limitations period in Illinois law operates to preclude
some—but not all—of Menzies’s state law claims.
A
The Illinois Securities Law’s (former) statute of
repose provided that “[n]o action shall be brought
under this Section or upon or because of any of the
matters for which relief is granted by this Section”
after five years from the securities transaction at issue.
815 ILCS 5/12(D). Illinois courts have emphasized the
provision’s breadth, explaining that the five-year time
bar applies to any claim—whether brought under the
Illinois Securities Law or otherwise—that fits within
the statute’s substantive prohibitions. See, e.g.,
Tregenza v. Lehman Bros., Inc., 678 N.E.2d 14, 15 (Ill.
App. Ct. 1997) (concluding that the Illinois Securities
Law’s statute of repose barred common law claims,
including for fraud, because those claims were “reliant
upon matters for which relief is granted by the
Securities Law”); see also Klein v. George G. Kerasotes
Corp., 500 F.3d 669, 671 (7th Cir. 2007) (recognizing
that the Illinois Securities Law’s limitations periods
apply to common law claims that otherwise could have
been brought as securities fraud claims under the
statute). So the controlling question is whether
Menzies could have brought his state law claims as
securities fraud claims under the Illinois Securities
Law.
Section 12(F) of the Illinois law prohibits any person
from “engag[ing] in any transaction, practice or course
of business in connection with the sale or purchase of

App. 30
securities which works or tends to work a fraud or
deceit upon the purchaser or seller thereof.” 815 ILCS
5/12(F). For its part, section 12(I) disallows any person
from “employ[ing] any device, scheme, or artifice to
defraud in connection with the sale or purchase of any
security, directly or indirectly.” 815 ILCS 5/12(I).
If these provisions sound like the prohibitions in the
federal securities laws, that is the right reaction. The
Illinois legislature modeled sections 12(F) and 12(I)
after parallel provisions in section 17(a) of the
Securities Act of 1933. See Tirapelli v. Advanced
Equities, Inc., 813 N.E.2d 1138, 1142 (Ill. App. Ct.
2004). Not surprisingly, then, “Illinois courts look to
federal securities fraud case law in interpreting [that
section] of the Illinois Securities Law.” Id.
After outlining this same framework, the district
court evaluated Menzies’s state law claims by asking
whether the alleged fraud fell within the ambit of
sections 12(F) and 12(I) of the Illinois Securities Law.
More to it, the district court asked whether the
allegations in Menzies’s second amended complaint
reflected fraud “in connection with” the sale of his AUI
stock. This, of course, was the same question at the
center of the inquiry as to whether the RICO bar in
18U.S.C. § 1964(c) precluded Menzies from bringing a
civil RICO claim.
For reasons unexplained by the record, however, the
district court gave two different answers to this same
question. In its July 2016 opinion the district court
concluded that Menzies had not alleged “an ‘actionable’
securities claim [within the meaning of the § 1964(c)
bar], because nothing about the sale of his AUI stock

App. 31
itself was fraudulent in this case.” Menzies I, 197 F.
Supp. 3d at 1116. But then two years later, in its
September 2018 opinion, the court determined that the
five-year statute of repose in the Illinois Securities Law
barred each of Menzies’s state law claims because those
claims met the “in connection with” requirement by
alleging the “entire purpose of the tax shelter was to
shield the proceeds of [Menzies’s AUI] stock sale.”
Menzies II, 2018 WL 4538726, at *8. We cannot square
these answers.
Regardless, our review of the district court’s order
dismissing Menzies’s state law claims proceeds de novo,
and, based on our own fresh look at the allegations in
his second amended complaint, we cannot conclude he
pleaded claims within the scope of sections 12(F) and
12(I) of the Illinois Securities Law.
We are aware of no substantive differences between
the “in connection with” requirements in sections 12(F)
and 12(I) of the Illinois statute and either section 17(a)
of the federal 1933 Act or section 10(b) and Rule 10b-5
of the federal 1934 Act. And accepting that the Illinois
courts look to the federal securities laws to interpret
the Illinois Securities Law, see Tirapelli, 813 N.E.2d at
1142; People v. Whitlow, 433 N.E.2d 629, 633–34 (Ill.
1982), we see no reason to depart from our prior
conclusion that Menzies’s original complaint did not
contain allegations sufficient to constitute actionable
securities fraud under section 10(b) and Rule 10b-5.
See Schaefer v. First Nat’l Bank of Lincolnwood, 509
F.2d 1287, 1295 (7th Cir. 1975) (explaining that section
12 of the Illinois Securities Law “closely parallels Rule

App. 32
10b-5 and a study of [the statute] reveals a nearly
identical aim”).
As we explained when evaluating whether
Menzies’s allegations fell within the RICO bar of 18
U.S.C. § 1964(c), we see an insufficient link between
the alleged fraud—deception about the tax
consequences of a sale of AUI stock—and the securities
transaction itself. To be sure, while a “but for”
connection is there, we know the law requires more.
See Ray, 482 F.3d at 995. And Menzies’s complaints do
not supply the more because nowhere does he allege
any misconduct that coincided with his sale of his AUI
stock. See Zandford, 535 U.S. at 824. What this means
for purposes of the RICO bar is that Menzies’s
allegations do not amount to actionable federal
securities fraud and thus he was able to proceed with
his civil RICO claim. And so, too, for purposes of the
Illinois Securities Act: Menzies’s state law claims are
not barred by the statute’s five-year period of repose.
B
The question then becomes whether any other
Illinois law bars Menzies’s claims. The answer turns
out to be yes as to the state law claims brought against
defendants Graham Taylor, the attorney who provided
legal advice to Menzies about the Euram Oak tax
shelter, and his firm, Seyfarth Shaw.
The Illinois statutory provision addressing attorney
misconduct contains a two-year statute of limitations
and a six-year statute of repose. See 735 ILCS 5/13214.3. The Illinois General Assembly provided that:

App. 33
(b) An action for damages based on tort,
contract, or otherwise against an attorney
arising out of an act or omission in the
performance of professional services … must be
commenced within 2 years from the time the
person bringing the action knew or reasonably
should have known of the injury for which
damages are sought.
(c) [A]n action described in subsection (b) may
not be commenced in any event more than 6
years after the date on which the act or omission
occurred.
Id.
By its terms, the statute covers the claims against
Taylor, as the second amended complaint plainly
alleges that he provided fraudulent legal advice and
opinion letters, all of which fell within his role as
Menzies’s counsel. The Illinois statute likewise covers
Menzies’s claims against Seyfarth Shaw. See Blue
Water Partners, Inc. v. Edwin D. Mason, Foley and
Lardner, 975 N.E.2d 284, 297 (Ill. App. Ct. 2012)
(applying the statute of limitations in 735 ILCS 5/13214.3 to claims against a law firm).
All that remains is a question of timing. On this
score, the math is straightforward and does not
compute in Menzies’s favor. Even on the most generous
framing of the facts—that Menzies did not discover the
alleged attorney misconduct until he received his
deficiency notice from the IRS and settled in December
2012—he would still be beyond the two-year limitations
period in Illinois law by filing his lawsuit in federal

App. 34
court as he did in April 2015. Under any timeline, then,
we conclude that this provision of Illinois law bars each
of the state law claims Menzies brought against Taylor
and Seyfarth Shaw.
The same is not true as to the state law claims
advanced against the remaining financial services
defendants, Northern Trust and Christiana Bank &
Trust Company. On remand the district court will
retain subject matter jurisdiction over those claims
under 28 U.S.C. § 1367. We leave the consideration of
those claims to the district court in the first instance.
***
Therefore, the judgment of the district court is
AFFIRMED in part, VACATED in part, and
REMANDED for proceedings consistent with this
opinion.

App. 35
HAMILTON, Circuit Judge, dissenting in part. We
should reverse the dismissal of plaintiff’s RICO claims.
The complaint alleges multiple acts of racketeering
showing the “continuity and relationship” needed to
establish a “pattern of racketeering activity.” Plaintiff
has alleged in detail how the defendants created an offthe-shelf tax-shelter scam—one that was easily
replicable for other, similarly situated taxpayers facing
substantial tax bills on large capital gains. The
defendants marketed the scam to plaintiff and others.
They were positioned to keep the fraud going unless
and until they were stopped.
The majority errs by finding insufficient plaintiff’s
allegations of a “pattern” of racketeering activity. The
most fundamental mistake is the majority’s use of the
distorting lens of hindsight. The majority relies on
intervening events to find no genuine threat that the
defendants would have continued indefinitely with
their profitable scheme. That mistake weakens RICO
for both civil and criminal enforcement. The mistake is
also contrary to substantial case law and has no
apparent support in the case law. My colleagues also
demand far too much from a complaint that is already
quite detailed, and they fail to give plaintiff the benefit
of plausible inferences from his complaint. I
respectfully dissent from the dismissal of plaintiff’s
RICO claims.
I. Points of Agreement
I agree with my colleagues on some important
points, however. We agree that the securities-fraud bar
to civil RICO claims, which was added to 18 U.S.C.
§ 1964(c) by the Private Securities Litigation Reform

App. 36
Act of 1995, does not apply to plaintiff’s claims. We also
agree on the dispositions of the defendants’ various
statute of limitations defenses to plaintiff’s state-law
claims. I concur with the portions of the judgment that
address the state-law claims.
II. The RICO “Pattern” Requirement
Turning to the RICO claims: Because defendants
moved to dismiss under Federal Rule of Civil Procedure
12(b)(6) for failure to state a claim, I use harsh
language to describe the actions of a well-known law
firm and two otherwise-legitimate banks. I do not
vouch for the truth of plaintiff’s allegations. I only
apply the standard of appellate review that defendants
themselves have invoked: assume the factual
allegations in the complaint are true, and give plaintiff
the benefit of reasonable, favorable inferences that can
be drawn from those allegations.
A. The Fraudulent Scheme
Attorney Graham Taylor (later convicted for
another tax fraud) and other attorneys at Seyfarth
Shaw teamed up with bankers from Euram Bank (The
European American Investment Bank), Northern Trust
Corporation, and later Christiana Bank to devise a
fraudulent scheme for concealing a taxpayer’s receipt
of a large capital gain. The defendants pitched the
scheme to Menzies, his business partner Ferenc, and
others.
The scheme involved a series of carefully designed
paper transactions among the taxpayer, the banks, and
nominally independent trusts established on the
defendants’ instructions, all blessed with fraudulent

App. 37
legal opinion letters. The strategy took several years to
set up and execute just for Menzies himself, beginning
about three years before he actually sold his stock in
AUI to Berkshire Hathaway.
The complaint describes the scheme in great detail.
A brief description of the “Euram Oak Strategy,” must
be incomplete but can help show its complexity and
why plaintiff characterizes the scheme as a “product”
that defendants used at least several times and
threatened to continue to repeat.
The scheme used a network of trusts and a dizzying
array of sham transactions to disguise the ownership
of AUI stock and to enable Menzies to obscure a large
capital gain upon the eventual sale of the stock. See
Second Amended Cplt. (SAC) ¶¶ 65–97 (detailing the
2003 and 2004 transactions). Menzies began to execute
defendants’ fraudulent “Euram Oak Strategy” in 2003.
First, defendants had him borrow $19 million from
Euram and deposit those funds in another Euram
account in the name of a trust that the defendants had
just set up for him. SAC ¶ 74. The trust reinvested the
proceeds with Euram itself, in return for a promissory
note. The defendants then set up another trust for
Menzies and orchestrated a series of sham transactions
among Menzies and the trusts. SAC ¶ 79.
Menzies then swapped assets with the original
trust, accepting the Euram promissory note in
exchange for an equal value of AUI stock, and used the
note to pay off his original loan obligation. SAC
¶¶ 83–85. After another series of transactions involving
the movement of assets and the termination of the first
trust, the second trust held $19 million of AUI stock

App. 38
and owed Menzies $19 million. SAC ¶ 90. Throughout
all of this, the funds from the original loan never left
Euram.
In 2004, the defendants led Menzies through
another series of similar transactions with a new $54
million loan from Euram. SAC ¶¶ 95–96. After these
transactions, another $54 million of AUI stock was in
the second trust, with a corresponding obligation from
the trust to Menzies.
The payoff came in 2006, when Menzies and Ferenc
agreed to sell their business to Berkshire Hathaway.
As part of the deal, Berkshire Hathaway paid the
remaining trust more than $64 million for the shares
that Menzies had placed there. SAC ¶ 132. The trust
then used the proceeds from the sale to repay Menzies
the amount it owed him.
Pursuant to advice from the defendants, when
Menzies filed his 2006 tax return, he did not report his
capital gain of more than $44 million. SAC ¶ 143. In
2009, the IRS began an audit of Menzies, finding that
the key transfers of stock were not arms-length
transactions and that the scheme constituted an
abusive tax shelter SAC ¶¶ 138–40. In 2012, Menzies
settled with the IRS, paying $6.7 million in capital
gains tax, $1.3 million in penalties, and $2.4 million in
interest.
B. Allegations of a “Pattern”
The complaint includes detailed allegations about
the scope of the defendants’ scheme, their efforts to
market it and its variations, and the threat of
continued criminal activity. See SAC ¶¶ 25–27, 50–55,

App. 39
69, 82, 89, 122, 157–58, 180–84. The defendants’
scheme was not like a custom-designed suit, cut just for
Menzies. It was more like an of-the-rack suit: it would
fit a specific class of taxpayers with just a few
individual alterations at minimal effort and cost. With
repetition, costs per taxpayer-client would drop and the
defendants’ profits from fees would rise, adding to the
incentive for and the threat of repetition. The potential
for repeated use of the fraudulent tax shelter helps
show why plaintiff has alleged a pattern of
racketeering activity. See SAC ¶ 157 (“it is the very
nature of a tax shelter product, such as the Euram Oak
Strategy, to be created once and then replicated
multiple times to multiple taxpayers”).
The complaint does not rely on conclusions to show
a pattern. It includes specific factual allegations
showing the replicable nature of the fraudulent tax
shelter and the threat of continued fraud with other
taxpayers. For example, defendants presented plaintiff
with slick marketing materials for the tax
shelter—prepared with Euram—that came with a
disclaimer addressed generally to “investors.”1 Before
defendants would discuss the details of their proposed
tax shelter, they required Menzies to sign a
confidentiality agreement, which the complaint
describes as “typical in the presentation of purportedly
proprietary tax shelter products,” SAC ¶ 36, indicating
that defendants saw their ingenuity as a proprietary
secret from which they could continue to profit by
repetition. One can also reasonably infer that the
1

The Power-Point slides, labeled as Euram products, are an
appendix to the complaint.

App. 40
confidentiality agreement had the effect of deterring or
preventing targets from seeking truly independent
legal and tax advice.
Other paragraphs of the complaint show that the
defendants marketed to Menzies and Ferenc an off-therack product that they were adapting from previous
applications for other clients. The defendants
themselves noted the similarity between Menzies’s
transactions and the transactions carried out for these
other clients, referred to in the briefs as “the Arizona
investor” and “the North Carolina investor.” When the
other defendants recruited Christiana Bank to act as a
supposedly independent trustee for Menzies and
Ferenc, they told Christiana that the proposed
transactions would be “very similar” to previous
transactions carried out for the Arizona investor. SAC
¶ 50. When later sending documents to Christiana, the
other defendants said the documents “should be
familiar to you from the [Arizona] transaction,” and
were “very similar” to those used in the Arizona
transaction. SAC ¶ 78. When the other defendants sent
more documents to Christiana for the proposed
Menzies and Ferenc transactions, they said the
transaction would be “in essence identical to that for”
the Arizona investor. SAC ¶ 82. Another email to
Christiana described the Menzies and Ferenc
transactions as “two new trades involving the Oak
structure.” SAC ¶ 89.
Thus, the defendants themselves described the tax
shelter strategy as a template that they had used
before, were adapting to Menzies and Ferenc, and could
continue replicating and adapting for other taxpayers.

App. 41
As the complaint alleges, these sorts of communications
helped demonstrate “a continued threat that the
Euram Oak strategy could later be replicated for other
taxpayers.” Id.
C. “Continuity Plus Relationship”
These detailed allegations easily satisfy pleading
requirements for a civil RICO claim, including the
required “pattern of racketeering activity.” To start
with RICO basics, “racketeering activity” is defined
with a long list of specific crimes and categories of
crime. 18 U.S.C. § 1961(1). That list includes mail
fraud and wire fraud under 18 U.S.C. §§ 1341 & 1343.
As a matter of general federal criminal law, each
individual mailing or interstate wire transmission in
furtherance of a scheme to defraud can count as a
separate act of mail or wire fraud.2
RICO provides that a “‘pattern of racketeering
activity’ requires at least two acts of racketeering
activity’” that occur within ten years of each other. 18
U.S.C. § 1961(5). The Supreme Court has interpreted
this to require that the predicate acts of racketeering

2

E.g., United States v. Bush, 522 F.2d 641, 649 (7th Cir. 1975)
(“Each of the eleven counts of the indictment charges only one
offense—a mailing in furtherance of one multifaceted scheme in
violation of the mail fraud statute.”); United States v. Brighton
Building & Maintenance Co., 435 F. Supp. 222, 229 n.10 (N.D. Ill.
1977) (Flaum, J.), citing United States v. Joyce, 499 F.2d 9, 18 (7th
Cir. 1974), quoting in turn Badders v. United States, 240 U.S. 391,
394 (1916); see also Bridge v. Phoenix Bond & Indemnity Co., 553
U.S. 639, 648 (2008) (observing that each individual mailing in
furtherance of single scheme to defraud is predicate act of mail
fraud under RICO).

App. 42
activity show “continuity plus relationship.” See Roger
Whitmore’s Auto Services, Inc. v. Lake County, 424 F.3d
659, 672 (7th Cir. 2005), quoting H.J., Inc. v.
Northwestern Bell Telephone Co., 492 U.S. 229, 239
(1989), quoting in turn 116 Cong. Rec. 18940 (1970)
(Sen. McClellan), quoting S. Rep. No. 91–617, at 158.
The majority’s restrictive approach to the pattern
requirement here has lost sight of the point the
Supreme Court emphasized in H.J., Inc.: the statutory
language shows that “Congress intended to take a
flexible approach, and envisaged that a pattern might
be demonstrated by reference to a range of different
ordering principles or relationships between predicates,
within the expansive bounds set.” 492 U.S. at 238.
Our decisions have long recognized this need for
flexibility in applying the pattern requirement. In
Morgan v. Bank of Waukegan, 804 F.2d 970, 975 (7th
Cir. 1986), we anticipated the holding of H.J., Inc. and
rejected a rigid requirement of “separate schemes.” In
applying the “continuity plus relationship” standard,
we recognized that many factors would be relevant,
including “the number and variety of predicate acts
and the length of time over which they were
committed, the number of victims, the presence of
separate schemes and the occurrence of distinct
injuries.” Id. We cautioned, however, that having one
overall scheme or even just one victim would not
automatically defeat the pattern requirement: “The
doctrinal requirement of a pattern of racketeering
activity is a standard, not a rule, and as such its
determination depends on the facts and circumstances
of the particular case, with no one factor being
necessarily determinative.” Id. at 976. Morgan reversed

App. 43
dismissal in a case with a much weaker claim of a
pattern than we see here. The plaintiffs alleged that
defendants committed several acts of mail fraud over
several years in furtherance of one overall scheme to
defraud plaintiffs through foreclosure sales: “While
these acts can be viewed as part of a single grand
scheme, they were ongoing over a period of nearly four
years in addition to being distinct acts. Under the facts
of this case, plaintiffs have satisfied both the continuity
and relationship aspects of the pattern requirement.”
Id.3
Finding both continuity and relationship here is
consistent with our decisions that have recognized the
generality and flexibility of the standard, eschewing
rigid rules in both criminal and civil RICO cases. See,
e.g., United States v. Horak, 833 F.2d 1235, 1240 (7th
Cir. 1987) (affirming RICO conviction; defendants’
three bribes to local officials with monthly payments

3

The flexibility of the pattern standard is evident in this circuit’s
pattern criminal jury instructions, which suggest the following
general explanation for charges under 18 U.S.C. § 1962:
Acts are related to each other if they are not isolated
events, that is, if they have similar purposes, or results, or
participants, or victims, or are committed a similar way,
[or have other similar distinguishing characteristics] [or
are part of the affairs of the same enterprise].
There is continuity between acts if, for example, they are
ongoing over a substantial period, or if they are part of the
regular way some entity does business or conducts its
affairs.
Under this instruction, a jury that heard proof of plaintiff’s
allegations here could easily find a pattern.

App. 44
were sufficient to show pattern under flexible standard
aimed at ongoing crimes); Ashland Oil, Inc. v. Arnett,
875 F.2d 1271, 1278–79 (7th Cir. 1989) (affirming jury
verdict for plaintiffs on pattern issue where defendants’
fraud and theft injured four victims in separate
transactions over a period of months); Olive Can Co. v.
Martin, 906 F.2d 1147, 1152 (7th Cir. 1990) (describing
Ashland Oil activity as open-ended scheme that
threatened continued crime, and confirming that
Morgan test is consistent with H.J., Inc.); DeGuelle v.
Camilli, 664 F.3d 192, 202–04 (7th Cir. 2011)
(reversing dismissal of RICO claim; pattern shown
where defendant corporation and its agents allegedly
carried out tax fraud scheme over several years and
retaliated against plaintiff-whistleblower); United
States v. Maloney, 71 F.3d 645, 661 (7th Cir. 1995)
(affirming RICO conviction of corrupt judge; bribes and
criminal acts to conceal them showed sufficient pattern
under “relatively broad standard” of H.J., Inc.); see also
RWB Services, LLC v. Hartford Computer Group, Inc.,
539 F.3d 681, 688–89 (7th Cir. 2008) (reversing
dismissal of RICO claim for scheme to defraud WalMart and its customers; pattern conceded where
defendants sold 50,000 stolen and/or repackaged
cameras as new). With such plausible and detailed
allegations of a pattern as we have here, especially
when made on the basis of quite limited discovery, the
better course is to let the case go forward, let the case
develop, and decide the pattern issue on a full record.4
4

Plaintiff will be entitled to further discovery from defendants on
his surviving state-law claims. What will the federal courts do if
that discovery turns up more detailed evidence of additional
attempts by defendants to sell the Euram Oak and Euram Rowan

App. 45
As the majority acknowledges, the relationship
prong of “continuity and relationship” test can be
satisfied by criminal acts close in time and character,
undertaken for similar purposes, or involving the same
or similar victims, participants, or means of
commission. See H.J., Inc., 492 U.S. at 240. The
majority and I agree that the relationship prong is
satisfied here. Plaintiff has alleged very similar efforts
by the defendants to carry out the tax-shelter scam
with him and with his partner Ferenc, who received a
similar large capital gain in 2006. In those two episodes
of the fraudulent scheme, we have multiple acts of mail
and wire fraud, and we have similar victims, the same
criminal participants, and the same means of
commission, all undertaken for similar purposes at
around the same time.
The majority correctly finds that plaintiff has
alleged with sufficient specificity the defendants’
fraudulent efforts to target both him and his partner
Ferenc through criminal mail and wire fraud, so that
both episodes add up to racketeering activity. Ante at
19–20. The majority also correctly recognizes that the
allegations about Ferenc are sufficient even though he
apparently did not go through with the proposed scam.
Id., citing United States v. Koen, 982 F.2d 1101, 1107
(7th Cir. 1992).5
strategies such that the scheme would satisfy even the majority’s
restrictive view of the pattern requirement? Will we reconsider our
premature dismissal?
5

See also Bridge v. Phoenix Bond & Indemnity Co., 553 U.S. 639,
648 (2008) (civil RICO plaintiff alleging mail fraud need not prove
it relied on defendant’s misrepresentations), citing Neder v. United

App. 46
Thus, the majority agrees that plaintiff has
sufficiently alleged two distinct but related episodes in
which the defendants carried out their fraudulent
scheme. The remaining requirement of “continuity” is
what divides us.
D. Open-Ended Continuity
The two fraudulent episodes aimed at Menzies and
Ferenc should be sufficient to establish a pattern. By
design, each episode lasted several years. Each episode
required numerous acts of mail and wire fraud and
elaborate sequences of otherwise-useless financial
transactions. Each episode produced hundreds of
thousands of dollars in fees for the defendants. This
should be sufficient. See Ouwinga v. Benistar 419 Plan
Services, Inc., 694 F.3d 783, 795–96 (6th Cir. 2012)
(reversing dismissal of civil RICO claim based on
marketing of fraudulent tax shelter; pattern alleged
adequately where defendants marketed shelter over
period of five years); Gagan v. American Cablevision,
Inc., 77 F.3d 951, 962–64 (7th Cir. 1996) (affirming civil
RICO conspiracy verdict for plaintiff; scheme to
States, 527 U.S. 1, 24–25 (1999) (common-law requirement of
justifiable reliance has no place under mail, wire, or bank fraud
statutes); United States v. Bucey, 876 F.2d 1297, 1311 (7th Cir.
1989) (“this court has reiterated on numerous occasions that the
ultimate success of the fraud and the actual defrauding of a victim
are not necessary prerequisites to a successful mail fraud
prosecution”); United States v. Keane, 852 F.2d 199, 205 (7th Cir.
1988). The majority does not say so forthrightly, but its description
of the district court’s decision, see ante at 18, shows that the
district court erred by focusing on whether Ferenc and the Arizona
and North Carolina investors actually followed through all the way
with the fraudulent strategy.

App. 47
defraud all limited partners to sell interests
established pattern; even though evidence appeared to
point to only one scheme, “an inference can be drawn
that the various defendants certainly had the means to
conduct similar schemes”); Newmyer v. Philatelic
Leasing, Ltd., 888 F.2d 385, 396–97 (6th Cir. 1989)
(reversing dismissal of civil RICO claim based on
marketing of fraudulent tax shelter; defendants alleged
to have acted in concert over five years, defrauding
hundreds of taxpayers); Durham v. Business
Management Associates, 847 F.2d 1505, 1512 (11th Cir.
1988) (affirming denial of summary judgment;
plaintiffs offered evidence of pattern with two related
schemes to market fraudulent tax shelters, and
schemes’ similarity presented jury question; “use of
business instructional video cassette tapes” deemed
significant); United Energy Owners Committee, Inc. v.
U.S. Energy Management Systems, Inc., 837 F.2d 356,
360–61 (9th Cir. 1988) (reversing dismissal of civil
RICO claim based on marketing of fraudulent tax
shelter; pattern alleged adequately where defendants
engaged in multiple fraudulent acts involving multiple
victims over more than one year; no rigid requirement
for plaintiff to allege or prove more than one criminal
“episode”).
The complaint easily satisfies the “pattern”
requirement when the Menzies and Ferenc episodes
are combined with the detailed allegations of a
reasonably foreseeable threat of continued efforts to
repeat the scheme with still more similarly situated
taxpayers. In the rubric of RICO patterns, plaintiff has
alleged “open-ended continuity,” that is, “past conduct
that by its nature projects into the future with a threat

App. 48
of repetition.” Vicom, Inc. v. Harbridge Merchant
Services, Inc., 20 F.3d 771, 782 (7th Cir. 1994), quoting
H.J., Inc., 492 U.S. at 241.
The majority, however, rejects open-ended
continuity, saying: “Only a few lines of the second
amended complaint even hint at any threat of
continued fraud by the defendants, and even then
Menzies presented only conclusory assertions to
support those allegations.” Ante at 23. With respect,
that description is just wrong. The majority’s rejection
of open-ended continuity is based on two related errors:
relying on hindsight and failing to give the plaintiff the
benefit of his detailed allegations.
1. Hindsight Error
First, the majority makes the basic error of giving
the defendants the benefit of hindsight rather than
considering the threat of continued fraud as it was
happening. The majority (like the district court)
emphasizes the 2005 indictment and 2008 conviction of
attorney Taylor for an unrelated tax fraud: “With
Taylor out of the factual equation it is unclear how
Menzies’s complaint supports any inference that the
alleged scheme would continue.” Ante at 24. This is
wrong as a factual matter. According to the complaint,
Taylor’s indictment in 2005 most certainly did not deter
him and the other defendants from continuing the
effort to defraud Menzies in 2006 and 2007 with
respect to his 2006 tax return. There is also no reason
the other defendants could not have continued the
scheme with another Seyfarth Shaw lawyer or two.

App. 49
More fundamental, though, is the legal error.
Taylor’s 2008 conviction was an intervening event that
at most interrupted the ongoing scheme. Extensive
RICO case law shows that such an intervening event is
not relevant to the threat of repetition. The same is
true of the other events from 2007 and 2008 that the
majority suggests are “indications that the scheme was
running its course … and was not being shopped to new
targets.” Ante at 24. (Affirming dismissal based on
“indications” and “suggestions” in a complaint is not
consistent, of course, with the more generous reading
of complaints required in deciding Rule 12(b)(6)
motions, but I digress.)
To see the problem with determining continuity
based on hindsight, consider how we and other federal
courts would consider this same defense to a RICO
charge against members of a street gang. Suppose the
evidence showed that after two profitable episodes of
robbery, each time following the same careful plan, the
gang’s leader was arrested and later convicted on
unrelated charges. In a RICO prosecution alleging a
pattern of robberies, the other gang members then
argue they must be acquitted because there was no
pattern: “We stopped committing crimes after our
leader was indicted, arrested, and later convicted.” In
a criminal case, that argument would be laughed out of
court. E.g., United States v. Aulicino, 44 F.3d 1102,
1113–14 (2d Cir. 1995). Yet the “pattern of racketeering
activity” standard is the same for both civil and
criminal RICO. The majority’s error in this civil case
will unduly narrow criminal applications of RICO
where ongoing schemes are interrupted by arrests,
indictments, convictions, or other events.

App. 50
The majority’s reliance on hindsight runs contrary
to Aulicino and numerous other RICO precedents,
which establish that courts do not rely on hindsight
and intervening events to show the absence of a threat
of repetition. In Aulicino, the defendants operated a
kidnapping ring that carried out about seven
kidnappings over a period of three and a half months.
44 F.3d at 1105. The kidnappings ended after one
leader was murdered and another was arrested on
other charges. The defendants argued that the
government had failed to prove a pattern, but the
Second Circuit affirmed the RICO convictions. The
Second Circuit did not use hindsight to find that the
intervening events (the murder and arrest of two
leaders) had defeated a threat of continued crimes.
Instead, the Second Circuit found a sufficient threat of
continued racketeering activity. The kidnappings were
successful and profitable. 44 F.3d at 1113. “The ring’s
activities were abandoned; they were not a discrete and
finite project that came to a natural end.” Id. at 1114.
The same description fits these defendants’ fraud.
The Sixth Circuit rejected a similar argument based
on hindsight in United States v. Busacca, 936 F.2d 232
(6th Cir. 1991). A pension official was convicted under
RICO for embezzling funds to pay for his defense in an
earlier prosecution. He had obtained money illegally
over only three months. Id. at 236. He argued that
there was no threat of continuity because his
opportunity for embezzlement ended with his earlier
conviction and his removal from office, much as
defendants here and the majority argue that Taylor’s
indictment and conviction ended the threat of
continuity.

App. 51
The Sixth Circuit rejected that argument based on
hindsight and found open-ended continuity: “The
manner in which the embezzlements occurred was
capable of repetition indefinitely into the future, as
long as there were either legal fees or other expenses
which Busacca wanted paid.” Id. at 238. In words that
apply directly here, the “analysis of the threat of
continuity cannot be made solely from hindsight” and
must instead “be viewed at the time the racketeering
activity occurred.” Id. The majority rejects that
approach here, and it is hard to see why, especially
since it weakens criminal application of RICO where
intervening events interrupt ongoing criminal schemes.
The Sixth Circuit applied this principle more
recently in a civil RICO case, Heinrich v. Waiting
Angels Adoption Services, Inc., 668 F.3d 393 (6th Cir.
2012). The individual defendants argued that because
the defendant adoption business they owned was shut
down as part of a criminal prosecution, there had not
been an open-ended threat of continued crimes. Id. at
410. The Sixth Circuit rejected the argument and
reversed dismissal of civil RICO claims: “Subsequent
events are irrelevant to the continuity determination …
because ‘in the context of an open-ended period of
racketeering activity, the threat of continuity must be
viewed at the time the racketeering activity occurred.’”
Id., quoting Busacca, 936 F.2d at 238. “The lack of a
threat of continuity of racketeering activity cannot be
asserted merely by showing a fortuitous interruption of
that activity such as by an arrest, indictment or guilty
verdict.’” Heinrich, 668 F.3d at 410, again quoting
Busacca, 936 F.2d at 238, and citing Blue Cross & Blue
Shield of Michigan v. Kamin, 876 F.2d 543, 545 (6th

App. 52
Cir. 1989) (reversing dismissal on pattern issue; openended continuity alleged because, if defendant had not
been caught, there was no reason to believe he would
not still be submitting fraudulent insurance claims). In
language that applies directly here, Heinrich explained
that when the defendants committed the four predicate
acts, “there was no indication that their pattern of
behavior would not continue indefinitely into the
future.” 668 F.3d at 411. Dismissal under Rule 12(b)(6)
was reversed, just as we should reverse here.
In fact, the district judge who dismissed this case
made exactly this point—even quoting Heinrich—in
denying dismissal in another civil RICO case:
It is important to note that, in the context of an
open-ended period of racketeering activity, the
threat of continuity must be viewed “at the time
the racketeering activity occurred.” Subsequent
events “are irrelevant.” Thus, a lack of a threat
of continuity “cannot be asserted merely by
showing a fortuitous interruption of that activity
such as by an arrest, indictment or guilty
verdict.”
Inteliquent, Inc. v. Free Conferencing Corp., 2017 WL
1196957, at *10 (N.D. Ill. 2017), quoting Heinrich, 668
F.3d at 410, and citing CVLR Performance Horses, Inc.
v. Wynne, 524 Fed. App’x 924, 929 (4th Cir. 2013). In
Inteliquent, Judge Blakey found correctly that the
plaintiff had sufficiently alleged an open-ended pattern
of racketeering activity through a series of fraudulent
invoices under a contract that would renew
automatically and that could be expected to be
renewed. As a result, there was no natural ending

App. 53
point or “clear and terminable goal” for the scheme. Id.
He was right then; he was wrong in this case.
In a criminal case, we have also held that even a
brief scheme cut short by intervening events can
establish a pattern if the scheme threatened to
continue from the perspective of the time the
racketeering activity occurred. In United States v.
O’Connor, 910 F.2d 1466 (7th Cir. 1991), a police officer
committed several acts of extortion over a two-month
period. The acts of extortion ended with his arrest. We
held that the evidence permitted the trier of fact to
conclude that he “had committed himself to an
enduring series of criminal acts, sufficient to establish
a ‘pattern’ under H.J. Inc.” O’Connor, 910 F.2d at 1468.
The Second Circuit in Aulicino cited O’Connor to
support its approach to open-ended continuity. 44 F. 3d
at 1112–13.
These cases can all be contrasted with schemes with
no open-ended continuity, which are those with discrete
and finite goals or natural end points. For example, in
Vicom, Inc. v. Harbridge Merchant Services, Inc., 20
F.3d 771, 783 (7th Cir. 1994), we found no open-ended
continuity where the predicate acts of fraud involved
one particular contract and a finite scheme that did not
threaten continued wrongdoing. For other examples of
inherently finite schemes, see Empress Casino Joliet
Corp. v. Balmoral Racing Club, Inc., 831 F.3d 815,
829–30 (7th Cir. 2016) (reversing plaintiff’s verdict
under civil RICO for lack of pattern; scheme to bribe
governor to secure enactment of one new law did not
pose threat of open-ended continuity because scheme
had a “natural ending point”); Vemco, Inc. v.

App. 54
Camerdella, 23 F.3d 129, 134–35 (6th Cir. 1994)
(alleged fraud in one construction contract over 17
months did not pose threat of continued wrongdoing);
Thompson v. Paasche, 950 F.2d 306, 311 (6th Cir. 1991)
(five-month fraudulent scheme involving sale of lots on
one divided tract of land was “an inherently short-term
affair”).
Against this substantial case law showing that
courts do not rely on hindsight and intervening events
to avoid recognizing a continued threat of crimes in
both criminal and civil RICO cases, the majority offers
no support for its reliance on hindsight. Curiously,
rather than respond to the applicable precedent and
reasoning, the majority instead denies that it is relying
on hindsight. Ante at 25. It’s hard to take that denial
seriously, though. The majority tells us quite plainly:
“What is missing from Menzies’s second amended
complaint is any factual allegation supporting his
conclusion that, following Taylor’s arrest and
indictment, there existed a threat of the defendants
fraudulently marketing the tax shelter into the
indefinite future.” Id. Put aside the fact that
defendants actually did continue their scheme after
Taylor’s indictment. Where does that supposed
requirement come from, if not from hindsight and
reliance on intervening events? This mistaken reliance
on hindsight offers a windfall to RICO defendants in
both civil and criminal cases.
2. The Detailed Allegations of Continuity
The majority also errs by simply failing to engage
with the extensive factual details alleged in the
complaint that indicate a threat of repetition and

App. 55
support open-ended continuity. The majority also fails
to give the plaintiff the benefit of favorable inferences
from his allegations. The complaint uses the right
labels and descriptors—“regular way of conducting and
participating in an ongoing criminal enterprise,” SAC
¶ 26; “part of [a] pattern of similar or identical activity
by Defendants, as tax shelter promoters, advisors, and
others that had the same or similar purposes, results,
participants, victims, or methods of commission” ¶ 157;
“it is the very nature of a tax shelter product, such as
the Euram Oak Strategy, to be created once and then
replicated multiple times to multiple taxpayers,” ¶ 157;
“[t]he threat of repetition and continued criminal
activity is implicit, as there was a continued threat
that it later could be replicated for other taxpayers,”
¶ 158; defendants’ “predicate acts of mail and wire
fraud were part of their regular way of conducting
business,” ¶ 183; and defendants’ “pattern of criminal
conduct … projects into the future,” as illustrated by
“the manner in which the Euram products were
presented as products, with a preexisting team that
could execute and support the tax shelter for other
taxpayers and from the regular manner in which this
enterprise did business with Menzies, Ferenc, [the
Arizona and North Carolina investors], and other
investors in fraudulent Euram strategies,” ¶ 184.
These general allegations are made more plausible
by the extensive details about how defendants carried
out the fraud with Menzies and Ferenc. The majority
fails to recognize that defendants themselves described
those schemes as “very similar” to and “in essence
identical” to transactions with the Arizona investor.
The complaint also describes the similar “Euram

App. 56
Rowan Strategy” with the North Carolina investors
(without Northern Trust, however). To one another,
they further described Menzies and Ferenc
transactions as “two new trades involving the Oak
structure.” And the defendants presented the fancy
marketing materials to Menzies with a disclaimer
addressed to “investors” and demanded that
prospective clients sign confidentiality agreements
before the scheme could be explained to them. These
details provide ample support for the allegation that
defendants would continue marketing identical or
closely similar fraudulent tax shelters to other
taxpayers. Neither defendants nor the majority have
identified any natural ending point for this profitable
scheme.
In rejecting open-ended continuity, the majority
fails to apply the proper standard of review, which
gives the plaintiff the benefit of reasonable inferences
from the allegations. Of course there was a threat of
continued fraudulent episodes! As long as the
defendants were getting away with this scam, why
should they have stopped with the Arizona investor,
Menzies, and Ferenc? They had developed a profitable
product, one that promised their clients millions of
dollars in tax savings and assured defendants
hundreds of thousands of dollars in fees every time it
was used. In the law we ordinarily assume that people
are rational actors. Here, that means that we would
expect defendants to continue with their profitable
venture.
Giving plaintiff the benefit of his allegations and
reasonable inferences from them—and viewed at the

App. 57
time of the alleged fraud—these were “predicate acts,
which by their very nature, pose[d] ‘a threat of
repetition extending indefinitely into the future or
[were] part of an ongoing entity’s regular way of doing
business.’” McDonald v. Schencker, 18 F.3d 491, 497
(7th Cir. 1994), quoting H.J., Inc., 492 U.S. at 242.
E. Closed-Ended Continuity
Plaintiff’s strong case of open-ended continuity
should be sufficient to warrant reversal here, but the
majority also errs in rejecting closed-ended continuity.
The majority criticizes plaintiff for not alleging in more
fulsome detail the specifics of defendants’ efforts to
defraud the Arizona investor and the North Carolina
investor using the same fraudulent tax shelter or the
Euram Rowan variant. Ante at 20. In doing so, the
majority imposes an unfair and excessive pleading
requirement that goes beyond Rule 9(b) and any need
for fair notice to defendants.
The pleading requirement is unfair because the
defendants have thus far kept the cloak of attorneyclient privilege around the content of some of their
fraudulent communications with the Arizona and
North Carolina investors and others. Given the IRS’s
rejection of these abusive tax shelters, there are ample
reasons to think that the crime-fraud exception would
apply to pierce the privilege, which may still occur on
remand of some of plaintiff’s state-law claims. See
generally Valero Energy Corp. v. United States, 569
F.3d 626 (7th Cir. 2009) (discussing statutory taxpractitioner privilege that parallels attorney-client
privilege and is subject to exceptions for crime and

App. 58
fraud, as well as promotion of tax shelters, 26 U.S.C.
§ 7525).
The majority’s pleading requirement is excessive
because it discounts the complaint’s plausible
allegations about the fraud aimed at the North
Carolina and Arizona investors. In rejecting closedended continuity, the majority relies on Emery v.
American General Finance, Inc., 134 F.3d 1321 (7th
Cir. 1998), which affirmed dismissal of a civil RICO
complaint for failure to allege with sufficient
particularity facts concerning alleged victims in
addition to the named plaintiff. Emery is readily
distinguishable. That complaint alleged only one victim
with any particularity or evidence. It did not involve an
off-the-shelf fraudulent product that could be repeated
easily with additional targets. The plaintiff in Emery
was not able to provide any meaningful details about
the alleged fraudulent letters to other alleged victims,
who apparently did not keep any documents or
remember anything about the scheme. 134 F.3d at
1323.
By comparison, the North Carolina and Arizona
investors spent on the order of a million dollars each on
the defendants’ fraudulent professional services. These
investors experienced multimillion-dollar tax bills, with
penalties and interest. Unlike the other targets in
Emery, these victims do not seem to have forgotten the
incidents or thrown away the relevant documents. And
recall that defendants themselves described the
transactions as “in essence identical” and “very similar”
to the transactions with Menzies and Ferenc. SAC
¶¶ 50, 82.

App. 59
Even with these handicaps, plaintiff has identified
some specific fraudulent communications for the North
Carolina and Arizona investors, sufficient to satisfy
Rule 9(b). ¶¶ 160–64, 166–78. The closed-end theory
should not fail simply because plaintiff has not yet seen
those fraudulent opinion letters. Defendants claim the
letters are privileged, but the complaint alleges they
exist and were sent. It’s not difficult to infer what they
said. If the letters had not asserted the fraudulent
shelters were legal, there of course would have been no
point in the transactions. See SAC ¶¶ 162, 177. The
inference that the defendants’ opinion letters say
fraudulently that the tax shelters would be legal is not
merely plausible but compelling. The allegations about
the opinion letters and related communications provide
sufficient information about the who, what, when,
where, and how of the fraud to satisfy Rule 9(b)
regarding the other investors.
As discussed above, it also does not matter whether
a particular taxpayer-client was deceived regarding the
tax shelter’s legality. If he was not deceived and did not
go through with the transaction, there was at least an
attempt to defraud by the defendants. If the targeted
taxpayer was not deceived, understood the transaction,
and went through with it, he was joining a criminal
venture to defraud the federal government. Either way,
that’s another episode of fraud in implementing the
scheme.
Even with the limited information available to him,
plaintiff provided sufficient information about these
additional instances of fraud to satisfy the RICO
pattern requirement and Rule 9(b). By affirming

App. 60
dismissal of the RICO claims, the majority unfairly
rewards defendants for their efforts to cover up their
attempts to defraud other investor-taxpayers.
Because the majority has adopted an erroneous,
restrictive view of the RICO pattern requirement,
giving defendants the benefit of hindsight and failing
to give plaintiff the benefit of his allegations, the
majority is substantially weakening both civil and
criminal RICO. I respectfully dissent from the
dismissal of plaintiff’s RICO claims.

App. 61

APPENDIX B
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
Case No. 15 C 3403
Judge John Robert Blakey
[Filed September 21, 2018]
__________________________
STEVEN MENZIES,
)
)
Plaintiff,
)
)
v.
)
)
SEYFARTH, SHAW LLP,
)
GRAHAM TAYLOR,
)
NORTHERN TRUST
)
CORPORATION, and
)
CHRISTIANA BANK &
)
TRUST COMPANY,
)
)
Defendants.
)
__________________________ )
MEMORANDUM OPINION AND ORDER
Plaintiff Steven Menzies sued Defendants Seyfarth
Shaw LLP (Seyfarth), Graham Taylor (Taylor),
Northern Trust Corporation (Northern), and
Christiana Bank & Trust Company (Christiana),

App. 62
alleging that Defendants have damaged him by selling
him an abusive tax planning product designed to allow
him to avoid paying capital gains tax. Plaintiff alleges
that the tax plan ultimately failed when uncovered by
the IRS, and that, as a result, he owed the IRS back
taxes, in addition to fees, interest, and penalties.
Plaintiff asserts causes of action against Defendants
for violations of the Racketeer Influenced and Corrupt
Organizations (RICO) Act, 18 U.S.C. § 1961, et seq.
(Count I), and conspiracy to violate the RICO Act
(Count II). Plaintiff also asserts state-law claims for
fraudulent misrepresentation (Count III), civil
conspiracy (Count IV), joint enterprise liability (Count
V), negligent misrepresentation (Count VI), breaches of
fiduciary duty (Counts VII and VIII), and unjust
enrichment (Count IX).
After an opportunity to conduct discovery and two
prior attempts to draft his complaint, Plaintiff filed his
Second Amended Complaint (SAC) in August 2017.
[165]. Shortly after, Defendants again moved to dismiss
the SAC with prejudice. [169] [172] [175]. Plaintiff then
filed motions to strike exhibits attached to Defendants’
motions to dismiss. [182] [184] [186]. For the reasons
explained below, this Court grants Defendants’ motions
to dismiss, and grants Plaintiff’s motions to strike.
This Court presumes familiarity with, and
incorporates by reference, its prior opinion granting in
part and denying in part Defendants’ motions to
dismiss Plaintiff’s complaint. [57]. Therefore, the
Background section only briefly revisits the facts in
this case, and details only the additional allegations
that Plaintiff has added in his SAC. Likewise, this

App. 63
Court will not repeat in detail its prior legal analysis or
the required elements of each cause of action.
I. Background
Plaintiff is the co-founder, President and Chief
Operating Officer of a financial services firm called
Applied Underwriters Inc. (AUI). Plaintiff asserts that
Defendants conspired to develop, market, and promote
to himself and others an abusive tax avoidance scheme.
[165] ¶ 1. Plaintiff claims that, as an unwitting
participation in Defendants’ scheme, he suffered
millions of dollars of damages after the IRS uncovered
that Plaintiff’s sale of stock, through various trust tax
shelters, allowed him to evade tax liabilities. Id.
Plaintiff alleges that, since 2003, Defendants
aggressively marketed generic tax shelter products to
clients, all of which were designed to avoid or evade
income tax. Id. ¶¶ 13, 15–17. Two of these tax shelters
are what Plaintiff calls the “Euram Oak Strategy” and
the “Euram Rowan Strategy.” Id. ¶ 18. Apart from the
named Defendants, the alleged enterprise included
Euram Bank (Euram), a private bank located in
Austria, and Pali Capital (Pali), an entity that worked
on behalf of Euram in connection with the Euram Oak
and Rowan strategies. Id. ¶¶ 17, 19, 188.
In the SAC, Plaintiff adds new allegations regarding
three other investors who were purportedly defrauded
by Defendants’ enterprise: (1) an Arizona investor; (2) a
North Carolina investor; and (3) Plaintiff’s colleague,

App. 64
Sidney Ferenc.1 See [165] ¶¶ 28, 38, 88, 91, 110–18,
160–80, 181, 184.
The Arizona investor. In or about March 2003,
representatives of Euram and/or Pali communicated
with the Arizona investor about the Euram Oak
Strategy. Id. ¶¶ 160–61. About a year later in February
2004, Taylor and Seyfarth provided the Arizona
investor with a legal opinion regarding the Euram Oak
Strategy. Id. ¶ 162. Seyfarth has maintained attorneyclient privilege over this opinion; however, Plaintiff
alleges (upon information and belief) that, in the
opinion, Seyfarth asserted the legality of the strategy,
even though Seyfarth and Taylor knew that the
strategy did not constitute legitimate tax planning
advice. Id. Plaintiff alleges upon his information and
belief that the Arizona investor suffered damages equal
to, among other things, the tax deficiency from the IRS
disallowance of the Euram Oak Strategy, with a
purported tax savings of approximately $75 million. Id.
¶ 165.
The North Carolina investor. In late 2002, a
representative of Pali met with the North Carolina
investor to discuss the Euram Rowan Strategy. Id.
¶ 173. After this meeting, Euram suggested to the
North Carolina investor that he engage Taylor to
provide a legal opinion about the tax benefits that he
would obtain by implementing the Euram Rowan
Strategy. Id. ¶ 176. Around October 2003, Taylor and

1

Because the identities of the Arizona and North Carolina
investors have been kept under seal, this Court will not refer to
them by name.

App. 65
Seyfarth provided the North Carolina investor with a
legal opinion regarding the Euram Rowan Strategy. Id.
¶ 177. Seyfarth has asserted privilege over this
opinion; nonetheless, Plaintiff alleges (also upon
information and belief) that the opinion asserted the
legality of the Euram Rowan Strategy, even though
Seyfarth and Taylor knew that it was not a legitimate
tax planning vehicle. Id. Ultimately, as a result of the
North Carolina investor’s entry into the Euram Rowan
Strategy, the IRS disallowed the North Carolina
investor’s claimed $17.5 million loss and assessed a
penalty of $911,869. Id. ¶ 810.
Ferenc. Ferenc is an executive and colleague of
Plaintiff’s at AUI. Id. ¶ 25. He entered into the Euram
Oak Strategy at the same that Plaintiff entered into
one of his transactions, the 2003 Tax Shelter. Id. ¶¶ 91,
159. Ferenc paid substantial fees associated with his
initial investment. Id. ¶ 159. In October 2003, Taylor,
in an email, advised Ferenc that he considered various
IRS regulations in assuring him that the Euram Oak
Strategy constituted legitimate tax planning advice. Id.
¶ 88. Taylor also sent Ferenc and Plaintiff a draft tax
opinion via email on September 9, 2003, assuring them,
among other things, that the Euram Oak Strategy was
a lawful tax avoidance mechanism and not a fraudulent
tax shelter. Id. ¶ 110. Taylor sent further drafts
throughout 2004, as well as a final signed opinion
letter around September 24, 2004; all of these letters
assured Ferenc that the Euram Oak Strategy was a
legitimate tax planning vehicle. Id. ¶¶ 110–11, 115,
118. Plaintiff does not say whether Ferenc ultimately
owed anything to the IRS. See generally id.

App. 66
Apart from the new allegations regarding the three
investors, Plaintiff also makes a conclusory allegation
that there is a threat of continued racketeering activity
because Defendants’ predicate acts of mail and wire
fraud were part of their regular way of conducting
business. Id. ¶ 183. Plaintiff also asserts the legal
conclusion that Defendants’ pattern of criminal conduct
projects into the future because there is a preexisting
team that could execute and support the tax shelters
for other taxpayers as it did for Plaintiff and the other
purported victims. Id. ¶ 184.
II. Legal Standard
To survive a motion to dismiss under Rule 12(b)(6),
a complaint must provide a “short and plain statement
of the claim” showing that the pleader merits relief,
Fed. R. Civ. P. 8(a)(2), so the defendant has “fair
notice” of the claim “and the grounds upon which it
rests,” Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555
(2007) (quoting Conley v. Gibson, 355 U.S. 41, 47
(1957)). A complaint must also contain “sufficient
factual matter” to state a facially plausible claim to
relief—one that “allows the court to draw the
reasonable inference” that the defendant committed
the alleged misconduct. Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009) (quoting Twombly, 550 U.S. at 570). This
plausibility standard “asks for more than a sheer
possibility that a defendant has acted unlawfully.”
Santana v. Cook Cty. Bd. of Review, 679 F.3d 614, 621
(7th Cir. 2012) (quoting Iqbal, 556 U.S. at 678).
In evaluating a complaint on a Rule 12(b)(6) motion,
this Court accepts all well-pleaded allegations as true
and draws all reasonable inferences in Plaintiffs’ favor.

App. 67
Iqbal, 556 U.S. at 678. This Court does not, however,
accept legal conclusions as true. Brooks v. Ross, 578
F.3d 574, 581 (7th Cir. 2009). On a motion to dismiss,
this Court may consider the complaint itself,
documents attached to the complaint, documents
central to the complaint and to which the complaint
refers, and information properly subject to judicial
notice. Williamson v. Curran, 714 F.3d 432, 436 (7th
Cir. 2013).
Claims alleging fraud must also meet Rule 9(b)’s
heightened pleading requirements. As to the fraud
portions of the RICO claims, Rule 9(b) demands that
claimants “state with particularity the circumstances
constituting fraud.” Particularity requires that
plaintiffs “describe the who, what, when, where, and
how of the fraud—the first paragraph of any
newspaper story.” Pirelli Armstrong Tire Corp. Retiree
Med. Benefits Trust v. Walgreen Co., 631 F.3d 436,
441–42 (7th Cir. 2011) (internal quotation marks
omitted); Slaney v. The Intern. Amateur Athletic
Federation, 244 F.3d 580, 597 (7th Cir. 2001). Although
different cases require different levels of detail for a
complaint to satisfy Rule 9(b), id. at 442, plaintiffs
must provide “precision and some measure of
substantiation,” United States ex rel. Presser v. Acacia
Mental Health Clinic, LLC, 836 F.3d 770, 776 (7th Cir.
2016) (internal quotation marks omitted).

App. 68
III. Analysis
A. Counts I and II: The RICO Claims
1. This Court’s Prior Opinion
In its prior opinion, this Court dismissed Plaintiff’s
RICO claims because Plaintiff failed to sufficiently
allege a pattern of racketeering activity. [57] at 32–39.
Specifically, this Court found that Plaintiff did not
adequately allege “closed-ended” continuity, because
the predicate acts—mail and wire fraud—all occurred
in furtherance of a single scheme to defraud a single
victim, Plaintiff, whose injuries all stem from a single
tax planning product. Id. at 33–36. This Court also
found that Plaintiff’s allegations lack threat of
continuity because Plaintiff alleged only a single victim
(himself) and the alleged pattern of criminal activity
dispelled any “threat of repetition” because, by the
complaint’s own allegations, the alleged pattern of
Defendants’ conduct ended by 2005, when all of the
transactions involving Plaintiff had completed. Id. at
36 (quoting Vicom, Inc. v. Harbridge Merch. Servs.,
Inc., 20 F.3d 771, 782 (7th Cir. 1994)).
Based upon these findings, this Court granted
Plaintiff leave to replead his RICO claims, instructing
Plaintiff that it would review any amended complaint
for the existence of other victims that were defrauded
by Defendants’ alleged scheme. Id. at 39. This Court
also stated that it would address whether any amended
complaint set forth each requisite element of the
predicate fraud acts with the specificity required under
Rule 9(b). Id.

App. 69
2. Plaintiff’s Pattern Allegations Must Be
Dismissed
a. Plaintiff Fails to Allege A ClosedEnded Pattern
As with his original complaint, Plaintiff attempts to
allege a closed-ended pattern involving multiple acts of
mail and wire fraud in violation of 18 U.S.C. §§ 1341
and 1343 in furtherance of the overall scheme to
defraud, all within the affairs of the alleged RICO
enterprise. [165] ¶¶ 1–184; [196] at 15–16 (arguing that
the SAC alleges a closed-ended pattern because
Defendants’ schemes involved multiple victims,
multiple predicate acts over a period of several years,
and at least two tax shelter products). Where, as here,
mail and wire fraud form the alleged pattern, each
requisite element of the underlying predicate activity
must be set forth with the particularity and specificity
required by Rule 9(b). [57] at 32 (citing Slaney v.
Intern. Amateur Athletic Fed’n, 244 F.3d 580, 599 (7th
Cir. 2001)). And, at a minimum, Plaintiff must allege
with particularity: (1) a scheme to defraud; (2) the
intent to defraud; and (3) the use of the mails or wire
communications in furtherance of the scheme to
defraud. Id.
Defendants argue that the SAC’s new allegations do
nothing to cure the deficiencies in Plaintiff’s pleading
of closed-ended pattern because they fail to plausibly

App. 70
and adequately allege that the three newly added
investors were deceived by Defendants. [173] at 9–13.2
This Court agrees. In Emery v. American General
Finance, Inc., the Seventh Circuit affirmed dismissal of
the plaintiff’s RICO claim with prejudice where his
complaint (which was actually his second amended
complaint) included only general allegations about
other alleged victims who entered into similar
transactions as the plaintiff, but ultimately, “shed[ ] no
light” on whether the alleged victims “were deceived.”
134 F.3d 1321, 1322–23 (7th Cir. 1998). Thus, Emery
teaches that, in the context of a RICO claim where the
predicate acts are fraud-based, the complaint must set
forth, with particularity, facts indicating that other
victims were actually deceived by the same alleged
pattern of racketeering activity by the same alleged
enterprise. Id. See also Shirley v. Jed Capital, LLC, 724
F. Supp. 2d 904, 914 (N.D. Ill. 2010) (plaintiff failed to
plead pattern of racketeering activity where his
complaint omitted “many needed details,” such as the
content of misrepresentations, why they constituted
misrepresentations, and how the plaintiff was misled
by those misrepresentations); Krug v. Am. Family Mut.
Ins. Co., 227 F. Supp. 3d 942, 945 (N.D. Ill. 2016)
(dismissing fraud claim because “the essence of fraud
is deception, and plaintiff does not claim to have been
deceived by defendant’s conduct.”).

2

Because each Defendant has echoed, or incorporated by reference,
the arguments raised by the other Defendants in their motions to
dismiss, this Court addresses the motions collectively.

App. 71
In his SAC, Plaintiff adds new allegations
concerning three other investors who were allegedly
lured by Defendants into entering into illegal tax
avoidance schemes. These allegations, however, do not
pass muster under Rule 9(b) because they fail to
plausibly state that the investors were victims of fraud.
For instance, the allegations concerning the Arizona
investor describe, in general terms, a tax shelter
transaction that the Arizona investor entered into upon
the advice of Seyfarth and Taylor. [165] ¶¶ 160–69.
Conspicuously missing, however, are any particularized
allegations demonstrating why, how, or even if, he was
actually deceived by Defendants’ conduct. See generally
id. Plaintiff does not allege any particular facts about
what the Arizona investor was actually told about the
Euram Oak Strategy; rather, he states only that “it is
reasonable to assume” that Seyfarth advised the
Arizona investor as to the legality of the Euram Oak
Strategy. Id. ¶ 162. Even more troubling, Plaintiff does
not assert what, if anything, about the Euram Oak
Strategy or what any of the Defendants said about the
Euram Oak Strategy, actually deceived the Arizona
investor.
The allegations concerning the North Carolina
investor suffer the same defects. Here again, Plaintiff
sets forth the general contours of the North Carolina
investor’s transaction, alleging that Seyfarth and
Taylor provided him a legal opinion about the so-called
Euram Rowan strategy and falsely represented that it
was a legal tax planning vehicle. Id. ¶¶ 170–80. Yet,
Plaintiff does not set forth any specific facts
demonstrating that the North Carolina investor was

App. 72
actually deceived by any of Defendants’ conduct, or how
he was deceived. Like those relating to the Arizona
investor, these allegations suggest only that the North
Carolina investor lost money after entering into an illadvised tax shelter. The allegations nowhere indicate,
however, that the North Carolina investor lost that
money as a result of being defrauded by Defendants.
Lastly, Plaintiff’s allegations concerning Ferenc fare
no better. In Ferenc’s case, Plaintiff provides some
detail about his transaction—including that he
obtained a $22,800,000 loan from Euram bank—and
alleges that he received tax opinion letters from
Seyfarth and Taylor that were “substantially similar
to” the ones that they issued to Plaintiff. Id. ¶¶ 91, 123.
Plaintiff alleges that Ferenc invested in a Euram Oak
Strategy at the same time as Plaintiff, and on his
information and belief, paid substantial fees associated
with the initial investment. Id. ¶ 159. As with the other
two investors, however, Plaintiff utterly fails to set
forth any facts stating that Ferenc was actually
deceived. Indeed, Plaintiff does not allege that Ferenc
was deceived, how he was deceived, or even that he
suffered any injury in the way of IRS penalties or
disallowances. See generally id.
In short, the SAC is devoid of any allegations that
Defendants’ conduct actually deceived other investors.
Plaintiff’s failure to plead such facts is particularly
problematic in a case, like this one, where the
purported victims knowingly entered into tax shelters,
which by their nature are designed to avoid taxes. The
SAC thus begs the question of how exactly the
purported victims (who might not be victims at all)

App. 73
were actually deceived by Defendants. Because the
SAC does not answer that question, Plaintiff fails to
cure his RICO claims to state “when, why, how, or even
if” other investors were actually defrauded. [57] at 38;
see also Emery, 134 F.3d at 1323; Shirley, 724 F. Supp.
2d at 914. By insufficiently alleging other victims,
Plaintiff is back at square one, in that he alleges no
more than a single victim (himself) whose injuries all
flowed from a single scheme. [57] at 38–39. Under
these circumstances, Plaintiff fails to allege closedended continuity. Id.
b. Plaintiff Fails to Allege Open-Ended
Continuity
Open-ended continuity is satisfied by “past conduct
that by its nature projects into the future with a threat
of repetition.” Empress Casino Joliet Corp. v. Balmoral
Racing Club, Inc., 831 F.3d 815, 828 (7th Cir. 2016)
(quoting H.J. Inc. v. Nw. Bell Tel. Co., 492 U.S. 229,
341 (1989)). To demonstrate open-ended continuity,
Plaintiff must show: (1) a “specific threat of repetition”;
(2) that the predicate acts form “part of an ongoing
entity’s regular way of doing business”; or (3) that
Defendants operate a “long term association that exists
for criminal purposes.” Guaranteed Rate, Inc. v. Barr,
912 F. Supp. 2d 671, 693 (N.D. Ill. 2012) (quoting
Midwest Grinding Co. v. Spitz, 976 F.2d 1016, 1023
(7th Cir. 1992)).
None of these bases are present in the SAC. First,
there is no specific threat of repetition because the
allegations do not suggest that any future acts of wire
or mail fraud will take place. Although, as Plaintiff
correctly argues, the threat of continuity must be

App. 74
assessed as of “the time the racketeering occurred,”
Inteliquent, Inc. v. Free Conferencing Corp., No. 16-cv6976, 2017 WL 1196957, at *10 (N.D. Ill. Mar. 30,
2017), the SAC indicates that Defendants’ alleged
scheme would not have continued indefinitely, even
when assessed prospectively from the date of the last
alleged predicate act, in 2005.
Plaintiff alleges that Taylor was indicted for tax
fraud in 2005 and was ultimately convicted in January
2008. [165] ¶¶ 105, 108. Taylor was a key member of
Defendants’ alleged enterprise because he was the
attorney who drafted the necessary opinion letters to
provide legal justification and appearance of
“legitimacy” for the tax shelter plans. See, e.g., id.
¶¶ 100–01, 110, 111, 162, 177. When a RICO scheme
depends upon a specific employment relationship, the
end of that relationship may eliminate any threat of
repetition. See Midwest Grinding, 976 F.2d at 1025. In
light of the factors previously discussed in this Court’s
prior opinion [57] and because Taylor’s indictment in
2005 surely meant that he would immediately or soon
depart from the alleged enterprise, this Court finds
that no specific threat of repetition exists by that point.
Id. (“It follows that once [defendant] left Midwest, any
threat of future illegal activity ceased to exist.”);
Starfish Inv. Corp. v. Hansen, 370 F. Supp. 2d 759,
777–78 (N.D. Ill. 2005) (finding no specific threat of
repetition of predicate acts because the complaint
alleged that the enterprise’s ringleader was
incarcerated and the plaintiff did not plead any
predicate acts since his incarceration).

App. 75
Second, Plaintiff fails to allege that the predicate
acts form “part of an ongoing entity’s regular way of
doing business.” While Plaintiff baldly alleges that
there is a “threat of continued racketeering activity in
that Defendants[‘] predicate acts of mail and wire fraud
were part of their regular way of doing business,” [165]
¶ 183, such allegation is conclusory and speculative,
and insufficient to survive a motion to dismiss. See
Gavin v. AT&T Corp., 543 F. Supp. 2d 885, 904–05
(N.D. Ill. 2008) (“A RICO plaintiff is required to allege
sufficient facts to support each element, and cannot
simply allege these elements using boilerplate
language.”); Vicom, Inc. v. Harbridge Merch. Servs.,
Inc., 20 F.3d 771, 783 (7th Cir. 1994) (cursory and
unparticularized allegations of continuing racketeering
activities insufficient to show open-ended continuity).
Moreover, merely alleging multiple acts of Defendants’
purported fraud is not sufficient to support a finding
that fraud constituted their “regular way of doing
business.” See A.I. Credit Corp. v. Hartford Computer
Grp., Inc., 847 F. Supp. 588, 603 (N.D. Ill. 1994)
(alleging multiple acts of fraud, without more, could not
suffice to show that predicate acts were a regular way
of doing business, because the “same could be said in
almost any case, since dishonesty tends to become
habitual.”). Here, there are insufficient facts from
which this Court can draw an inference that
Defendants have incorporated mail and wire fraud into
their regular business practices.
Finally, Plaintiff does not sufficiently allege that
Defendants are engaged in a criminal pattern of
activity that otherwise projects into the future.
Plaintiff generally states that:

App. 76
Defendants’ pattern of criminal conduct in this
case projects into the future, as the manner in
which the Euram products were presented as
products, with a preexisting team that could
execute and support the tax shelter for other
taxpayers and from the regular manner in which
this enterprise did business with [the alleged
victims].
Id. ¶ 184. Once again, this allegation is purely
speculative and conclusory, and therefore insufficiently
pled. Moreover, this Court finds nothing in the SAC
that allows it to infer a RICO pattern that projects into
the future. Plaintiff’s allegations suggest, at most, that
Defendants collaborated on several transactions that
produced negative tax consequences for Plaintiff and
several other investors, and each Defendant profited
separately from those transactions.
c. Plaintiff’s
Dismissed

RICO

Claims

Are

Because Plaintiff has failed to allege either closedended or open-ended continuity, he fails to state a
“pattern of racketeering activity.” Accordingly, this
Court dismisses Plaintiff’s RICO claim (Count I).
Further, Plaintiff’s RICO conspiracy claim rests
upon the same facts as his substantive RICO claim. See
[165] ¶¶ 211–19. Accordingly, given the record here,
Plaintiff’s failure to state a RICO pattern requires
dismissal of his conspiracy claim as well. See Stachon
v. United Consumers Club, Inc., 229 F.3d 673, 677 (7th
Cir. 2000).

App. 77
B. Counts III to IX: Plaintiff’s State-Law
Claims
Plaintiff’s remaining claims in his SAC all sound in
Illinois state law. See generally [165] ¶¶ 220–66.
Defendants all argue that these state-law claims are
time-barred by the Illinois Securities Law, 735 ILCS
5/12, et seq. (ISL).3 This Court agrees, as explained
below.
1. The ISL’s Scope
During the relevant time period,4 the ISL’s statute
of repose provided that “[n]o action shall be brought for

3

Because invoking a statute of repose is an affirmative defense,
the Court construes these portions of Defendants’ briefs under
Federal Rule of Civil Procedure 12(c). See Johnson v. City of S.
Bend, 680 F. App’x 475, 478 (7th Cir. 2017) (“The expiration of a
statute of limitations is an affirmative defense. And since plaintiffs
need not anticipate affirmative defenses in a complaint, a motion
to dismiss under Rule 12(b)(6) is not the appropriate means for
defendants to seek dismissal based on a statute of limitations.”).

4

The statute of repose formerly found in 815 ILCS 5/13(D) was
removed via amendment on August 5, 2013. The Court is
nevertheless bound to enforce that repose period under Illinois
law. Once “a claim is time-barred, it cannot be revived through
subsequent legislative action.” Doe A v. Diocese of Dallas, 917
N.E.2d 475, 486 (Ill. 2009); see also M.E.H. v. L.H., 685 N.E.2d 335,
339 (Ill. 1997) (“If the claims were time-barred under the old law,
they remained time-barred even after the repose period was
abolished by the legislature.”). Removing the statute of repose is
also, at least in this case, a distinction without a difference.
Plaintiff was informed of the IRS audit in 2009, [165] ¶ 137, which
at the very least put him on sufficient notice to begin the threeyear limitations period reflected in the current version of 815 ILCS
5/13(D).

App. 78
relief under this Section or upon or because of any of
the matters for which relief is granted by this Section,”
after five years from the sale of the securities at issue.
815 ILCS 5/12(D) (emphasis added). Thus, under
Illinois law, even “claims that do not directly invoke”
the ISL “may still fall within its” repose period. Klein
v. George G. Kerasotes Corp., 500 F.3d 669, 671 (7th
Cir. 2007). Whether Plaintiff’s state-law claims here
are subject to the ISL’s statute of repose “depends on
what acts are encompassed within” the ISL’s
substantive provisions. See id. at 671.
Section 12(F) of the ISL prohibits engaging in “any
transaction, practice or course of business in connection
with the sale or purchase of securities which works or
tends to work a fraud or deceit upon the purchaser or
seller thereof.” 815 ILCS 5/12(F) (emphasis added).
This “in connection with” standard is subject to a
“broad interpretation,” capturing even fraud that
merely “coincided with or touched a securities
transaction.” First Nat’l Bank & Tr. Co. of Rochelle, Ill.
v. McGraw-Hill Comps., Inc., 85 F. Supp. 3d 963, 969
(N.D. Ill. 2015) (explaining that the ISL’s “in
connection with” requirement is, under Illinois law,
substantially similar to the expansive standard of
Section 10b and Rule 10b-5 of the Securities Exchange
Act). Section 12(I), meanwhile, prohibits employing
“any device, scheme or artifice to defraud in connection
with the sale or purchase of any security, directly or
indirectly.” 815 ILCS 5/12(I) (emphasis added).

App. 79
2. Plaintiff’s State-Law Claims Are Subject
To The ISL
The putative fraud at the heart of the SAC clearly
“coincided with” or otherwise “touched” Plaintiff’s sale
of his AUI stock. As alleged in the SAC, Plaintiff
essentially exchanged AUI’s stock for trust certificates,
at Defendants’ direction, as part of their tax shelter
scheme. See generally [165]. Transfers of this sort
qualify as sales under the ISL. See Disher v. Fulgoni,
514 N.E.2d 767, 772 (Ill. App. Ct. 1987) (the definition
of “sale” is “liberal” and the exchange of stock for trust
certificates is clearly a “sale” under the ISL).
Indeed, the SAC is rife with allegations that bring
Plaintiff’s state-law claims within the ISL’s purview.
The pleading states that Plaintiff’s “disposition of over
$60 million of AUI stock, through the artifice of various
tax shelters,” was the basis of the IRS’s subsequent
audit and penalty. [165] ¶ 1; see also id. ¶ 138 (“Near
the end of its audit, the IRS focused on BHI’s purchase
of the AUI stock from the Persephone Trust.”); id.
¶ 143 (“The IRS determined that Menzies, not the
Persephone Trust, had sold the AUI stock . . . .”).
Defendants’ ostensible misrepresentations related
directly to the sale of the AUI stock; in fact; the SAC
confirms that the entire purpose of the tax shelter was
to shield the proceeds of that stock sale. Id. ¶ 97
(“Defendants, through Northern Trust and Taylor,
assured Plaintiff that the 2004 Tax Shelter would
eliminate capital gains from the sale of his AUI stock
. . . .”); see also id. ¶ 99 (“Defendants represented to
Menzies that the purpose of the complicated (and
costly) 2003 Tax Shelter and 2004 Tax Shelter . . . was

App. 80
to effectively and lawfully shield the disposition of the
AUI stock from capital gains tax.”).
The ISL also provides a remedy for the violations
alleged in the SAC. Section 13(G) of the ISL allows
“any party in interest” to bring suit against “any
person” who allegedly violated the Act. 815 ILCS
5/13(G)(1). This subsection provides a remedy in cases
where “the plaintiffs sought compensatory and other
damages without expressly requesting injunctive
relief.” First Nat’l Bank & Tr. Co., 85 F. Supp. 3d at
972. Even where, as here, a plaintiff principally seeks
compensatory damages, Section 13(G) provides “some
relief,” which is sufficient to trigger application of the
ISL. See id.
Plaintiff attempts to avoid this result by insisting
that “there is no allegation (or evidence) that the sale
of AUI securities took place in Illinois.” [197] at 18.
This argument remains inconsistent with guidance
from the Illinois Supreme Court. In Benjamin v.
Cablevision Programming Investments, that court
explained how the ISL’s definition of a “sale” was
formulated “to exclude nothing that could possibly be
regarded as a sale,” such that “every step toward the
completion of a sale would be a sale” within the
meaning of the statute. 499 N.E.2d 1309, 1315 (Ill.
1986) (quoting Silverman v. Chicago Ramada Inn, Inc.,
211 N.E.2d 596, 599 (Ill. App. Ct. 1965)). The court
accordingly rejected the notion that the ISL’s sole
purpose was to “protect Illinois residents and others
who purchase securities in this state.” Id. The court
explained that in its view, the ISL’s “patternalistic
character” was “broader.” Id. So long as the stock sale

App. 81
at issue has “some physical nexus with Illinois,” the
ISL applies. Id. at 1316. The instant case meets this
standard. See [165] ¶ 3 (Seyfarth is an LLP organized
under Illinois law); id. ¶ 6 (Northern is a corporation
organized under Illinois law); id. ¶ 11 (alleging that
venue is proper here because, inter alia, Christiana’s
conduct “as alleged in the Complaint has been
committed by and through its co-conspirators . . . .”); id.
¶ 121 (explaining that John Rogers, Taylor’s partner in
Chicago, approved the legal opinion letter provided to
Plaintiff).
In the end, Plaintiff’s state-law claims are
sufficiently “in connection with” the sale of the AUI
securities to justify imposition of the ISL’s statute of
repose. See id. ¶ 155 (“But for Defendants’ conduct,”
Plaintiff would not have “incurred substantial costs to
the IRS in penalties and interest arising out of the
disposition of the AUI stock.”). This is not an
incongruous result. See Klein, 500 F.3d at 671 (holding
that fraud and breach of fiduciary duty claims fall
under the ISL); Tregenza v. Lehman Bros., 678 N.E.2d
14, 15 (Ill. App. Ct. 1997) (holding that negligent
misrepresentation claims fall under the ISL); see also
Orgone Capital III, LLC v. Daubenspeck, No. 16 C
10849, 2017 WL 3087730, at *8 n.9 (N.D. Ill. July 20,
2017) (wherein plaintiffs implicitly conceded that the
ISL controlled their state-law claims).
3. Plaintiff’s
Untimely

State-Law

Claims

Are

Because the ISL’s statute of repose applies to
Plaintiff’s state-law claims, they should have been
brought by at least May 2011, five years after the AUI

App. 82
stock sale in May 2006. [165] ¶ 132. Plaintiff did not
bring these claims until April of 2015 [1], which was far
too late. Plaintiff’s state-law claims are accordingly
dismissed.
C. Plaintiff’s Motions to Strike
Plaintiff moves to strike materials attached to
Defendants’ motions to dismiss, arguing that they are
extraneous to the pleadings and should not be
considered on a Rule 12(b)(6) motion to dismiss. See
[182] [184] [186]. Because this Court did not need to
consider—and indeed, did not consider—those
materials in deciding Defendants’ motions to dismiss,
it grants Plaintiff’s motions to strike.
IV. Conclusion
This Court grants Defendants’ motions to dismiss
[169] [172] [175], and grants Plaintiff’s motions to
strike [182] [184] [186]. Because (1) it does not appear
that Plaintiff would be able to amend his complaint to
successfully state RICO claims, (2) his state-law claims
are time-barred, and (3) this is already Plaintiff’s third
complaint (after discovery and the benefit of this
Court’s prior opinion), Plaintiff’s Second Amended
Complaint [165] is dismissed in its entirety, with
prejudice. Civil case terminated.
Dated: September 21, 2018
Entered:
/s/John Robert Blakey
John Robert Blakey
United States District Judge

App. 83

APPENDIX C
ILND 450 (Rev. 10/13) Judgment in a Civil Action
IN THE UNITED STATES DISTRICT COURT
FOR THE
NORTHERN DISTRICT OF ILLINOIS
Case No. 15 CV 3403
Judge John Robert Blakey
[Filed September 21, 2018]
__________________________
Steven Menzies,
)
)
Plaintiff(s),
)
)
v.
)
)
Seyfarth Shaw LLP et al,
)
)
Defendant(s).
)
__________________________ )
JUDGMENT IN A CIVIL CASE
Judgment is hereby entered (check appropriate box):
9 in favor of plaintiff(s)
and against defendant(s)
in the amount of $ ,

App. 84
which

9 includes
pre–judgment
interest.
9 does not include pre–judgment
interest.

Post-judgment interest accrues on that amount at
the rate provided by law from the date of this
judgment.
Plaintiff(s) shall recover costs from defendant(s).

.

: in favor of defendant(s) Seyfarth Shaw, LLP et
al and against plaintiff(s) Steven Menzies
Defendant(s) shall recover costs from plaintiff(s).
9 other:

This action was (check one):
9 tried by a jury with Judge presiding, and the jury
has rendered a verdict.
9 tried by Judge
without a jury and the above
decision was reached.
: decided by Judge John Robert Blakey on a motion.
Date: 9/21/2018

Thomas G. Bruton, Clerk of Court
G. Lewis , Deputy Clerk

App. 85

APPENDIX D
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
Case No. 15 C 3403
Judge John Robert Blakey
[Filed July 15, 2016]
_____________________________
Steven Menzies,
)
)
Plaintiff,
)
)
v.
)
)
Seyfarth Shaw LLP,
)
Graham Taylor,
)
Northern Trust Corporation,
)
and Christiana Bank & Trust )
Company,
)
)
Defendants.
)
_____________________________ )
MEMORANDUM OPINION AND ORDER
Plaintiff is a rich man who, ostensibly through hard
work and good fortune, put himself in a position to sell
over sixty million dollars in stock in a company he
helped create. No crime in that, closing on such a sale
exemplifies part of the American Dream. But when

App. 86
lawyers and financial consultants sold him on a 100%
tax avoidance plan to save him millions on the deal,
Plaintiff later paid the price to Uncle Sam with an even
bigger IRS bill. Any crime in that? Plaintiff claims it
constitutes civil racketeering and violates a host of
state laws. Defendants disagree and claim that, at
worst, it was just bad advice. They now challenge his
right to sue in federal court.
Specifically, Plaintiff Steven Menzies (“Menzies” or
“Plaintiff”) sued Defendants Seyfarth Shaw LLP
(“Seyfarth”), Graham Taylor (“Taylor”), Northern Trust
Corporation (“Northern”) and Christiana Bank & Trust
Company (“Christiana”), collectively “Defendants,”
based upon the purchase of a tax planning product
designed to allow Plaintiff to avoid paying capital gains
tax. Ultimately, the plan failed, and, in addition to the
tax burden he owed the IRS, Plaintiff incurred fees,
interest and penalties. Among other relief sought in his
Complaint [1], Plaintiff seeks more than $10.4 million
in damages from Defendants via nine causes of action,
including civil racketeering, fraud, conspiracy,
negligence, breach of fiduciary duty and unjust
enrichment.
Defendants deny any wrongdoing and now move to
dismiss [29] [31] [35] the Complaint under Federal
Rules of Civil Procedure 9(b), 12(b)(2) and 12(b)(6). For
the following reasons, the motions are granted in part
and denied in part. As explained below, this Court
dismisses the RICO counts under Rule 12(b)(2) and
12(b)(6), and, in light of the findings regarding the
RICO claims, defers the motions to dismiss as to the
state law counts.

App. 87
I. Legal Standard
Under Rule 12(b)(6), this Court accepts as true all
well-pleaded facts in the Complaint and draws all
reasonable inferences from those facts in Plaintiff’s
favor. AnchorBank, FSB v. Hofer, 649 F.3d 610, 614
(7th Cir. 2011). Although this Court normally cannot
consider extrinsic evidence without converting a motion
to dismiss into one for summary judgment, when a
document is referenced in the Complaint and central to
Plaintiff’s claims the Court may consider it in ruling on
the motion to dismiss. Hecker v. Deere & Co., 556 F.3d
575, 582-83 (7th Cir. 2009).
To survive a Rule 12(b)(6) motion, the Complaint
must not only provide Defendants with fair notice of a
claim’s basis, but must also be “facially” plausible.
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009); Bell
Atlantic Corp. v. Twombly, 550 U.S. 544, 555 (2007). A
claim has facial plausibility when the plaintiff pleads
“factual content that allows the court to draw the
reasonable inference that the defendant is liable for the
misconduct alleged.” Iqbal, 556 U.S. at 678. Although
the Complaint need not include detailed factual
allegations, Plaintiff’s obligation to provide the grounds
for his entitlement to relief requires more than mere
labels and conclusions, and a “formulaic recitation of
the elements of a cause of action will not do.” Twombly,
550 U.S. at 555.
Likewise, Rule 9(b) requires a party alleging fraud
to “state with particularity the circumstances
constituting fraud.” Fed. R. Civ. Pro. 9(b). This
“ordinarily requires describing the ‘who, what, when,
where, and how’ of the fraud, although the exact level

App. 88
of particularity that is required will necessarily differ
based on the facts of the case.” AnchorBank, 649 F.3d
at 615 (quoting Pirelli Armstrong Tire Corp. Retiree
Medical Benefits Trust v. Walgreen Co., 631 F.3d 436,
441-42 (7th Cir. 2011)). Rule 9(b) applies to “all
averments” of fraud, not just claims of fraud. Borsellino
v. Goldman Sachs Group, Inc., 477 F.3d 502, 507 (7th
Cir. 2007) (internal quotations omitted). Any “claim
that ‘sounds in fraud’—in other words, one that is
premised upon a course of fraudulent conduct—can
implicate Rule 9(b)’s heightened pleading
requirements.” Id.
The Seventh Circuit has not yet explicitly examined
whether Rule 9(b)’s heightened standard extends to
each and every element of a civil RICO claim
containing fraud-based predicate activity within it, or
whether Rule 8’s less rigorous pleading standard
applies to the non-fraud elements of the violation. The
Seventh Circuit has, however, explicitly applied the
Rule 8 standard to RICO’s enterprise element.
Richmond v. Nationwide Cassel L.P., 52 F.3d 640, 644
(7th Cir. 1995); Drobny v. JP Morgan Chase Bank,
N.A., 929 F. Supp. 2d 839, 845 (N.D. Ill. 2013)
(applying the Rule 8 standard to the non-fraud
elements of a civil RICO claim). Following that lead,
this Court applies the traditional Rule 8 standard to
the non-fraud elements of the RICO claims, and the
stricter Rule 9(b) standard to the underlying
allegations of fraud-based racketeering activity within
those claims (here, the mail and wire fraud predicates
themselves). Slaney v. The Intern. Amateur Athletic
Federation, 244 F.3d 580, 597 (7th Cir. 2001) (finding
“allegations of fraud” within a civil RICO complaint are

App. 89
“subject to the heightened pleading standard” of Rule
9(b)).
II. Facts
Without predicting which parties and claims might
prevail later at summary judgment or trial, this Court
gleans the following from the Complaint:
A. Initiation of
Conspiracy

the

Estate

Planning

Plaintiff is the co-founder, President and Chief
Operating Officer of Applied Underwriters Inc. (“AUI”),
a financial services firm that specializes in providing
workers’ compensation insurance to small and midsized businesses. Compl. ¶ 1. In November 2002,
Northern contacted Plaintiff and other AUI senior
executives to gauge their interest in Northern’s estate
planning services. Northern, a Delaware corporation
with its principal place of business in Chicago, Illinois,
is a prominent financial services firm with offices
dotting the globe. Plaintiff and others at AUI accepted
a meeting to learn about Northern’s tax products, and,
thereafter, Northern gave a presentation highlighting
its services. Id. ¶¶ 8-9, 28-29.
In the following months, Northern marketed and
discussed its estate planning and personal financial
services solutions with Plaintiff and other AUI
executives. Through in-person meetings and phone
calls, Northern outlined the ways Plaintiff could avoid
certain tax liabilities, including those related to his
ownership of the highly-valued AUI stock. Id. ¶ 30. In
January 2003, Northern sent Plaintiff a proposal for
personal financial consulting. Northern proposed to:

App. 90
(1) review Plaintiff’s financial data and personal
information; (2) develop a financial plan of action
tailored to his “goals and objectives”; and (3) implement
an appropriate plan of action. A key element of
Northern’s proposal entailed financial planning for
income tax liability and “special strategy ideas relative
to any potential liquidity events.” Id. ¶¶ 31-32.
Persuaded by the proposal, Plaintiff retained Northern
in March 2003. Id. ¶ 33.
Plaintiff alleges that by mid-2003, Northern and its
agents, Mark Harbour (“Harbour”), Michael Niemann
(“Niemann”) and Tom Hines (“Hines”), had gathered
enough information about Plaintiff and other AUI
executives that they then decided to perpetrate an
illegal tax scam, what Plaintiff terms an “abusive” tax
avoidance scheme (“Tax Scheme”). Compl. ¶ 34.
Disguised as a legitimate estate planning tax-savings
strategy, this Tax Scheme purported to lawfully reduce
(if not eliminate) capital gains tax on a participant’s
gains, such as Plaintiff’s disposition of AUI stock, by
artificially inflating the shareholder’s tax basis,
thereby diminishing or eliminating any capital gains
associated with the stock sale. Id. ¶ 16. Plaintiff avers
that Defendants hatched—and then participated in,
promoted, marketed and implemented—the Tax
Scheme to pocket substantial fees from its participants,
including Plaintiff. Id. ¶ 17. By early July 2003,
Northern pitched the specifics of the Tax Scheme to
Plaintiff and others at AUI, and marketed it as a
lawful tax strategy for the disposition of the AUI stock,
which supported Plaintiff’s estate planning objectives.
Id. ¶ 36.

App. 91
On July 30, 2003, Northern arranged a conference
call with Plaintiff to outline the steps of the Tax
Scheme, describing it as a legal tax shelter for the
contemplated gains realized from his disposition of AUI
stock. The proposed tax shelter plan involved a series
of loans, unsecured structured notes from alleged
coconspirator European American Investment Bank,
AG (“Euram Bank”) and the creation and use of trusts
and other devices. Plaintiff alleges that Northern failed
to disclose during the call, or ever, that this type of tax
shelter was unlawful and would subject him to
significant liability for taxes, penalties and interest.
Relying upon Northern’s false representations, Plaintiff
set up the tax shelter transactions for the purpose of
selling his AUI stock and avoiding tax liability. Compl.
¶¶ 37-40.
On July 31, 2003, Plaintiff believes a conference call
took place, without him, among agents for Euram
Bank, Northern, Taylor, Christiana and others. The
purposes of the call were: (1) to advise the conspirators
that Plaintiff (as well as other AUI executives) had
agreed to proceed with the Tax Scheme; (2) to discuss
details on how the transactions would be structured
and implemented; and (3) to determine how the parties
would introduce one another to Plaintiff (and the other
AUI targets) in furtherance of Defendants’ conspiracy.
Id. ¶ 42.
On August 7, 2003, Plaintiff believes another
conference call took place, again without him, among
agents for Euram Bank, Northern, Taylor, Christiana
and others. The purpose of this call was to discuss the
details of drafting the Euram Bank loan documents,

App. 92
the promissory notes, and the necessary trust
documents, all in furtherance of the illegal conspiracy.
During the call, Plaintiff believes that Taylor promised
to draft the necessary opinion letters to provide the
purported legal justification and appearance of
“legitimacy” for the fraudulent tax shelter plan. Id.
¶ 43.
On August 7, 2003, Niemann (one of Northern’s
agents) emailed Plaintiff, advising him to retain
Taylor, a partner at the Seyfarth law firm. Plaintiff
followed this advice. Agents for Northern also
convinced Plaintiff to engage Christiana as trustee for
the various trusts. As part of the plan, none of the
Defendants ever disclosed to Plaintiff the prior
relationship that purportedly existed between the
various conspirators. Compl. ¶¶ 44-47.
B. Execution of the Tax Shelter Scheme
Defendants then marched Plaintiff through a series
of scripted steps to create tax shelters for 2003 and
2004, all in furtherance of the same Tax Scheme.
Plaintiff took the first step on August 11, 2003. He
obtained a loan from Euram Bank for an amount
equivalent to the value of the AUI stock he intended to
sell first (approximately $19 million). Per the loan
agreement, Plaintiff deposited the loan funds into an
account at Euram Bank, and agreed to pay Euram
Bank significant fees and interest (London Interbank
Offered Rate “LIBOR” plus 40 basis points). Id. ¶¶ 4849.

App. 93

On August 25, 2003, Plaintiff took the second step,
creating the “Steven Menzies Grantor Retained
Remainder Trust” (“Menzies GRRT”). Under the
Menzies GRRT, Plaintiff retained the power in a nonfiduciary capacity to reacquire the trust corpus by
substituting other property of equal value. Plaintiff
also retained a remainder interest in the trust, namely,
the assets of the trust remaining upon termination of
the trust term. The Menzies GRRT appointed the
“Menzies Discretionary Trust” as the “Unitrust”
beneficiary of the trust. According to the Menzies
GRRT, the Menzies Discretionary Trust was also
entitled to receive annual distributions in an amount
equal to 1% of the assets of the Menzies GRRT (the
“Unitrust Distributions”) for the life of the trust. The
Menzies Discretionary Trust was, in turn, obligated to
pay the Unitrust Distributions it received from the
Menzies GRRT to Plaintiff’s mother, as beneficiary of
the Menzies Discretionary Trust. Plaintiff held
personally the remainder interest in the Menzies
Discretionary Trust. Christiana served as the trustee
of both the Menzies GRRT and the Menzies
Discretionary Trust. Compl. ¶¶ 51-54.

App. 94

In the third step, the Menzies GRRT opened a bank
account at Euram Bank. Plaintiff deposited the
proceeds of the $19 million loan from Euram Bank into
the Menzies GRRT account at Euram Bank as the
initial funding of the Menzies GRRT. Compl. ¶ 55. On
August 26, 2003, Christiana, as trustee of the Menzies
GRRT, then “invested” the loan funds deposited in the
Menzies GRRT with Euram Bank (the very same party
that loaned the funds to Menzies in the first place and
who remained in possession of the funds at all times).
The “investment” was a promissory note issued by
Euram Bank paying interest of three months of LIBOR
plus an equity multiplier based on the performance of
gold (referred to hereafter as the “Euram Bank
Structured Note”). Id. ¶ 56.

App. 95

On September 24, 2003, in the fourth step, Plaintiff
created a second trust named the Persephone Trust for
the benefit of the Menzies Discretionary Trust.
Christiana once again served as the trustee. Two days
later, Plaintiff sold his remainder interest in the
Menzies GRRT (which held the note from Euram Bank)
to the Persephone Trust valued at approximately $18.9
million, in exchange for a promissory note of equal
value from the Persephone Trust to Plaintiff
(“Persephone Trust Promissory Note”). At this stage of
the transactions, the Persephone Trust owned the
remainder interest in the Menzies GRRT (which held
the Euram Bank Structured Note), but the Persephone
Trust had a note of obligation to Plaintiff in the
principal amount of approximately $18.9 million (i.e.,
equal to the value of the remainder interest in the
Menzies GRRT). Although Plaintiff no longer held the
remainder interest in the Menzies GRRT, he still had
the power to reacquire assets of the Menzies GRRT by

App. 96
substituting other assets of equal value. Under the
terms of the Menzies GRRT, Plaintiff had the right to
exercise this power in his absolute discretion and in a
non-fiduciary capacity. In early October 2003, through
various phone calls, Taylor and Harbour assured
Plaintiff that this substitution of assets would be a
non-taxable event. Compl. ¶¶ 57-59.

On October 10, 2003, in the fifth step, Plaintiff took
a fixed number of AUI shares and substituted those
shares in exchange for the assets of equivalent value in
the Menzies GRRT, namely, the Euram Bank
Structured Note. After the substitution of assets, the
Menzies GRRT held the AUI stock and Plaintiff held
the Euram Structured Promissory Note as a receivable
from Euram Bank and virtually identical in value to
his payable to Euram Bank (i.e., the loan obligation to
Euram Bank arising from Plaintiff’s original loan).
Later, to satisfy that original obligation on the Euram
Bank loan, Plaintiff used the Euram Bank Structured
Note as repayment for his personal debt obligation to
Euram Bank, and thereby extinguished both the

App. 97
Euram Bank loan and the Euram Bank Structured
Note. Compl. ¶¶ 60-62.

At this point, in the sixth step, the Persephone
Trust owned the remainder interest in the Menzies
GRRT, and the Menzies Discretionary Trust held the
“Unitrust” beneficial interest in the Unitrust
Distributions. The Menzies Discretionary Trust then
sold the Unitrust interest to the Persephone Trust,
which then owned both the Unitrust interest and the
remainder interest in the Menzies GRRT. The AUI
stock, earlier substituted by Plaintiff, constituted the
sole asset of the Menzies GRRT. On February 25, 2004,
Plaintiff terminated the Menzies GRRT. The
Persephone Trust, as the holder of all the legal and
beneficial interest of the trust, thus received the AUI
stock upon termination. Compl. ¶ 63.

App. 98

As of February 25, 2004, the first set of financial
transactions was complete. The Persephone Trust now
held the AUI stock valued at approximately $19 million
and, per the Persephone Trust Promissory Note, it
owed an obligation to Plaintiff personally for
approximately $19 million. Compl. ¶ 64. For ease of
reference, the Court will refer to the foregoing portion
of the overall Tax Scheme as the 2003 Tax Shelter.

App. 99

In June 2004, at Defendants’ direction and as part
of the same Tax Scheme, Plaintiff performed a
substantially identical series of transactions involving
the same parties and steps, but this time to set-up the
sale of the rest of his AUI stock worth approximately
$54 million. Id. ¶¶ 65-66. The Court will refer to this
portion of the overall Tax Scheme as the 2004 Tax
Shelter.
To provide Plaintiff with additional assurance that
the Tax Scheme was legitimate and lawful, and that
Plaintiff would later be able to “sell” his stock tax-free,
Taylor informed Plaintiff that Seyfarth would provide
“independent” opinion letters confirming the propriety
of the strategy. Taylor explained that the opinion
letters would convince the IRS that the two Tax
Shelters were legitimate in the unlikely event that the
IRS audited Plaintiff. On September 24, 2004, Seyfarth
provided a signed opinion letter for the 2003 Tax
Shelter, and, on June 7, 2005, provided a signed
opinion letter for the 2004 Tax Shelter. When Seyfarth
issued the Opinion Letters, Seyfarth (and other
Defendants) allegedly knew that their conclusions were
false and misleading. Compl. ¶¶ 71-77. With Seyfarth’s

App. 100
issuance of the Opinion Letters, Defendants completed
all necessary transactions in furtherance of the Tax
Scheme, and pursuant to the conspiracy, they were all
paid substantial fees and expenses from Plaintiff. Id.
¶ 76.
By late 2005, Berkshire Hathaway Inc. (“BHI”)
planned to acquire AUI. By early 2006, AUI agreed to
sell its shares to BHI. BHI agreed to buy AUI stock
from its stockholders in exchange for a cash payment.
As part of the deal, BHI agreed to keep senior
executives, including Plaintiff, at their positions at
AUI. In May 2006, and consistent with the stock
purchase agreement between the AUI shareholders and
BHI, BHI purchased the AUI stock held by the
Persephone Trust for $64,328,160 in cash. Id. ¶¶ 79-82.

Thereafter, the Persephone Trust used the
$64,328,160 in proceeds to repay Plaintiff the amounts
owed under the promissory notes it had issued to him
when it acquired his remainder interest through the
Menzies GRRT device. Consequently, when filing his
2006 federal income tax returns in 2007, and relying
upon Defendants’ investment and legal advice, Plaintiff
did not report the sale of the $64 million in AUI stock
to BHI as a taxable event, because the AUI stock was
“owned” by the Persephone Trust at the time of sale,

App. 101
and the Persephone Trust had a full tax basis in the
AUI stock and thus recognized little or no gain on
disposition of the stock. Compl. ¶¶ 83-84.

C. Resolution of the IRS Audit
In October 2009, the IRS advised Plaintiff of its
intention to audit his 2006 tax filings. The IRS audit
occurred from October 2009 through most of 2012. Near
the end of its audit, the IRS focused on BHI’s purchase
of the AUI stock from the Persephone Trust. Despite
Defendants’ assertions that the Tax Scheme was
legitimate, the IRS audit deemed the plan to be an
unlawful tax avoidance maneuver, because Plaintiff’s
transfer of AUI stock to “Grantor Retained Remainder
Interest Trusts (GRRTs) did not represent arm’s length
transactions.” Compl. ¶ 88. As such, the 2006
disposition of AUI stock was actually a “sale” that
should have been reported by Plaintiff as a long-term
capital gain. Specifically, the IRS found that the
transfer and substitution of assets and the various
trusts were designed as elements of an abusive tax
shelter with “the primary purpose” to disguise the
ownership of the stock, inflate Plaintiff’s basis, and
allow him to evade the 2006 tax liabilities related to
the stock sale. Id. ¶ 89. The IRS determined that
Plaintiff, not the Persephone Trust, had sold the AUI
stock to BHI for $64,328,160; and therefore, the IRS re-

App. 102
calculated the basis of the AUI stock as $19,436,324.
Upon this basis, the IRS determined that Plaintiff
unlawfully failed to report $44,891,836 of capital gains
from the sale of his AUI stock. Id. ¶¶ 85-90.
In December 2012, Plaintiff agreed to settle with
the IRS and later paid $10,427,201.98, in capital gains
taxes, penalties and interest for the disposition of the
AUI stock to BHI. Id. ¶¶ 91-92. Thereafter, Plaintiff
sued Defendants.
III. Analysis
Because each Defendant has echoed, or even
incorporated by reference, the arguments raised by the
other Defendants in their motions to dismiss, this
Court addresses the motions collectively, and begins
with Counts I and II of the Complaint.
A. Counts I and II: Sufficiency of the RICO
Allegations
In 1970, Congress enacted the Organized Crime
Control Act containing Title IX, otherwise known as
“RICO.” 18 U.S.C. §§ 1961-68. Creating enhanced
criminal and civil remedies, Congress drafted RICO to
address “enterprise criminality,” that is, “patterns” of
unlawful conduct, including: (1) acts of violence and
terrorism; (2) the provision of illegal goods and
services; (3) corruption in labor or management
relations; (4) corruption in government; and
(5) criminal fraud by, through, or against various types
of licit or illicit enterprises. St. Paul Mercury Insurance
Co. v. Williamson, 224 F.3d 425, 439 (5th Cir. 2000)
(summary restatement of RICO’s elements).

App. 103
As part of RICO’s remedial scheme, a private civil
plaintiff may sue under § 1964(c) for a violation of the
statute that proximately causes an injury to his
business or property. Holmes v. Sec. Inv’r Prot. Corp.,
503 U.S. 258, 265-68 (1992).1 In Counts I and II of his
Complaint, Plaintiff alleges both a substantive RICO
violation under § 1962(c) and a RICO conspiracy
violation under § 1962(d). Compl. ¶¶ 104-36.
Under § 1962(c), RICO makes it unlawful for any
“person employed by or associated with any enterprise
engaged in, or the activities of which affect, interstate
or foreign commerce, to conduct or participate, directly
or indirectly, in the conduct of such enterprise’s affairs
through a pattern of racketeering activity or collection
of unlawful debt.” 18 U.S.C. § 1962(c). Thus, in order to
establish a violation of § 1962(c), Plaintiff must allege:
(1) conduct; (2) of an enterprise; (3) through a pattern;
(4) of racketeering activity. Sedima, S.P.R.L. v. Imrex
Co., 473 U.S. 479, 496 (1985).
Likewise, because § 1962(d) prohibits any person
from conspiring to violate subsections (a), (b) and (c) of
§ 1962, the overall objective of the RICO conspiracy
claim often mirrors the underlying RICO substantive
claim. This case is no exception. Hence, as to § 1962(d),
Plaintiff must establish that each Defendant joined an
agreement to participate in “an endeavor which, if
completed, would satisfy all of the elements” of a
1

Under § 1964(c), any “person injured in his business or property
by reason of a violation of section 1962 of this chapter may sue
therefor in any appropriate United States district court and shall
recover threefold the damages he sustains and the cost of the suit,
including a reasonable attorney’s fee...”

App. 104
substantive violation of RICO, here, the elements of the
§ 1962(c) offense noted above. Brouwer v.
Raffensperger, Hughes & Co., 199 F.3d 961, 964 (7th
Cir. 2000).
In moving to dismiss Counts I and II, all
Defendants attack the Complaint’s allegedly
insufficient showings under RICO of: (1) an
“enterprise”; (2) “pattern”; (3) “conduct” (otherwise
known as the “operation-management” test); and
(4) the purported non-existence of a RICO conspiracy
generally. They also argue that (5) Plaintiff’s RICO
claim is precluded by the statutory exception of the
Private Securities Litigation Reform Act of 1995
(“PSLRA”). This Court considers each challenge in turn
below.
1. Elements of a RICO Enterprise
Under 18 U.S.C. § 1961(4), an “enterprise” includes
any individual, partnership, corporation, association, or
other legal entity, and any union or group of
individuals associated in fact although not a legal
entity. These examples are illustrative, not exhaustive.
See Helvering v. Morgan’s, Inc., 293 U.S. 121, 125 n.1
(1934) (distinguishing the non-exhaustive statutory
term “includes,” which is used in RICO, from its
counterpart “means”). The entities comprising a RICO
enterprise can also play different roles in the case,
including the roles of victim, prize, instrument or
perpetrator of the violation. National Organization for
Women, Inc. v. Scheidler, 510 U.S. 249, 259 n.5 (1994);
see Prof. G. Robert Blakey, The RICO Civil Fraud
Action in Context: Reflections on Bennett v. Berg, 58
Notre Dame L. Rev. 237, 307-25 (1982).

App. 105
Relevant here, for “association-in-fact” enterprises
in particular, the Supreme Court defines the term as a
“group of persons associated together for a common
purpose of engaging in a course of conduct.” United
States v. Turkette, 452 U.S. 576, 583 (1981). These
enterprises, licit or illicit, may be “proved by evidence
of an ongoing organization, formal or informal, and by
evidence that the various associates function as a
continuing unit.” Id. In this regard, Congress has
broadly defined the “enterprise” concept to mean any
group of persons “whose association, however loose or
informal, furnishes a vehicle for the commission” of two
or more predicate crimes (or the collection of unlawful
debt). United States v. Elliott, 571 F.2d 880, 898 (5th
Cir. 1978).
Although an “association-in-fact” enterprise must
have some ascertainable structure, it need not be
“much” more than a bare-bones conspiracy to commit
the predicate acts themselves. Boyle v. United States,
556 U.S. 938, 948-49 (2009) (explaining the “breadth”
of RICO’s enterprise concept). In the Boyle case, the
Supreme Court outlined the three essential features of
an “association-in-fact” enterprise: (1) a purpose;
(2) relationships among those associated with the
enterprise; and (3) longevity sufficient to permit the
associates to pursue the enterprise’s purpose. Id. at
946-48. The Court then gave examples of how such an
enterprise might satisfy this broad structural
requirement:
Such a group need not have a hierarchical
structure or a “chain of command”; decisions
may be made on an ad hoc basis and by any

App. 106
number of methods—by majority vote,
consensus, a show of strength, etc. Members of
the group need not have fixed roles; different
members may perform different roles at
different times. The group need not have a
name, regular meetings, dues, established rules
and regulations, disciplinary procedures, or
induction or initiation ceremonies. While the
group must function as a continuing unit and
remain in existence long enough to pursue a
course of conduct, nothing in RICO exempts an
enterprise whose associates engage in spurts of
activity punctuated by periods of quiescence.
Nor is the statute limited to groups whose
crimes are sophisticated, diverse, complex, or
unique; for example, a group that does nothing
but engage in extortion through old-fashioned,
unsophisticated, and brutal means may fall
squarely within the statute’s reach.
Id. at 948; see also Jay E. Hayden Foundation v. First
Neighbor Bank, N.A., 610 F.3d 382, 388 (7th Cir. 2010).
Given the flexibility of RICO’s statutory language, a
single “association-in-fact” enterprise can even exist
when its members and associates constitute opposing
factions. United States v. Orena, 32 F.3d 704, 710 (2d
Cir. 1994) (finding that internal divisions did not
undermine the existence of a single “association-infact” enterprise under RICO). As with all RICO
enterprises, however, the existence of an association-infact “enterprise” is a “separate” element from the
“pattern” of racketeering activity itself. Turkette, 452
U.S. at 583 (finding that RICO requires “separate” or
distinct elements, even though the proof at trial may

App. 107
“coalesce”); see United States v. Torres, 191 F.3d 799,
805-06 (7th Cir. 1999) (general discussion of sufficient
RICO “association-in-fact” allegations).2
Applying such standards at this preliminary stage
of the proceedings, the Complaint here properly alleges
a RICO enterprise. The allegations, and the reasonable
inferences drawn therefrom, establish both common
purposes under RICO and various relationships among
those associated with the enterprise. Compl. ¶¶ 104-36.
Among such purposes and relationships, the
allegations here show that Defendants joined together
to enrich themselves and further the common interests
of the group as a whole—not just their own, otherwise
unrelated self-interests. Compl. ¶¶ 44-47, 104-36.
Thus, the alleged interactions among the members of
the enterprise here extend beyond those typical of
normal commercial relationships. The alleged
enterprise also exhibits sufficient longevity (at least 31
months or more) to permit its associates to pursue its
purposes. Compl. ¶¶ 44-47, 104-36. No further features
or other ascertainable structures beyond those inherent
in the predicate activity are required. Boyle, 556 U.S.
at 943-49; St. Paul Mercury Insurance, 224 F.3d at 44041.
2

An “association-in-fact” enterprise also generally constitutes an
exception to the “enterprise-person” rule arising under violations
of § 1962(c). Haroco, Inc. v. American National Bank & Trust Co.
of Chicago, 747 F.2d 384, 399-402 (7th Cir. 1984) (enterpriseperson rule); see also Cedric Kushner Promotions, Ltd. v. King, 533
U.S. 158, 162-63 (2001) (collecting decisions from the circuits, the
Court found that substantive violations of § 1962(c) require that
the alleged “person” and “enterprise” be separate or distinct
elements).

App. 108
Having considered Defendants’ arguments, this
Court’s conclusion about the legal sufficiency of the
enterprise allegations remains firm. For example,
Defendants’ reliance on the Walgreen case is misplaced.
United Food & Commercial Workers Unions &
Employers Midwest Health Benefits Fund v. Walgreen
Co., 719F.3d 849 (7th Cir. 2013). Like the defendants
in Walgreen, which involved a scheme to fraudulently
fill prescriptions for generic drugs with differentials in
dosage and price from those actually prescribed,
Defendants here claim that the alleged interactions
among the co-conspirators show only “a commercial
relationship” and not that they had “joined together to
create a distinct entity” for RICO purposes. Id. at 85556. This theory does not get Defendants far.
In Walgreen, unlike here, the Seventh Circuit
assumed that the complaint had pled the “existence of
an association-in-fact enterprise under Boyle,” and only
then affirmed dismissal of the complaint because the
pled allegations failed to establish that the defendants
“were conducting the affairs” of that enterprise, rather
than their “own affairs” under the requisite operationmanagement test. Id. at 854; see Reves v. Ernst &
Young, 507 U.S. 170, 185 (1993) (holding that RICO
requires compliance with the “operation-management”
test). This Court will address the sufficiency of the
Complaint under Reves in Section III(A)(3) below, but,
for the purposes of pleading the existence of a RICO
enterprise under Rule 12(b)(6), the Complaint passes
muster. Unlike Walgreen, Plaintiff here has alleged
much more than “parallel uncoordinated fraud” among
Defendants. 719 F.3d at 855.

App. 109
In contrast to Walgreen, a more recent Seventh
Circuit decision—Bible—confirms that the allegations
here satisfy the “enterprise” pleading requirements.
Bible v. United Student Aid Funds, Inc., 799 F.3d 633
(7th Cir. 2015). In that case, the plaintiff brought RICO
claims based upon the managing of accounts as part of
an unlawful loan rehabilitation process. In doing so,
the plaintiff, as here and unlike in Walgreen, alleged
facts permitting the “reasonable inference” that the
defendants worked as a “single” enterprise. Id. at 65557. For example, the alleged “economic
interdependence” among the enterprise membership in
Bible included allegations that the violators referred
defaulting loans to one another. Id. The Seventh
Circuit thus concluded that the members of the RICO
enterprise in Bible did “not operate as completely
separate entities” in managing the loan rehabilitation
process. Id. The same conclusion must be drawn here.
Like the Seventh Circuit in Bible, this Court can
distinguish the allegations here from “run-of-the-mill”
commercial activity, because the Complaint establishes
a “truly joint enterprise” in which each individual
entity acted in concert with the others to “pursue a
common interest.” Bible, 799 F.3d at 655-56. Here,
Defendants planned and worked in concert, even
referring business to one another vital to the fraud.
Defendants then performed other services, such as
issuing opinion letters and conducting trust activities,
all in aid of a single overall scheme that generated
sustained profits for the enterprise membership. As in
Bible, these allegations, when taken together, show a
common purpose, relationships among the entities
associated with the enterprise, and longevity sufficient

App. 110
to permit these associates to pursue the enterprise’s
purposes. 799 F.3d at 656; see also Crichton v. Golden
Rule Insurance Co., 576 F.3d 392, 400 (7th Cir. 2009)
(distinguishing a normal marketing arrangement
among distinct entities from a RICO enterprise); Sykes
v. Mel Harris & Associates, LLC, 757 F. Supp. 2d 413,
426-27 (S.D.N.Y. 2010) (finding that the complaint
alleged a plausible RICO enterprise comprising of a
debt-buying company, debt collection agency, process
service company and others).
Defendants fare no better by citing Guaranteed
Rate, Inc. v. Barr, 912 F. Supp. 2d 671 (N.D. Ill. 2012).
In that case, the court found no “common purpose” in
the allegations to establish any enterprise relationships
among the violators as required by Boyle, nor any
“conduct” that otherwise satisfied the Reves test.
Guaranteed Rate, 912 F. Supp. 2d at 686-89. Indeed,
Defendants here misread Guaranteed Rate to argue
that RICO requires the enterprise members to share
the profits of their illegal scheme. There is no such
requirement. Although sharing profits (or otherwise
comingling illicit proceeds) might show a “common
purpose” under RICO, the law after Boyle is clear that
such allegations are merely relevant and possibly
sufficient—but in no event necessary—for liability.
This Court rejects Defendants’ efforts to extend
Guaranteed Rate, and declines to create a new and
unfounded “profit-sharing” test for establishing
membership within a RICO enterprise.3
3

In determining whether a defendant is a member of the
enterprise, or merely an outside “hireling” earning a “normal” fee,
the existence or absence of profit-sharing is a relevant factor, but

App. 111
2. Elements of a RICO Pattern
For substantive violations, a RICO “pattern” under
§ 1961(5) requires the commission of at least two acts
of “predicate” activity enumerated in § 1961(1) that
occur within ten years of each other (excluding any
period of imprisonment), with at least one act occurring
after the enactment of RICO itself on October 15, 1970.
18 U.S.C. §§ 1961(1) and (5).
In H.J. Incorporated v. Northwestern Bell Telephone
Company, the Supreme Court set forth the process for
determining what conduct meets this “pattern”
requirement under RICO. H.J., 492 U.S. 229, 236-50
(1989). The Court began with the proposition that proof
of two acts of racketeering activity, without more, does
not establish a pattern. Instead, the Court found that
the “pattern” element requires a showing of continuity
plus relationship. H.J., 492 U.S. at 237-39 (pattern
reflects relation and continuity (or its threat)).
Although these two constituents of a RICO offense are
discussed separately for analytic purposes, their proof
often will overlap in practice. Id. at 239.
In its analysis in H.J., the Supreme Court
developed a six-step process for determining if a
it is neither required nor dispositive in the analysis. MCM
Partners, Inc. v. Andrews-Bartlett & Associates, Inc., 62 F.3d 967,
979 (7th Cir. 1995) (observing that the “operation” of an enterprise
includes “foot soldiers” as well as “generals” and can even include
a participant’s acquiescence to losing money to advance the
enterprise’s goals); Nesbitt v. Regas, No. 13-8245, 2015 WL
1331291, at *11 (N.D. Ill. March 20, 2015) (explaining the narrow
significance of the profit-sharing language in Bachman v. Bear,
Stearns & Co., Inc., 178 F.3d 930, 932-33 (7th Cir. 1999)).

App. 112
“pattern” is present within the meaning of RICO. To
determine whether the goals of relationship and
continuity are met, up to six questions must be asked.
The first two questions are:
1. Are the acts in a series (at least two) related to
one another, for example, are they part of a
single scheme?
2. If not, are they related to an external organizing
principle, for example, to the affairs of the
enterprise?
H.J., 492 U.S. at 238; see also Elliott, 571 F.2d at 899;
United States v. Sinito, 723 F.2d 1250, 1261 (6th Cir.
1983). When analyzing a RICO pattern, a broad range
of criminal conduct can exhibit relationship, including
unlawful acts that have the same or similar purposes,
results, participants, victims or methods of commission,
or acts that are otherwise interrelated by
distinguishing characteristics. In this way, RICO’s
pattern element can be shown with either a
“horizontal” relationship between the predicate acts
themselves or a “vertical” relationship of the predicate
acts to the RICO enterprise itself. If both of the above
questions are answered in the negative, no relationship
is present and this Court need not proceed further.
If either question is answered “yes,” however,
relationship is present and the following additional
questions must be asked:
3. Are the acts in the series open-ended, that is, do
the acts have no obvious termination point?

App. 113
4. If not, did the acts in the closed-ended series go
on for a substantial period of time, that is, more
than a few weeks or months?
H.J., 492 U.S. at 241-43. Generally, if either question
is answered in the affirmative, continuity is present.
If both questions are answered in the negative,
however, up to two additional questions must be asked:
5. May a threat of continuity be inferred from the
character of the illegal enterprise?
6. If not, may a threat of continuity be inferred
because the acts represent the regular way of
doing business of a lawful enterprise?
H.J., 492 U.S. at 242-43; Torres, 191 F.3d at 808. If
either question is answered in the affirmative, a threat
of continuity is present.
As to a “threat” of continuity (Questions 5 and 6),
the Seventh Circuit in Torres emphasized that, as
“other courts of appeal have noted, in cases where the
acts of the defendant or the enterprise were inherently
unlawful” or “were in pursuit of inherently unlawful
goals,” then courts generally have “concluded that the
requisite threat of continuity was adequately
established by the nature of the activity, even though
the period spanned by the racketeering activity was
short.” 191 F.3d at 808 (internal quotations omitted).
As such, the continuity requirement may be satisfied
by showing past conduct which “by its nature projects
into the future” with a “threat” of repetition. Midwest
Grinding Co., Inc. v. Spitz, 976 F.2d 1016, 1023 (7th
Cir. 1992) (internal quotations omitted); see also

App. 114
Shields Enterprises, Inc. v. First Chicago Corp., 975
F.2d 1290, 1296-97 (7th Cir. 1992) (finding that a
threat of continuity may be shown by establishing that
the conduct is a “regular way” of doing business)
(internal quotations omitted); United States v. Aulicino,
44 F.3d 1102, 1112 (2d Cir. 1995) (observing that
continuity is assessed prospectively and not from
hindsight, after the pattern ends).
When assessing a RICO pattern as a whole, the
Seventh Circuit includes among the relevant factors
“the number and variety of predicate acts and the
length of time over which they were committed, the
number of victims, and the presence of separate
schemes and the occurrence of distinct injuries.”
Morgan v. Bank of Waukegan, 804 F.2d 970, 975 (7th
Cir. 1986). In Morgan, however, the court also
cautioned that “the mere fact that the predicate acts
relate to the same overall scheme or involve the same
victim does not mean that the acts automatically fail to
satisfy the pattern requirement” because the pattern
requirement is “a standard, not a rule.” Id. at 975-76.
Thus, the determination “depends on the facts and
circumstances of the particular case, with no one factor
being necessarily determinative.” Id. at 976. Elements
of the RICO violation beyond the racketeering activity
itself also may be considered in assessing relatedness
and continuity.
In the end, this Court must evaluate all the
allegations with the goal of “achieving a natural and
commonsense result, consistent with Congress’ concern
with long-term criminal conduct.” Roger Whitmore’s
Automotive Services, Inc. v. Lake County, Illinois, 424

App. 115
F.3d 659, 673 (7th Cir. 2005) (internal quotations
omitted); see also 420 East Ohio Ltd. Partnership v.
Cocose, 980 F.2d 1122, 1124 (7th Cir. 1992) (finding
that the Seventh Circuit still examines the Morgan
factors post-H.J. when assessing continuity “with an
eye towards achieving a natural and common sense
result”) (internal quotations omitted).4
a) Pattern Allegations Are Not Strictly
Construed
Here, Defendants claim the Complaint fails to
allege a proper RICO pattern. Defendants begin this
challenge by misreading the holding of Midwest
Grinding for the proposition that the federal courts
must strictly construe the pleading requirements for
civil RICO in order to prevent it from supposedly
becoming a federal surrogate for “garden-variety fraud
actions properly brought under state law.” 976 F.2d at
1019, 1022.
No strict-construction rule, however, exists for
RICO cases in general or for civil RICO in particular.
The Seventh Circuit applies “ordinary civil standards
to pleadings in civil RICO cases” and sees “no reason to
depart from that practice.” Haroco, 747 F.2d at 404.
Nor could any such judicially-created rule for civil
4

Of course, under § 1962(c), the “pattern” must also be in the
affairs of the enterprise. United States v. Starrett, 55 F.3d 1525,
1542 (11th Cir. 1995) (pattern must regularly utilize the facilities
or services of the enterprise, or otherwise have an effect upon the
common affairs of the enterprise). If not, liability will not obtain.
Palmetto State Medical Center, Inc. v. Operation Lifeline, 117 F.3d
142, 149 (4th Cir. 1997) (no evidence conduct was “in the affairs”
of the enterprise).

App. 116
RICO cases be reconciled with the Supreme Court’s
admonition to read the statute’s provisions the same
way in both a criminal or civil context.
Shearson/American Express, Inc. v. McMahon, 482
U.S. 220, 239 (1987) (“a pattern for civil purposes is a
pattern for criminal purposes”) (internal quotations
omitted); Sedima, S.P.R.L. v. Imrex Co., Inc., 473 U.S.
479, 489 (1985) (same). Nor could any special “strict
construction” rule withstand Congress’ mandate to
“liberally” construe the statute in light of its broad
remedial purposes. Pub. L. No. 91-452, § 904(a), 84
Stat. 947; Sedima, 473 U.S. at 497-98. As the Supreme
Court has repeatedly warned, such narrow distortions
of RICO must be rejected based upon the “selfconsciously expansive language and overall approach”
of Congress in enacting RICO. Sedima, 473 U.S. at 49798 (citing Turkette, 452 U.S. at 586-87 and Russello v.
United States, 464 U.S. 16, 26-29 (1983)); see also H.J.,
492 U.S. at 236-50.5
5

Since RICO’s enactment over 45 years ago, various judicial calls
to invalidate the statute’s enhanced remedies and legal standards
have been uniformly, and rightly, rejected by Congress and the
federal courts. See, e.g., William H. Rehnquist, Remarks of the
Chief Justice, 21 St. Mary’s L.J. 5, 9-10 (1989); Bingham v. Zolt, 66
F.3d 553, 566 (2d Cir. 1995) (explicitly rejecting a call to invalidate
RICO for vagueness, and holding that the pattern and enterprise
requirements are not unconstitutionally vague); Columbia Natural
Resources, Inc. v. Tatum, 58 F.3d 1101, 1108 (6th Cir. 1995)
(stating that RICO provides a clear standard of conduct, which is
proscribed by the pattern requirement); United States v. Bennett,
984 F.2d 597, 606-07 (4th Cir. 1993) (holding that RICO provides
members of a RICO enterprise or RICO conspiracy adequate notice
that certain acts are prohibited); United States v. Glecier, 923 F.2d
496, 498 n.1 (7th Cir. 1991) (joining First and Third Circuits in reaffirming constitutionality of RICO despite dicta from a Supreme

App. 117
Instead, when read properly, Midwest Grinding and
its precedents merely require what RICO already
requires, namely, a showing of pattern that can satisfy
the well-settled “continuity plus relationship” test.
H.J., 492 U.S. at 237; Jennings v. Auto Meter Products,
Inc., 495 F.3d 466, 473 (7th Cir. 2007). To the degree
“garden-variety” fraud in the marketplace otherwise
meets the well-settled elements of a RICO claim,
Congress intended the RICO statute to address such
fraud and “weed” it out of the garden.
b) Plaintiff’s Pattern Allegations Lack
Continuity
As to the pattern requirement, Defendants next
attack Plaintiff’s continuity showing.6 Here, the

Court Justice raising concerns over the pattern requirement).
Various attempts to artificially narrow RICO with judiciallycreated limitations have, likewise, been properly rejected. See, e.g.,
National Org. for Women, Inc. v. Scheidler, 510 U.S. 249 (1994)
(unanimously rejecting the creation of any “economic motive”
limitation for civil RICO cases); H.J. Inc. v. Northwestern Bell
Telephone Co., 492 U.S. 229, 244 (1989) (rejecting judiciallycreated “organized crime” limitation and noting that the
contention that RICO is somehow limited to organized crime finds
no support in the Act’s text and remains at “odds with the tenor of
its legislative history”); Sedima, S.P.R.L. v. Imrex Co., 473 U.S.
479, 489-90 (1985) (rejecting judicially-created “criminal
conviction” and “racketeering injury” limitations for civil RICO
cases).
6

In contrast, Defendants do not (and cannot in light of Plaintiff’s
allegations here) challenge the sufficiency of Plaintiff’s
“relatedness” showing. If nothing else, the alleged predicates in
this case all relate to “an external organizing principle,” that is, to
the affairs of the same enterprise. H.J., 492 U.S. at 238; Vicom,

App. 118
Complaint alleges a closed-ended pattern involving
multiple acts of mail and wire fraud in violation of 18
U.S.C. §§ 1341 and 1343 in furtherance of the overall
scheme to defraud, and all within the affairs of the
alleged RICO enterprise. Compl. ¶¶ 1-136; [41] at 5
(Plaintiff concedes he has alleged a “closed-ended”
pattern). When, as here, mail and wire fraud form the
alleged pattern, each requisite element of the
underlying predicate activity must be set forth with the
particularity and specificity required by Rule 9(b).
Slaney, 244 F.3d at 599. At a minimum, this requires
Plaintiff to show: (1) a scheme to defraud; (2) the intent
to defraud; and (3) the use of the mails or wire
communications in furtherance of the scheme to
defraud. See Corley v. Rosewood Care Center, Inc. of
Peoria, 388 F.3d 990, 1005 (7th Cir. 2004); Bridge v.
Phoenix Bond & Indem. Co., 553 U.S. 639, 656 (2008)
(finding that civil RICO plaintiffs need not show
reliance on any misrepresentation to establish
proximate causation).
Given the numerous predicate acts and their
duration over 31 months, the allegations here initially
seem to present a sufficient pattern but, upon further
inspection, the Complaint ultimately fails to make a
proper showing. U.S. Textiles, Inc. v. Anheuser-Busch
Cos., Inc., 911 F.2d 1261, 1267-68 (7th Cir. 1990);
Sutherland v. O’Malley, 882 F.2d 1196, 1205 n.8 (7th
Cir. 1989). Specifically, Counts I and II of the

Inc. v. Harbridge Merchant Services, Inc., 20 F.3d 771, 779 (7th
Cir. 1994) (“vast majority of cases dealing with RICO pattern
requirement” fail to “turn on the relatedness of the alleged
predicate acts”).

App. 119
Complaint, even when considered as a whole, do not
allow this Court to draw the reasonable inference that
Defendants can be found liable under RICO, because
the showing of continuity remains insufficient.
(1)

Plaintiff’s Pattern Allegations
Lack Closed-Ended Continuity

First, Plaintiff makes a weak showing of “closedended” continuity, because the predicate acts all
occurred in furtherance of a single scheme to defraud
a single victim, whose injuries all stem from a single
tax planning product. Lacking any variety in the
nature of the underlying criminal offenses, the
predicate activity here involves only two substantive
crimes (wire fraud and mail fraud) in the execution of
a single tax avoidance plan for the disposition of a
single person’s ownership of stock. Although
Defendants staged the complex tax plan over time, the
totality of the circumstances alleged here still
constitutes “one dishonest undertaking” for pattern
purposes. U.S. Textiles, 911 F.2d at 1267-69.
This case tracks U.S. Textiles. There, the alleged
RICO violators (Anheuser-Busch and others) extorted
a discounted sales contract from a t-shirt
manufacturing company and then, over an
approximately two-year span, engaged in various acts
of mail and wire fraud as orders and shipments were
made under the contract. U.S. Textiles, 911 F.2d at
1264. Although the number-of-victims factor “cannot be
dispositive of any ‘pattern’ determination,” the Seventh
Circuit still found “highly significant” the presence of
only a single victim with no apparent threat of
repetition. Id. at 1268-69; Uniroyal Goodrich Tire Co.

App. 120
v. Mutual Trading Corp., 63 F.3d 516, 523 (7th Cir.
1995) (finding that the existence of a single victim
remains a relevant factor even though it does not, by
itself, preclude the existence of a pattern of
racketeering activity). As here, the allegations in U.S.
Textiles gave “no indication that this is a type of
activity” in which the defendant “normally engages or,
indeed, that there are other potential Busch victims
waiting in the wings.” 911 F.3d at 1268-69. The
Seventh Circuit thus found the alleged pattern
insufficient.
Although the existence of a single “dishonest
undertaking” (even one directed against a single victim
incurring ostensibly non-distinct injuries) is not
necessarily a determinative factor, the entirety of
Plaintiff’s allegations here put the existence of RICO
continuity in doubt. In this case, like U.S. Textiles,
despite the “pure happenstance” that the predicate acts
included a significant “raw number of transactions”
over a substantial length of time, which at “first
glance” would seem to otherwise mandate a finding of
pattern, Plaintiff alleges a single victim (himself)
whose injuries all flowed from a single scheme. 911
F.3d at 1268-69. Without more (and there is nothing
more here), these allegations fail to establish a
sufficient showing of closed-ended continuity. This is
especially true in the absence of any showing of a
potential threat of continuity, as explained further in
Section III(A)(2)(d) below.
Contrary to Plaintiff’s assertions, the mere
“multiplicity” of mailings or wire communications does
not automatically translate into a pattern of

App. 121
racketeering activity; and although a RICO pattern
may be established on the basis of a single scheme, “it
is not irrelevant, in analyzing the continuity
requirement, that there is only one scheme” as the
allegations here show. Sutherland v. O’Malley, 882
F.2d 1196, 1204-05, 1205 n.8 (7th Cir. 1989). The
complexity of the transaction itself sometimes creates
the potential for a greater number of possible
fraudulent acts, but the sheer number of mail or wire
fraud acts alone does not, by itself, establish the
requisite threat of continued criminal activity. Lipin
Enterprises Inc. v. Lee, 803 F.2d 322, 324 (7th Cir.
1986); see also Midwest Grinding, 976 F.2d at 1024-25
(finding that, given the nature of the scheme, the mere
multiplicity of mail and wire fraud acts by itself “may
be no indication of the requisite continuity of the
underlying fraudulent activity”) (internal quotations
omitted); Jennings, 495 F.3d at 475 (same); Vicom, 20
F.3d at 781 (same).
That the alleged pattern occurred over a lengthy
period of time does not alter this Court’s conclusion
regarding RICO continuity. Although the Seventh
Circuit does not employ any bright-line rule for how
long a closed period must be to satisfy continuity, this
Court does not hesitate to find that, in appropriate
cases like this one, “closed periods of several months to
several years” will sometimes fail to qualify as
“substantial” enough to satisfy RICO’s continuity
requirement. Roger Whitmore’s Automotive Services,
424 F.3d at 672-73 (affirming summary judgment and
dismissing the plaintiffs’ RICO claim because of a lack
of continuity, even though the defendants’ predicate
activity lasted for approximately two years). As in

App. 122
Rogers Whitmore’s Automotive Services, the “natural
and commonsense” result here is to find a lack of
continuity.
(2)

Plaintiff’s Pattern Allegations
Lack Threat of Continuity

Second, the current allegations present no showing
of any “threat” of continuity because the Complaint
sets forth a single victim with a “clear and terminable”
goal. Vicom, 20 F.3d at 782. In this way, the Complaint
creates a “natural ending point” for the alleged pattern
of criminal activity that dispels any “threat” of
repetition. Id. In fact, the Complaint here states that,
by June 7, 2005, Defendants “completed all necessary
transactions in furtherance of the Tax Shelters, and
pursuant to the Defendants’ Conspiracy were paid
substantial fees and expenses from Menzies.” Compl.
¶ 76. On the Complaint’s own terms, the alleged
pattern does not project into the future in any way,
either from the character of the enterprise, or from the
regular manner in which the enterprise allegedly did
business. Compl. ¶¶ 104-36.
In these respects (and more), this case follows the
Seventh Circuit’s findings in Olive Can Co., Inc. v.
Martin, 906 F.2d 1147, 1150 (7th Cir. 1990). In Olive
Can, the defendants set up a sham corporation to
divert money from their own failing cookie
manufacturing business. They concealed the
corporation’s existence from the plaintiffs, who had
provided defendants with supplies on credit. The
district court found that the scam lacked sufficient
RICO continuity, because the entire scheme to pay off
one of the defendants’ personal obligations possessed a

App. 123
clear and natural ending point with no threat of
ongoing criminal activity. The Seventh Circuit agreed,
affirming the dismissal of the RICO counts. Id. at 115152. The Complaint here warrants a similar finding.
Plaintiff claims that he is “not yet privy” to the
underlying facts as to how broadly Defendants
“marketed” the tax shelter at issue, but avers that
“discovery will likely reveal” whether Defendants
promoted the scheme to others, thus suggesting the
existence of a potential threat of ongoing criminal
activity. [42] at 10; [41] at 14. Counsel for Plaintiff
reiterated this theory at the hearing on the motions to
dismiss, suggesting that discovery might uncover other
sales by Defendants of the purportedly abusive tax
plan to other victims. Transcript of Proceedings of
1/28/16 [52]. Nevertheless, no details of any such sales
or victims appear in either Count I or II the Complaint,
and no such facts have otherwise arisen during
discovery due to the parties’ joint request to stay
discovery pending resolution of the present motions.
See Order issued 6/24/15 [40] (granting the parties’
joint request to stay).
Falling short of the requirements of Rules 9(b) and
12(b)(6), the Complaint merely states that:
Defendants, comprising of lawyers, bankers, and
financial planners, conspired to develop, market
and promote to, among others, Menzies, an
abusive tax avoidance scheme – disguised as a
tax savings plan that would lawfully shield
capital gains from the sale of his AUI stock from
tax liability.

App. 124
Compl. ¶ 1 (emphasis added). Similarly, the Complaint
elsewhere makes references to unnamed “others” and
“participants,” noting, for example, that Defendants
disguised their abusive tax scheme as a legitimate tax
plan to purportedly reduce “capital gains tax on a
participant’s, such as Menzies, disposition of stock.”
Compl. ¶¶ 16, 20, 28-30, 34-36, 42, 112-113 and 126
(examples of Plaintiff’s vague references to
“participants” or “others”). Yet, the Complaint never
states when, why, how, or even if, such “other”
unnamed participants were actually defrauded, nor
how they might have suffered any economic injury or
might otherwise be connected at all to the alleged
RICO violations. To be sure, Plaintiff does reference
Taylor’s 2008 conviction for tax fraud, and Senate
hearings about Euram Bank’s purportedly abusive tax
shelters. But Plaintiff then fails to identify any other
victims or otherwise connect these two facts to the
RICO counts in this case. Compl. ¶¶ 7, 26. To survive
a motion to dismiss, Rules 9(b) and 12(b)(6) require
more than mere allusions about the prospect of other
fraud victims.
In sum, by setting forth a single scheme to defraud
only Plaintiff, the Complaint here fails to establish any
threat of continuity. Compl. ¶¶ 104-36. As alleged in
Paragraph 109 of the Complaint, Defendants’ course of
conduct “operated as a fraud upon Menzies”—not
anyone else. See also U.S. Textiles, 911 F.2d at 1269
(allegations fail to indicate other potential victims are
“waiting in the wings”).

App. 125
c) Plaintiff’s Pattern Allegations Must
Be Dismissed
Because Plaintiff failed to make a proper showing of
continuity or its threat, the RICO counts are dismissed
without prejudice. This Court nonetheless gives
Plaintiff leave to file an Amended Complaint realleging Counts I and II, provided he can do so
consistent with his obligations under Federal Rule of
Civil Procedure 11. Because mail and wire fraud
presumably will still form the basis of Plaintiff’s
alleged pattern of predicate activity, this Court will
later address whether any Amended Complaint sets
forth each requisite element of mail or wire fraud with
the specificity required by Rule 9(b). Slaney, 244 F.3d
at 599. Although any Amended Complaint need only
provide a general outline of the unlawful scheme, it
“must, at minimum, describe the predicate acts with
some specificity and state the time, place, and content
of the alleged communications perpetrating the fraud.”
Midwest Grinding, 976 F.2d at 1020 (internal
quotations omitted).
In its analysis, this Court will also review any
Amended Complaint to ascertain whether Plaintiff has
alleged the existence of other victims, or the manner in
which he or others suffered distinct injuries resulting
from Defendants’ alleged scheme. Liquid Air Corp. v.
Rogers, 834 F.2d 1297, 1300-05 (7th Cir. 1987)
(repeated infliction of separate economic injuries upon
a single victim of a single scheme over seven months
was sufficient to establish a pattern of racketeering
activity for purposes of civil RICO); Corley v. Rosewood
Care Center, Inc. of Peoria, 142 F.3d 1041, 1048-49 (7th

App. 126
Cir. 1998) (finding a 14-month closed-ended pattern
sufficient based in part upon the presence of other
victims); Gagan v. American Cablevision, Inc., 77 F.3d
951, 962-64 (7th Cir. 1996) (RICO jury verdict upheld
and pattern found sufficient, in part, due to the
presence of “separate and distinct injuries”) (internal
quotations omitted). But as currently pled, the RICO
counts cannot survive Defendants’ motions to dismiss.
3. Elements of RICO Conduct:
“Operation-Management” Test

The

In Reves, the Supreme Court resolved a circuit split,
holding that for a substantive violation under § 1962(c),
the phrase “conduct or participate” requires “some part
in directing those affairs” through “operation or
management.” Reves, 507 U.S. at 177-86. In other
words, a person conducts or participates in the conduct
of the affairs of an enterprise only if that person uses
his position in, or association with, the enterprise to
perform acts which are involved in some way in the
operation or management of the enterprise, directly or
indirectly, or if the person causes another to do so. To
be associated with an enterprise, a person must be
involved with the enterprise in a way that is related to
its affairs or common purpose, although the person
need not have a stake in the goals of the enterprise and
may even act in a way that subverts those goals. A
person may be associated with an enterprise without
being so throughout its existence. The Reves
“operation-management” test, as it has become known,
is deployed to include and exclude certain RICO
defendants.

App. 127
In a conspiracy case like this one, the law adjusts
the Reves concept. Specifically, a RICO conspiracy does
not require violators to meet the “operation or
management” test themselves, but instead a conspiracy
defendant must “knowingly agree to perform services
of a kind which facilitate” the activities of those who
are operating or managing the RICO enterprise.
Brouwer v. Raffensperger, Hughes & Co., 199 F.3d 961,
967 (7th Cir. 2000); see also United States v.
Quintanilla, 2 F.3d 1469, 1485 (7th Cir. 1993) (Reves
does not “address the principles of conspiracy law
undergirding § 1962(d)”); Goren v. New Vision
International, Inc., 156 F.3d 721, 731 (7th Cir. 1998) (“a
defendant can be charged under § 1962(d) even if he
cannot be characterized as an operator or manager of
a RICO enterprise under Reves”).
Thus, Defendants here cannot be held liable for
RICO violations unless they exercised some direction
over the named enterprise or helped to operate it, or
otherwise conspired knowingly to facilitate the
activities of anyone who was a manager or operator of
the enterprise. United States v. Cummings, 395 F.3d
392, 397-98 (7th Cir. 2005).
For purposes of the motions to dismiss, the
Complaint satisfies the Reves test. As either a principal
offender or as an aider and abettor, each Defendant
personally operated, or otherwise exerted control over,
the affairs of the enterprise. This participation included
the planning and commission of the predicate activity
and the active concealment of their prior relationships
as part of the fraudulent scheme as a whole. Compl.
¶¶ 44-47, 104-36. By way of example, this alleged

App. 128
conduct includes: (1) luring Plaintiff into the bogus tax
shelter plan; (2) referring business to other violators by
convincing Plaintiff to hire co-conspirators;
(3) participating in various telephone conversations
(without Plaintiff) to plan the scheme; (4) structuring
the legal instrumentalities of the scheme;
(5) defrauding Plaintiff and supporting the appearance
of legitimacy of the scheme with false statements and
opinion letters; and (6) otherwise controlling the
instrumentalities of the scam through active service as
a trustee for the relevant assets and legal
instrumentalities used to injure Plaintiff. Compl.
¶¶ 104-36. These allegations suffice, because the class
of potential RICO violators entails, of course, not only
“upper management” but also “lower-rung participants
in the enterprise who are under the direction of upper
management,” or “others associated with the enterprise
who exert control” over its affairs. MCM Partners, Inc.
v. Andrews-Bartlett & Associates, Inc., 62 F.3d 976, 977
(7th Cir. 1995) (citing Reves) (internal quotations
omitted).
Unlike Crichton, 576 F.3d at 399, and Goren, 156
F.3d at 727-28, which Defendants cite, each of the
alleged violators in this case did far more than just
perform otherwise “legitimate” services. Therefore,
Defendants’ alleged conduct constitutes more than a
mere “tangential involvement” in the affairs of the
RICO enterprise. Crichton, 576 F.3d at 399.
4. Elements of a RICO Conspiracy
As in all conspiracies, the essence of a RICO
conspiracy violation is the agreement itself; the
distinction between a traditional conspiracy and a

App. 129
RICO conspiracy is simply the breadth of the overall
objective. Salinas v. United States, 522 U.S. 52, 63-66
(1997). Accordingly, the fact that the “many defendants
and predicate crimes were different, or even
unrelated,” is irrelevant in a RICO case, so long as it
can “be reasonably inferred that each crime was
intended to further the enterprise.” United States v.
Gonzalez, 921 F.2d 1530, 1539-40 (11th Cir. 1991); see
also United States v. Friedman, 854 F.2d 535, 562 (2d
Cir. 1988) (finding that a RICO conspiracy is “by
definition broader than an ordinary conspiracy to
commit a discrete crime”); United States v. Valera, 845
F.2d 923, 930 (11th Cir. 1988) (finding that “a series of
agreements, which, pre-RICO, would constitute
multiple conspiracies, can form, under RICO, a single
‘enterprise’ conspiracy”).
Consistent with these general principles, the
essential elements of a conspiracy to violate § 1962(c)
are well-settled. A plaintiff must prove that the
conspiracy existed and that each named defendant
knowingly became a member of the conspiracy with an
intention to further that conspiracy. Obviously, a
conspiracy may be established even if its purposes were
not accomplished, and in order to be a member of the
conspiracy, the defendant need not join at the
beginning or know all the other members or means by
which its purposes were to be accomplished. A
defendant, however, must be generally aware of the
common purpose or purposes of the RICO conspiracy,
and be a willing participant. Goren, 156 F.3d at 732
(“In order to plead a viable § 1962(d) claim, a plaintiff
must allege that a defendant agreed to the objective of
a violation of RICO.”) (internal quotations omitted).

App. 130
Finally, RICO conspirators need not personally
commit any predicate act, or otherwise agree as to
which two predicates would be committed. Instead,
RICO merely requires that each defendant, “by his
words or actions, objectively manifested an agreement
to participate, directly or indirectly, in the affairs of an
enterprise,” through the proposed commission of “two
or more predicate crimes” by any member of the
conspiracy. United States v. Campione, 942 F.2d 429,
436 (7th Cir. 1991) (citing United States v. Neapolitan,
791 F.2d 489, 497 (7th Cir. 1986)); see also Salinas, 522
U.S. at 63-66 (usual conspiracy rules apply to RICO);
H.J., 492 U.S. at 237; Glecier, 923 F.2d at 499-501 (the
agreed upon predicate-act objectives of the conspiracy
need not “come to fruition”); Elliott, 571 F.2d at 903.
But for the failure to allege the requisite element of
pattern (as discussed above in Section III(A)(2)(e) of
this Opinion), the Complaint here would otherwise
appear to contain the additional facts necessary to
support Count II at this preliminary stage. Brouwer,
199 F.3d at 963-64 (stating that RICO conspiracy
requires an agreement not to commit, but rather
simply to facilitate a pattern of two or more statutorily
enumerated predicate acts). Because Defendants have
not asserted any other independent conspiracy-based
objections in their motions to dismiss (beyond their
challenges to Count I and RICO generally), this Court
need not address Count II in any further detail at this
time. Given the fatal absence of continuity (or its
threat) in the underlying RICO claim, the RICO
conspiracy count cannot stand, and it is thus dismissed
without prejudice.

App. 131
5. The PSLRA’S RICO Exception
Defendants argue that Plaintiff’s RICO claims are
barred by the PSLRA. In Pub. L. No. 104-67, § 107, 109
Stat. 737, 758, Congress enacted a series of securities
law reforms via the PSLRA, and in doing so also
amended § 1964(c) of RICO. Among its provisions, the
PSLRA added the italicized language below to
§ 1964(c):
Any person injured in his business or property
by reason of a violation of section 1962 of this
chapter may sue therefor in any appropriate
United States district court and shall recover
threefold the damages he sustains and the cost
of the suit, including a reasonable attorney’s fee,
except that no person may rely upon any conduct
that would have been actionable as fraud in the
purchase or sale of securities to establish a
violation of section 1962. The exception contained
in the preceding sentence does not apply to an
action against any person that is criminally
convicted in connection with the fraud, in which
case the statute of limitations shall start to run
on the date on which the conviction becomes
final.
18 U.S.C. § 1964(c) (emphasis added). The phrase
“fraud in the purchase or sale of securities” refers to
violations of § 10(b) of the Securities Exchange Act, 15
U.S.C. § 78j(b), which bans the use of manipulative or
deceptive devices or contrivances in connection with

App. 132
the purchase or sale of securities. 15 U.S.C. § 78j(b); see
also 17 C.F.R. § 240.10b-5.7
Defendants argue that Plaintiff’s RICO claims are
barred by § 1964(c) because the claims rely upon
conduct that would have been “actionable” as fraud in
the purchase or sale of securities. To decide this claim,
the Court must address two related PSLRA issues:
(1) the scope of conduct “actionable” as fraud in the
purchase or sale of securities; and (2) whether the
misconduct alleged here occurred “in the purchase or
sale” of securities.
a) Defining the Scope of “Actionable”
Conduct
(1)

A Plain
§ 1964(c)

Text

Reading

of

In determining the scope of civil RICO’s securities
fraud exception, this Court looks first to the operative
legislative text, and asks “whether the language at
issue has a plain and unambiguous meaning with
regard to the particular dispute in the case.” Exelon
Generation Co., LLC v. Local 15, International
Brotherhood of Electrical Workers, AFL-CIO, 676 F.3d
566, 570 (7th Cir. 2012) (internal quotations omitted);
7

The Securities Exchange Act of 1933, 15 U.S.C. § 77b(a)(1), and
the Securities Exchange Act of 1934, 15 U.S.C. § 78c(a)(10), define
a “security” as “any note, stock, treasury stock, security future,
bond, debenture, . . . investment contract, . . . or, in general, any
interest or instrument commonly known as a ‘security,’ or any
certificate of interest or participation in, temporary or interim
certificate for, receipt for, guarantee of, or warrant or right to
subscribe to or purchase, any of the foregoing.”

App. 133
Lawson v. FMR LLC, 134 S. Ct. 1158, 1165 (2014)
(courts must give “the words used their ordinary
meaning”). If the “statutory language is unambiguous,
in the absence of a clearly expressed legislative intent
to the contrary, that language must ordinarily be
regarded as conclusive.” Turkette, 452 U.S. at 580
(internal quotations omitted); Consumer Product Safety
Commission v. GTE Sylvania, Inc., 447 U.S. 102, 108
(1980) (same). In short, when a “statute is
unambiguous, our inquiry starts and stops with the
text.” United States v. Marcotte, Nos. 15-1266 and 151271, 2016 U.S. App. LEXIS 10883, at *6 (7th Cir. June
16, 2016).
Such a plain reading begins with the words and
grammar employed by Congress. Here, the linguistic
structure of the amended version of § 1964(c) itself sets
forth both a general rule and an exception to that rule.8
The first clause of § 1964(c) establishes a private civil
remedy for RICO violations (the “Rule”):
“Any person injured in his business or property
by reason of a violation of § 1962 of this chapter”
may sue and “shall recover threefold the
damages he sustains and the cost of the suit,
including a reasonable attorney’s fee...”
18 U.S.C. § 1964(c). The second clause of this same
sentence (the “Exception”) then creates an exception to
this general rule, stating that:
8

Although not relevant here, the final sentence of the revised
provision also creates an exception to the exception for private civil
claims against those who are “criminally convicted in connection
with the fraud.” 18 U.S.C. § 1964(c).

App. 134
“…except that no person may rely upon any
conduct that would have been actionable as
fraud in the purchase or sale of securities to
establish a violation of § 1962.”
Id. Like any other exception, the exception created by
the second clause is, by definition, more narrow than
the general rule that it modifies; thus, the class of
“persons” authorized to pursue a remedy under the
first clause defines the subset class of “persons” barred
under the second clause from doing so where the
underlying conduct relied upon triggers the RICO
“exception.” According to a plain reading of the text,
therefore, a civil RICO claim filed under the first clause
of § 1964(c) will fall under the second clause exception
if the predicate activity alleged by the “person” seeking
remedy for the RICO injury would be “actionable” as
“fraud in the purchase or sale of securities.”
Despite this plain reading, some litigants have
disputed the “actionable” conduct concept under the
PSLRA. Essentially, the dispute asks: When Congress
used the term “actionable” conduct in the PSLRA’s
RICO exception, did it mean actionable conduct by any
conceivable person, or rather actionable conduct that
caused the injuries to the same “person” referenced
twice in § 1964(c)?
Some courts have emphasized the absence of yet a
third reference to such “person” in the statute, and
based upon that absence found that the exception
applied to conduct “actionable” by any conceivable
person. E.g., MLSMK Investment Co. v. JP Morgan
Chase & Co., 651 F.3d 268, 275-76 (2d Cir. 2011).
Ostensibly, such courts would require Congress to have

App. 135
inserted the additional words “by such person” in the
text after the words “that would have been actionable”
(and before the words “as fraud in the purchase or sale
of securities”) in order to conclude that Congress was
referring to the same injured “person” throughout the
sentence. That purported omission of a theoretical
third reference to “person” in the PSLRA amendment,
as the logic goes, forms the basis for some courts to
dismiss any RICO count if the underlying conduct
would have been “actionable” by any person as a
securities fraud (not just conduct injuring the RICO
“person” as listed in the statute), as illustrated below.
Relevant Text of
§ 1964(c)
Any person injured in his
business or property by
reason of a violation of
section 1962 of this
chapter may sue therefor
in any appropriate United
States district court and
shall recover threefold the
damages he sustains and
the cost of the suit,
including a reasonable
attorney’s fee, except that
no person may rely upon
any conduct that would
have been actionable as
fraud in the purchase or
sale of securities to
establish a violation of
section 1962.

Theoretical Addition
Any person injured in his
business or property by
reason of a violation of
section 1962 of this
chapter may sue therefor
in any appropriate United
States district court and
shall recover threefold the
damages he sustains and
the cost of the suit,
including a reasonable
attorney’s fee, except that
no person may rely upon
any conduct that would
have been actionable by
such person as fraud in
the purchase or sale of
securities to establish a
violation of section 1962.

App. 136
This “actionable-by-anyone” approach, however,
distorts the plain statutory text. Within a single
sentence, the statute already states that any “person”
injured by the RICO violation may sue, except that no
“person” may rely upon any conduct that would have
been “actionable” as securities fraud. This sentence
structure shows that “actionable” modifies the
injurious “conduct” being relied “upon” by the same
“person” seeking a remedy for the RICO injury. Per the
statute’s text, the person must first have been “injured
in his business or property by reason of a violation of
section 1962” in order to fall within the general rule of
§ 1964(c). Id. (emphasis added). A reading of the
statute’s plain language, then, shows that all
“actionable conduct” within the RICO exception must
constitute conduct that injured the plaintiff in his
business or property in order for it to be relied upon by
that “person” to establish a RICO violation. If the
actionable “conduct” concept does not refer to the
injurious conduct harming the business or property of
the “person” in the “Rule” portion of § 1964(c), and
instead somehow refers to conduct harming anyone
generally, then the underlying conduct would not fall
within the general “Rule” of § 1964(c) in the first place.
And thus, no second-clause “Exception” would be
needed to take such “conduct” out of the general rule.
It would make little sense for Congress to create an
exception covering so broad a landscape of conduct that
certain conduct covered by the exception would never
fall within the general rule. There would be no need to
except such conduct from a rule that does not reach it.
As a matter of pure linguistics, the “actionable-byanyone” reading is thus over-inclusive, preempting
actions without regard to whether the underlying

App. 137
actionable conduct falls within § 1964(c) in the first
place. An over-inclusive reading is a false reading.
In contrast, a plain reading of the phrase “any
conduct that would have been actionable” means
conduct that: (1) injured a person’s business or
property (and is thus being relied upon by that person
to establish a RICO violation); and (2) would have been
actionable as fraud in the purchase or sale of securities.
When such injurious “conduct” to the RICO “person”
could also trigger an “action” for remedies under the
securities laws, then it constitutes “actionable” conduct
under the exception. As such, the term “actionable”
conduct means injuries to the “person” that he could
use to seek a remedy via a private securities fraud
action, or the same injurious conduct to such person
that could otherwise be remedied via a public action
filed by the SEC.9
Despite the precedent relied upon by Defendants,
there is simply no basis in the text to read the term
“actionable” conduct to include injurious conduct that
could be “actionable-by-anyone” as a securities fraud.
Such a reading fails to tie that underlying “conduct” to

9

As explained in more detail in this Opinion, this Court’s plain
text interpretation of the amended version of § 1964(c) remains
consistent with the legislative history showing Congress’ intent to
eliminate overlap, not create gaps, in remedial statutory coverage.
It further reads all of the various PSLRA provisions in harmony
(as courts must do), including the RICO exception and the
reservation of aiding/abetting securities fraud actions to the SEC,
as set forth independently in another part of the PSLRA. See 15
U.S.C. § 78t(f) (aiding and abetting securities fraud actionable by
the SEC but not private parties).

App. 138
the rest of the sentence in § 1964(c). As noted before, in
a single sentence, § 1964(c) already refers to the same
RICO “person” twice, and refers to the “conduct” that
“injured” such person in “his business or property.”
Securities fraud conduct that merely injured some
third-party (rather than the RICO plaintiff himself)
cannot be “actionable” conduct under a plain reading of
the RICO exception, because it does not relate to the
“conduct” being relied upon by the “person” bringing
suit to address “his” injury to business or property.
(2) MLSMK Investment
Nevertheless, certain courts have still adopted some
form of an “actionable-by-any-conceivable-person”
construction. Often without rigorous analysis of the
PSLRA’s text or a proper concern for creating an
unwarranted and unintended remedial gap in statutory
coverage, these cases offer little in the way of
compelling textual or contextual justification for their
interpretation, other than citing certain favorable
legislative remarks and ignoring unfavorable ones.10
10

As discussed in this Opinion, this Court finds unpersuasive the
language, often found in dicta in other non-binding cases, that
misreads the plain language of the PSLRA so far as to create a
remedial gap, rather than merely eliminate an overlap, in the
statutory framework formed by RICO and the securities laws. See
Hollinger International, 2004 WL 2278545, at *5, *7 (“RICO bar
operates irrespective of whether the RICO plaintiff has standing
to bring a securities claim—i.e., was a purchaser or seller of the
company’s stock—as long as another plaintiff could bring a
securities action based on the alleged conduct”); In re Enron Corp.
Securities, Derivative & ERISA Litigation, 284 F. Supp. 2d 511,
620 (S.D. Tex. 2003) (“The RICO Amendment bars claims based on
conduct that could be actionable under the securities laws even

App. 139
Notable is the Second Circuit’s decision in MLSMK
Investment. 651 F.3d at 275-76. In that case, the court
resolved a split of authority within the Second Circuit
and dismissed civil RICO counts against defendant JP
Morgan, who served as the bank and trading partner of
Bernie Madoff. The plaintiff alleged that JP Morgan
learned of Madoff’s now-infamous Ponzi scheme, but
continued to knowingly aid and abet the fraud
anyway—thereby inflicting massive losses upon its
victims—because JP Morgan received “substantial”
profits from the fees it charged through continuation of
the scheme. Noting that the plaintiff could not have
brought a private claim against JP Morgan for aiding
and abetting the fraud under securities laws, the
Second Circuit dismissed the plaintiff’s RICO claims
because, in the court’s view, the alleged mail and wire
fraud predicates were “actionable” by someone other
than the plaintiff.
To justify dismissing the plaintiff’s private remedy
under RICO, the Second Circuit quipped:
[The] language of the statute simply does not
require that, for a RICO claim to be barred, the
plaintiff who sues under RICO must be able to
sue under securities laws, or that the conduct

when the plaintiff, himself, cannot bring a cause of action under
the securities laws. The language of the statute does not require
that the same plaintiff who sues under RICO must be the one who
can sue under securities laws.”); Payton v. Flynn, No. 06-465, 2006
WL 3087075, at *6 (N.D. Ill. Oct. 26, 2006); Jones v. U.S. Bank
National Association, No. 10-8, 2012 WL 899247, at *5 (N.D. Ill.
March 15, 2012); Howard v. America Online Inc., 208 F.3d 741,
749-50 (9th Cir. 2000).

App. 140
“actionable as securities fraud” on which the
plaintiff relies to establish the RICO violation
must be that of the defendant.
MLSMK Investment, 651 F.3d at 275-76 (internal
citations omitted). According to the court, the “better
interpretation,” and the one supposedly “supported by
the plain meaning” of § 107 of the PSLRA, is “that the
RICO Amendment bars claims based on conduct that
could be actionable under the securities laws even
when the plaintiff, himself, cannot bring a cause of
action under the securities laws.” Id. at 278 (internal
citations omitted). Without addressing the specific
grammar tying together the references to “person,”
“injury,” “conduct” and “actionable” in the text, the
Second Circuit concluded that “the plain language of
the statute” does not require that “the same plaintiff
who sues under RICO must be the one who can sue
under securities laws.” Id. (internal citations omitted).
According to the Second Circuit’s reading, the wording
of the RICO exception “does not make such a
connection.” Id. (internal citations omitted). The
Second Circuit then quoted a Texas district court
decision to confirm its interpretation:
[W]hen Congress stated that “no person” could
bring a civil RICO action alleging conduct that
would have been actionable as securities fraud,
it meant just that. It did not mean “no person
except one who has no other actionable
securities fraud claim.” It did not specify that the
conduct had to be actionable as securities fraud
by a particular person to serve as a bar to a
RICO claim by that same person.

App. 141
Id. (quoting In re Enron Corp. Securities, Derivative &
ERISA Litigation, 284 F. Supp. 2d at 620 (citing
Hemispherx Biopharma, Inc. v. Asensio, No. 98-5204,
1999 WL 144109, at *4 (E.D. Pa. Mar. 15, 1999)))
(emphasis added).
Failing to address the PSLRA’s legislative history
as a whole, the Second Circuit then cited portions of
the legislative history consistent with its ultimate
decision. See MLSMK Investment, 651 F.3d at 278-79
(citing H.R. Rep. No. 104–369, at 47 (1995) (Conf.
Rep.), as reprinted in 1995 U.S.C.C.A.N. 730, 746
(Congress “intend[ed]” that the section would
“eliminate securities fraud as a predicate offense in a
civil RICO action,” and would bar a plaintiff from
“plead[ing] other specified offenses, such as mail or
wire fraud, as predicate acts under civil RICO if such
offenses are based on conduct that would have been
actionable as securities fraud”); S. Rep. 104–98, at 19
(1995), as reprinted in 1995 U.S.C.C.A.N. 679, 698
(Congress appears satisfied that the securities laws
“generally provide adequate remedies for those injured
by securities fraud”)) (“The [Senate] Committee
believes that amending the 1934 [Securities Exchange]
Act to provide explicitly for private aiding and abetting
liability actions under Section 10(b) would be contrary
to [the RICO Amendment’s] goal of reducing meritless
securities litigation. The Committee does, however,
grant the SEC express authority to bring actions
seeking injunctive relief or money damages against

App. 142
persons who knowingly aid and abet primary violators
of the securities laws” (emphasis added)).11
(3)

A Critique of the “Actionableby-Anyone” Approach

With all due respect, this Court disagrees with both
the Second Circuit’s reasoning and its result. First, the
Second Circuit (through its citation to In re Enron)
misread the PSLRA’s text. Here, Congress did not need
to again specify that the injurious conduct had to be
“actionable” as to a particular person, because the
provision already defines the relevant person—in the
very same sentence—to be the same RICO “person”
who suffered the “injury” to his business or property,
and whose injury was otherwise “actionable” under the
securities laws. Per the text, the focus remains upon
the actionable injury inflicted upon the RICO person
(and whether such injury can be remedied under the
11

Like MLSMK Investment, several other courts have conducted
a truncated analysis of the PSLRA’s legislative history to justify
their removal of an actionable injury to the RICO person from the
plain language of the RICO exception. Typically, these cases either
cite broad statements about the general purpose of securities
reform or they turn specifically to the partisan statements of
Representative Christopher Cox (R-CA) when he initially proposed
an early version of the § 1964(c) amendment. See, e.g., Bald Eagle
Area School District v. Keystone Financial, Inc., 189 F.3d 321, 32728 (3d Cir. 1999) (“The ‘focus’ of the Amendment was on
‘completely eliminating the so-called ‘treble damage blunderbuss
of RICO’ in securities fraud cases.’”) (quoting Mathews v. Kidder,
Peabody & Co., Inc., 161 F.3d 156, 157 (3d Cir. 1998); 141 Cong.
Rec. H2771 (daily ed. Mar. 7, 1995), as reprinted in 1996
U.S.C.C.A.N. 679, 746 (1995) (statement of Rep. Cox)). A piecemeal
historical account cannot prevail, however, when one takes an
honest look at the bill’s entire path to enactment.

App. 143
securities laws), not the standing of people generally to
file a securities fraud lawsuit for conduct, which may or
may not have injured the RICO person.
Second, the legislative history of the § 1964(c)
amendment fails to justify the creation of a statutory
gap in the remedies created by Congress for fraud.
Neither the plain text of the RICO exception nor its
context supports the notion that the PSLRA as enacted
constitutes any intent to affect general or wholesale
reform of civil RICO. Instead, via the RICO
amendment, Congress intended simply to create a
specific exception to RICO’s civil provision to avoid
overlapping private remedies under RICO and the
federal securities laws. Nothing in the legislative
history justifies the notion that, in eliminating an
overlap, Congress intended to create a “gap” in the
remedial scheme such that real fraud victims would be
denied any federal remedy under either statute.
Nevertheless, after focusing upon only portions of
the legislative history, the Second Circuit in MLSMK
Investment adopted an “actionable-by-anyone” standard
because, in part, it feared that any other reading of the
term “actionable” would require the courts to “overlook”
that the RICO exception “was made in the same statute
that explicitly authorized only the SEC—not private
parties—to bring enforcement actions against aiders
and abettors.” 651 F.3d at 275-76. According to the
court, it would be a “treacherous” interpretation and
“strange indeed if Congress, in a statute that otherwise
bars private causes of action under RICO for predicate
acts that describe conduct actionable as securities
fraud, nevertheless chose to allow enhanced RICO

App. 144
remedies” against “only the very parties that Congress
simultaneously made immune from private suit” under
the reformed securities laws. Id. (quoting Thomas H.
Lee Equity Fund V, L.P. v. Mayer Brown, Rowe & Maw
LLP, 612 F.Supp.2d 267, 282-83 (S.D.N.Y 2009)).
Unfortunately, in attempting to avoid one result it
viewed as absurd, the Second Circuit chose another
absurdity.
As noted above, the MLSMK Investment court
focused much of its concern upon the “aiding and
abetting” provision of the PSLRA passed in response to
the Supreme Court’s decision in Central Bank of
Denver, N.A. v. First Interstate Bank of Denver, N.A.,
511 U.S. 164 (1994). Prior to Central Bank, federal
courts generally held that a private plaintiff could
bring a private aiding and abetting action under § 10(b)
of the 1934 Securities Exchange Act. The courts based
this understanding upon the following language in
§ 10(b):
It shall be unlawful for any person, directly or
indirectly . . . (b) to use or employ, in connection
with the purchase or sale of any security . . . [,]
any manipulative or deceptive device or
contrivance in contravention of such rules and
regulations as the [SEC] may prescribe.
15 U.S.C. § 78j (emphasis added). In Central Bank,
however, the Supreme Court rejected, as a matter of
statutory construction, the inclusion of any aiding and
abetting actions under § 10(b) of the 1934 Act. Id. at
177-78. While the Court did not specifically say so, its
ruling by implication precluded both private aiding and

App. 145
abetting actions, and public aiding and abetting actions
filed by the SEC. Thus, prior to the passage of the
PSLRA, § 10(b) did not provide for any remedial actions
for aiding and abetting securities fraud (private or
public).
Subsequently, as part of the congressional debate
over the enactment of the PSLRA, the Senate
considered legislatively overruling the Central Bank
decision by clarifying § 10(b) and expressly permitting
aiding and abetting securities fraud actions by both
private parties and the SEC. As explained in the
Committee on Banking, Housing, and Urban Affairs
Report:
Prior to the Supreme Court’s decision in Central
Bank of Denver v. First Interstate Bank of
Denver, [114 S.Ct. 1439 (1994)] courts of appeals
had recognized that private parties could bring
actions against persons who ‘aided and abetted’
primary violators of the securities laws. In
Central Bank, the Court held that there was no
aiding and abetting liability for private lawsuits
involving violations of the securities antifraud
provisions. The Committee considered testimony
endorsing the result in Central Bank and
testimony seeking to overturn this decision. The
Committee believes that amending the 1934 Act
to provide explicitly for private aiding and
abetting liability actions under Section 10(b)
would be contrary to S. 240’s goal of reducing
meritless securities litigation. The Committee
does, however, grant the SEC express authority
to bring actions seeking injunctive relief or

App. 146
money damages against persons who knowingly
aid and abet primary violators of the securities
laws.
S. Rep. No. 104-98, at 19 (1995), as reprinted in 1995
U.S.C.C.A.N. 679, 727-28 (emphasis added).
Ultimately, then, even though Congress declined to
overturn Central Bank for private plaintiffs in the
PSLRA, Congress did choose to overrule Central Bank
in part by expanding (not restricting) remedial
coverage in the PSLRA to allow the SEC to file public
§ 10(b) actions against individuals and entities aiding
and abetting securities fraud.
In MSLMK Investment, the Second Circuit sought
unsuccessfully to square the congressional response to
Central Bank with the RICO exception, and in the
process, lost sight of the textual requirement of tying
the actionable injury to the RICO plaintiff. In the
Second Circuit’s view, if Congress specifically chose not
to allow private actions for aiding and abetting under
the securities laws via the PSLRA, then the court could
not read the RICO amendment to allow private RICO
actions for the same conduct. Apparently, the Second
Circuit believed that if it read the § 1964(c) amendment
to exempt only claims “actionable by the plaintiff”
under the securities laws, it would then be forced to
allow private aiding and abetting securities claims
under the RICO exception. Such a reading of
“actionable” in the PSLRA, said the Second Circuit,
would have directly contradicted Congress’ decision not
to create such a private cause of action in response to
Central Bank. Even though the Second Circuit properly
avoided an ostensibly absurd reading (i.e., allowing a

App. 147
private securities-based RICO action for aiding and
abetting when Congress clearly sought to limit such
actions under the securities laws), the MSLMK
Investment ruling focused only upon standing (not
injury), and thus ultimately adopted, in place of the
absurd reading it feared, an even more absurd reading
(the nullification of actionable conduct tied to the RICO
injury of the “person”). As noted previously, this
Court’s reading of the text shows that an adherence to
its plain language avoids the Second Circuit’s falsedichotomy of absurdities.
At its core, MLSMK Investment, and the cases
which follow it, implicitly repeals important
applications of civil RICO. Such a reading defies
precedent. When “two statutes are capable of coexistence . . . it is the duty of the courts, absent a
clearly expressed congressional intention to the
contrary, to regard each as effective.” Vimar Seguros y
Reaseguros, S.A. v. M/V Sky Reefer, 515 U.S. 528, 533
(1995) (applying canon to find two federal statutes
compatible with each other) (quoting Morton v.
Mancari, 417 U.S. 535, 551 (1974)). Moreover, when
“two statutes complement each other”—that is, “each
has its own scope and purpose” and imposes “different
requirements and protections”—finding that one
precludes the other would flout congressional design.
POM Wonderful LLC v. Coca-Cola Co., 134 S. Ct. 2228,
2238 (2014) (internal quotations omitted). Courts will
harmonize overlapping statutes “so long as each
reaches some distinct cases.” J.E.M. Ag Supply, Inc. v.
Pioneer Hi-Bred International, Inc., 534 U.S. 124, 144
(2001). Implied repeal should be found only when there
is an “irreconcilable conflict between the two federal

App. 148
statutes at issue.” Matsushita Electric Industrial Co.,
Ltd. v. Epstein, 516 U.S. 367, 381 (1996) (internal
quotations omitted). As the Court warned in Morton,
when addressing the interactions of federal statutes,
federal courts may not go out looking for trouble or
“pick and choose among congressional enactments.” 417
U.S. at 551. Instead, courts must employ a strong
presumption that each of the statutes be given its full
effect. Id. By properly avoiding any remedial gaps or
unfounded implicit repeal, this Court’s plain reading of
§ 1964(c) thus interprets the operative statutory
language in a manner consistent with the ultimate
version enacted by Congress itself.12
(4)

A Full Legislative History of
the PSLRA

A comprehensive analysis of the legislative history
supports this Court’s plain reading of the PSLRA—a
reading that leaves no unwarranted gaps in remedial
statutory coverage. Focusing upon securities reform,
not RICO reform—(in a bill aptly named the Private
Securities Reform Act)—the initial draft of the bill did
not even mention RICO when it first appeared in the

12

This Court’s plain language approach to the PSLRA finds
compelling support from the legal academy. Prof. G. Robert Blakey
& Michael Gerardi, Eliminating Overlap or Creating a Gap?
Judicial Interpretation of the Private Securities Litigation Reform
Act of 1995 and RICO, 28 Notre Dame J.L. Ethics & Pub. Pol’y 435
(2014) (After analysis of the text and legislative history, authors
state the case for the coexistence of RICO and the securities law
without any remedial gaps in coverage, or any implicit repeal of
RICO under the Billing’s test set forth in Credit Suisse Securities
(USA) LLC v. Billing, 551 U.S. 264 (2007)).

App. 149
House of Representatives from the Committee on
Commerce in February 1995. See A Bill To Reform
Federal Securities Litigation, H.R. 1058, 104th Cong.,
(1995). One week later, Representative Cox proposed
the first version of the RICO exception. 141 Cong. Rec.
H2717 (daily ed. Mar. 6, 1995). On the floor,
Representative Cox claimed that the omission of a
RICO exception in the bill to reform securities
litigation was an administrative oversight, and that he
and the other sponsors had always intended to include
it, but it must have slipped through the cracks as the
bill made its way to the House floor. Id.
These statements and the proposed amendment
faced immediate challenge in the House. For example,
Representative John Conyers (D-MI) warned that, as
drafted, the proposed amendment overreached and
would bar worthy lawsuits that provide important
relief to legitimate victims. Citing various high-profile
white collar cases at the time, such as the “Lincoln
Saving and Loan debacle” and the “Bank of Credit and
Commerce International” scam, Representative
Conyers also attacked the suspicious timing of the
amendment:
[T]his amendment was hastily put together
without the benefit of any hearings or debate in
any committee or the possibility of a markup
where there could have been important
improvements, and now within an 8-hour ambit,
we are asked to consider the revocation of the
greatest single crime-fighting bill provision,
RICO, on the law books today.

App. 150
141 Cong. Rec. H2759 (daily ed. Mar. 7, 1995). The
initial version of the amendment then passed out of the
House of Representatives, but the battle lines of the
rival legislative factions had been drawn. See Vote
Report: Private Securities Litigation Reform Act, 1995
House Role No. 216 (Mar. 8, 1995).
Meanwhile, in the Senate, another version of the
securities reform bill also contained a RICO exception
when it reached the Senate floor in January 1995.
Originating in the Committee on Banking, Housing,
and Urban Affairs, Senate Bill 240 contained a section
amending RICO, which read: “[N]o person may bring
an action under this provision if the racketeering
activity involves fraud in the sale of securities.” Private
Securities Litigation Reform Act, S. 240, 104th Cong.
(1995). This version, however, faced opposition by thenSenator Joe Biden, and other Senators, who proposed
and obtained various changes to the language to
broaden RICO coverage, including maintaining private
civil RICO suits for securities-based fraud claims
involving prior criminal convictions. 18 U.S.C.
§ 1964(c).
The final version of the bill produced in the Senate
did not end the political debate. Thereafter, the House
rejected the Senate version, and a conference
committee convened to fashion a new bill to send to the
White House. See H.R. Rep. No. 104-369 (1995) (Conf.
Rep.). This effort, in turn, met with opposition by
President Bill Clinton, who vetoed the conference
committee’s revision of the bill. H.R. Doc. No. 104-159
(1995). In his words: “I am not willing to sign
legislation that will have the effect of closing the

App. 151
courthouse door on investors who have legitimate
claims. Those who are the victims of fraud should have
recourse in our courts.” Message to the House of
Representatives Returning Without Approval the
Private Securities Litigation Reform Act of 1995, 31
Weekly Comp. Pres. Doc. 2210 (Dec. 19, 1995).
At the conclusion of this legislative maneuvering
and partisan political debate, another compromise
version of the PSLRA amendment emerged from the
conference committee that was much narrower than
the versions first proposed. In the end, the requisite
super-majority in both houses of Congress approved the
current “would have been actionable” language, and not
the earlier proposed versions, such as the phrasing: “no
person may bring an action under this provision if the
racketeering activity involves fraud in the sale of
securities.” Private Securities Litigation Reform Act, S.
240, 104th Cong. (1995). As part of the substantive
compromises needed to override the Presidential veto,
Congress included the narrower “actionable” language
to define a smaller class of cases being brought by
RICO plaintiffs, rather than a broader “involves”
securities fraud approach, or the judicially-created
“actionable-by-anyone” construction used by some
courts.
In sum, the legislative history confirms this Court’s
plain reading of the text of the § 1964(c) amendment as
a narrow exception borne of a legislative compromise
and designed to merely eliminate overlapping remedies
under the securities laws and civil RICO—nothing
more, nothing less. For example, the legislative reports
draw heavily upon the comments of Arthur Levitt, the

App. 152
chairman of the SEC at the time, who testified before
both the House and Senate committees. H.R. Rep. No.
104-369, at 42-43, 48 (1995) (Conf. Rep.) as reprinted in
1995 U.S.C.C.A.N. 730; S. Rep. No. 104-98, at 19 (1995)
as reprinted in 1995 U.S.C.C.A.N. 679, 698.
In discussing the merits of the various proposals,
Chairman Levitt crystalized the ultimate consensus
motivation behind the PSLRA provisions and, time and
again, articulated a balanced approach that would both
deter frivolous securities litigation yet still protect the
effective remedies and rights of legitimate victims of
fraud. Securities Litigation Reform Proposals S. 240, S.
667, and H.R. 1058: Hearings Before the Subcomm. on
Securities of the S. Comm. on Banking, Housing, and
Urban Affairs, 104th Cong. 232 (1995) (statement of
Arthur Levitt, Chairmen, SEC). Despite the competing
factions within the legislative process, at the very least,
both sides of the aisle appeared to find agreement in
the SEC’s view that Congress should “[e]liminat[e] the
overlap between private remedies under RICO and the
Federal securities laws.” Id.; H.R. Rep. No. 104-369, at
42-43, 48 (1995) (Conf. Rep.) as reprinted in 1995
U.S.C.C.A.N. 730 (Conference Report lists the RICO
amendment and quotes Chairman Levitt’s rationale).
Clearly, the purpose of the PSLRA was not to leave
legitimate victims without any remedy, but rather to
find the appropriate statutory remedy depending upon
the circumstance, i.e., either a private RICO suit, a
private securities fraud suit, or, a public suit brought
on behalf of victims by the SEC (in the case of offenders
aiding and abetting securities fraud). In Chairman
Levitt’s words, the ultimate goal remains the provision
of adequate remedies: “[T]he securities laws provide

App. 153
adequate remedies for those injured by securities
fraud, [therefore] it is both unnecessary and unfair to
expose defendants in securities cases to the threat of
treble damages and other extraordinary remedies
provided by RICO.” Securities Litigation Reform
Proposals S. 240, S. 667, and H.R. 1058: Hearings
Before the Subcomm. on Securities of the S. Comm. on
Banking, Housing, and Urban Affairs, 104th Cong. 251
(1995) (statement of Arthur Levitt, Chairmen, SEC).
In light of the plain text of the statute, and
considering the complete legislative history for context,
this Court finds unpersuasive any construction of the
word “actionable” that ignores whether the RICO
plaintiff’s injury was actionable as a securities action,
either privately or via the SEC. In the end, judicially
transforming the term “actionable” to become
“actionable-by-anyone” would implicitly repeal RICO
for legitimate claims and leave real victims without
any of the remedies that Congress clearly intended to
give them through the enactment of a carefullydesigned framework of federal statutes.
This Court’s analysis above raises another
important point: whenever review of legislative history
becomes necessary (and it need not here in light of the
plain text), such review remains useful and legitimate
only to the extent that courts consider such legislative
history in its entirety. Stray partisan comments offer
little in isolation and often lead courts upon a false
path. Indeed, to the degree that snippets of the
legislative history (as cited by MLSMK Investment and
other courts) conflict with the words of the statute
itself, then the statute’s plain text must prevail and

App. 154
ultimately define any interpretation of the law – here,
the scope of the PSLRA’s RICO exception. As so aptly
explained in In re Sinclair, “[s]tatutes are law, not
evidence of law” and thus, the text of the statute
controls. 870 F.2d 1340, 1341, 1343 (7th Cir. 1989).
Unlike the legislative history, which merely provides
contextual background for the text, the statute must
prevail:
Which prevails in the event of conflict, the
statute or its legislative history? The statute
was enacted, the report just the staff’s
explanation. Congress votes on the text of the
bill, and the President signed that text.
Committee reports help courts understand the
law, but . . . [if a committee] report contradicts
rather than explains the text . . . [then] the
statute must prevail.
Id. Accordingly, courts must distinguish between the
proper and improper uses of legislative history and
recognize the dangers of substituting the views of any
individual legislator—like Representative Cox
here—for the express language employed by Congress
in enacting the statute. As the court in Sinclair
observed, the clarity of the text will always depend
upon context, which legislative history may illuminate,
but the process must remain an objective one, because
“the search is not for the contents of the authors’ heads
but for the rules of language they used.” Id. at 1342; see
also Amy Coney Barrett, Substantive Canons and
Faithful Agency, 90 B.U. L. Rev. 109, 113 (Feb. 2010)
(“To respect the deals that are inevitably struck along

App. 155
the way, the outcome of this complex process – the
statutory text – must control”).
b) Misconduct “in the Purchase/Sale of
Securities”
Having determined the proper scope of the PSLRA
amendment, the Court now must address whether
Plaintiff’s claims fall within that exception. Looking
once again at the plain text, Congress’ use of the words
actionable “as fraud in the purchase or sale of
securities” in the second clause controls this Court’s
analysis, because, under established rules of statutory
construction, the revised version of § 1964(c) must be
read in conjunction with the text of the securities laws.
Firstar Bank, N.A. v. Faul, 253 F.3d 982, 990 (7th Cir.
2001) (stating the rule that “different acts which
address the same subject matter, which is to say are in
pari materia, should be read together such that the
ambiguities in one may be resolved by reference to the
other”). Here, the specific subset of misconduct
“actionable” under § 10(b) is narrower than the
universe of all misconduct merely “involving” securities
fraud generally or otherwise involving securities in the
background. From the plain language of the PSLRA
amendment, therefore, the exception only applies if the
“person” seeking relief for a RICO injury relies “upon
any conduct” that would have been actionable “as fraud
in the purchase or sale of securities.” 18 U.S.C.
§ 1964(c).
The PSLRA’s structure confirms this ordinary
reading of the text. For example, in the “saving clause”
of § 108 of the PSLRA, the statute states that the
“amendments made by this title shall not affect or

App. 156
apply to any private action arising under title I of the
Securities Exchange Act of 1934 or title I of the
Securities Act of 1933.” Thus, the PSLRA exception to
RICO draws upon a known and closed set of unlawful
actions in defining its boundaries, rather than some
amorphous standard broadly prohibiting any predicate
activity merely involving mail or wire fraud in which
some form of a security interest might otherwise
appear. Certainly, since § 108 explicitly refers to
enumerated statutory actions, this Court cannot read
the RICO “securities” exception (contained in the
immediately preceding provision (§ 107)) as creating
some absolute preclusion of RICO for any securitiesrelated conduct not otherwise actionable “as fraud in
the purchase or sale of securities” under the securities
laws.
Given this interpretative backdrop, the assessment
of the preclusive effect of the RICO exception must be
determined based upon whether the underlying
conduct alleged by the person could constitute an
actionable securities fraud claim under the 1933 and/or
1934 Acts. Here, Defendants’ invocation of the RICO
exception fails this test.
For an actionable securities fraud claim, § 10(b) of
the Securities Exchange Act requires five elements:
(1) a material misrepresentation or omission by the
defendant in connection with the purchase or sale of
securities; (2) scienter; (3) reliance; (4) economic loss;
and (5) proximate causation of such loss. AnchorBank,
649 F.3d at 617; In re HealthCare Compare Corp.
Securities Litigation, 75 F.3d 276, 280 (7th Cir. 1996).
To satisfy the “in connection with the purchase or sale

App. 157
of securities” requirement, the claim must allege a
fraud or misrepresentation “coinciding” with or
“touching” upon the securities transaction itself. United
States v. Durham, 766 F.3d 672, 681-82 (7th Cir. 2014)
(internal quotations omitted).
In applying § 10(b)’s reach to specific conduct, the
Supreme Court explains that the securities laws should
be construed “not technically and restrictively, but
flexibly to effectuate its remedial purposes.” S.E.C. v.
Zandford, 535 U.S. 813, 819 (2002) (internal quotations
omitted). To that point, the Supreme Court has
observed that the executive branch generally adopts “a
broad reading” of the phrase “in connection with the
purchase or sale of any security” and, given the SEC’s
role in enforcing the Act, its view is “entitled to
deference if it is reasonable” within the particular
dispute faced by a court.13 Id. at 819-20.
Using the appropriate standard, this Court finds
that Plaintiff has not alleged an “actionable” securities
claim, because nothing about the sale of his AUI stock
13

Based upon such controlling precedent (which states the
requisite approach to the securities laws more precisely), and
Congress’ mandate to liberally construe RICO in light of its
remedial purposes, Pub. L. No. 91-452, § 904(a), 84 Stat. 947, this
Court finds unpersuasive the simplistic language in such cases as
Hollinger International, Inc. v. Hollinger Inc., No. 04-698, 2004 WL
2278545, at *5 (N.D. Ill. Oct. 8, 2004), which urges federal courts
to “broadly” construe the RICO exception in an effort to dismiss
any civil RICO claims whenever they are based upon mail or wire
fraud. Although merely sweeping RICO cases out of court with a
broad brush may be an objective for some defendants, the joint
construction here of two federal statutes, in tandem, requires a
more tailored analysis.

App. 158
itself was fraudulent in this case. By selling Plaintiff a
bogus tax shelter plan, Defendants were attempting to
hide the resulting income from Plaintiff’s sale of stock
from the IRS. In both form and substance, therefore,
this case remains a case about tax shelter fraud, not
securities fraud. The relevant misrepresentations
concerned the legitimacy of Defendants’ plan to avoid
capital gains tax on the disposition of an asset,
which—by happenstance—was the non-fraudulent sale
of an interest in corporate shares. This same scheme
could have been perpetrated in connection with the sale
of any asset: a piece of real estate, a piece of art, or any
other conceivable property interest that might incur
capital gains. Hence, the Complaint fails to trigger any
bar to RICO relief, because the conduct underlying
Plaintiff’s cause of action, per the statute itself, must
first be “actionable” as a securities fraud case before it
can trigger the PSLRA’s RICO exception. Having a
defendant simply point to some “securities” interest in
the record is not enough to invoke the exception. Sand
in the shoe does not a beach make.
In the absence of any guidance from the Seventh
Circuit to the contrary, compelling cases from the Sixth
and Ninth Circuits (plus decisions from this District),
support this Court’s plain reading of the PSLRA. All
conclude that the PSLRA exception does not bar RICO
claims, like the ones alleged here, if the fraudulent tax
shelter scheme at issue only incidentally involved the
underlying securities or securities transactions.
Ouwinga v. Benistar 419 Plan Services, Inc., 694 F.3d
783 (6th Cir. 2012); Rezner v. Bayerische Hypo-Und
Vereinsbank AG, 630 F.3d 866 (9th Cir. 2010);
Martinek v. Diaz, No. 11-7190, 2012 WL 2953183 (N.D.

App. 159
Ill. July 18, 2012); Moorehead v. Deutsche Bank AG,
No. 11-106, 2011 WL 4496221 (N.D. Ill. Sept. 26, 2011).
In Rezner, a taxpayer sued the firms that misled
him with advice to take out loans to avoid taxes, a
recommendation that turned out to be fraudulent. 630
F.3d at 869. Although the taxpayer had pledged an
interest in an account holding municipal bonds as
collateral for the loans, that fact did not establish that
the misrepresentation occurred “in connection with” a
securities transaction. Id. at 872. The Ninth Circuit
thus held that the taxpayer’s RICO claim was not
precluded by the PSLRA. Id. In reaching that holding,
the Ninth Circuit emphasized that the taxpayer’s
losses did not flow from the pledge of the securities, or
any misrepresentation about their value, and thus the
securities at issue, like the ones here, were “merely a
happenstance cog in the scheme.” Id.
Likewise, in Ouwinga, the Sixth Circuit found that
the PSLRA’s RICO exception did not preclude RICO
claims directed against a fraudulent tax avoidance
scheme. There, the plaintiffs alleged RICO and fraud
claims relating to the tax consequence of a tax shelter
plan requiring the purchases of variable life insurance
policies. Because it was “merely incidental” that the
policies happened to be securities, the Sixth Circuit
found that the RICO exception did not apply. The court
then drew from a similar Southern District of New
York decision that “articulated the distinction” well:
Plaintiffs do not allege a securities fraud, but
rather a tax fraud. There was nothing per se
fraudulent from a securities standpoint about
the financial mechanism and schemes used to

App. 160
generate the tax losses. While the alleged fraud
could not have occurred without the sale of
securities at the inflated basis (which created
the artificial loss to offset Plaintiffs’ major
capital gains), it is inaccurate to suggest that the
actual purchase and sale of securities were
fraudulent. In actuality, the securities
performed exactly as planned and marketed; it
was the overall scheme that allegedly defrauded
the Plaintiffs and Class Members. . . . This
Court as well finds that the alleged fraud here
involved a tax scheme, with the securities
transactions only incidental to any underlying
fraud. Accordingly this Court will not apply the
PSLRA bar to Plaintiffs’ RICO claims.
694 F.3d at 791 (quoting Kottler v. Deutsche Bank AG,
607 F. Supp. 2d 447, 458 n.9 (S.D.N.Y. 2009)). This
simple logic controls here.
The present case also mirrors the tax fraud scenario
noted in Moorehead. 2011 WL 4496221. In that case,
the plaintiffs sued the defendants for a fraudulent
investment plan to avoid tax liability, known as an
“Offshore Portfolio Investment Strategy.” Id. at *1.
When analyzing the defendants’ PSLRA argument, the
court emphasized that in their dealings with
defendants, plaintiffs “were hoping to minimize the
income tax consequences of sales of securities they had
recently sold.” Id. at *11. In response, the court noted
that, if this were “the only role that securities played in
the transactions at issue, the PSLRA would not bar
plaintiffs’ claims.” Id. (emphasis added). Like the Sixth
Circuit, the court in Morehead also relied on Kottler;

App. 161
and noted that the PSLRA would not apply because,
“[f]ramed this way, the claims do not allege a securities
fraud, but rather a tax fraud.” Id. (quoting Kottler, 607
F. Supp. 2d at 458 n.9).
Ultimately, in Moorehead, the court barred the
claim under the PSLRA, but only did so when, unlike
here, the complaint included additional assertions
alleging traditional securities fraud. As emphasized in
Moorehead, the complaint repeatedly alleged “that
defendants made false and misleading representations
about the securities transactions—not just regarding
their tax effects, but also regarding their profitability.”
Id. at *12. (noting that the alleged misrepresentations
were about “both the investment results and the tax
consequences”) (emphasis added); see also MJK
Partners, LLC v. Husman, 877 F. Supp. 2d 596, 606
(N.D. Ill. 2012) (applying the PSLRA bar and
distinguishing cases in which, as here, “the primary
thrust of the fraudulent scheme was unlawful tax
avoidance”).
Also instructive is Martinek. 2012 WL 2953183. In
that case, the court dismissed a RICO claim under the
PSLRA’s RICO exception, but did so only because,
unlike here, the plaintiffs “agreed to purchase” the
securities at issue as a “result” of the defendants’
fraudulent misrepresentations. Id. at *13. Although the
plaintiffs sought to avoid the RICO exception by
arguing that the misrepresentations did not go to the
“value” of the securities per se, the court still found the
bar applicable because it found a causal connection
between the false statements and the decision to buy
the securities themselves. Id. In the court’s words, even

App. 162
though “the Seventh Circuit does not appear to have
had occasion to speak on [the] scope of the RICO bar,”
the Ninth Circuit’s approach is informative:
[I]t interprets the requirement that the fraud be
committed “in connection with” a securities
transaction to mean that “a certain relationship
[must] be established between the fraud and the
transaction that resulted in the injury
complained of.”
Id. (citing Renzer, 630 F.3d at 871-72) (brackets in
original).
Following this line of cases, the fraudulent tax
scheme here was not “in connection with” the sale of
AUI stock. Indeed, the sale of AUI stock possessed no
causal connection to the tax shelter fraud. Thus, the
RICO exception does not apply because the tax fraud
and the securities transactions alleged were
“essentially independent events.” Ouwinga, 694 F.3d at
791.14
14

Unlike other cases applying the PSLRA’s RICO exception, the
tax shelter fraud alleged here could also never form the basis of an
action by the SEC or any shareholders’ class, because nothing
about the securities transactions by themselves is “actionable” as
securities fraud. Bald Eagle Area School District, 189 F.3d at 328
(noting that the SEC’s complaint alleged the same scheme which
“is at the heart of this RICO action”); Florida Evergreen Foliage v.
E.I. DuPont De Nemours & Co., 165 F. Supp. 2d 1345, 1356-57
(S.D. Fla. 2001) (in dismissing RICO claims under § 1964(c), the
court compared the RICO action with a shareholder action to
determine if the predicate acts were actionable as securities fraud);
In re Ikon Office Solutions, Inc. Securities Litigation, 86 F. Supp.
2d 481, 486 (E.D. Pa. 2000) (same); Tyrone Area School District v.
Mid-State Bank & Trust Co., No. 98-881, 1999 WL 703729, at *4

App. 163
B. Counts III to IX: Sufficiency of State Law
Claims
As to the remaining counts of the Complaint,
Defendants Seyfarth, Taylor, Northern, and Christiana
all challenge the legal sufficiency of the Plaintiff’s state
law claims. Particularly troubling for Plaintiff is the
potentially fatal time-bar of his state law claims raised
by Defendants pursuant to 735 ILCS 5/12-214.3.
Yet, in light of this Court’s dismissal of Counts I
and II, this Court will defer ruling on the state law
counts until, and if, Plaintiff can properly amend his
complaint with viable RICO claims consistent with the
requirements of Rule 11. If Plaintiff cannot plead
viable RICO claims, then this Court may decline to
exercise supplemental jurisdiction over his state law
claims. Wright v. Associated Insurance Cos. Inc., 29
F.3d 1244, 1251-52 (7th Cir. 1994). Indeed, the “general
rule is that, when all federal-law claims are dismissed
before trial,” the pendent claims should be left to the
state courts. Id. at 1252; 28 U.S.C. § 1367(c). The
Seventh Circuit also instructs that, in exercising its
discretion, this Court should consider “the nature of the
state law claims at issue, their ease of resolution, and
the actual, and avoidable, expenditure of judicial
resources,” among other factors. Timm v. Mead Corp.,
32 F.3d 273, 277 (7th Cir. 1994). When the matter
becomes ripe here, this Court will consider the merits
(W.D. Pa. Feb. 9, 1999) (fact that the conduct involved in the
scheme “is actionable under securities laws is evidenced by the
SEC’s commencement” of a public action for “violations of federal
securities laws” based upon the same conduct alleged in the RICO
claims).

App. 164
of Defendants’ motions to dismiss the state law counts,
and if necessary, all of the pertinent factors within its
discretion regarding the possibility of exercising
supplemental jurisdiction over those claims.
But for now, Defendants’ motions to dismiss Counts
III to IX of the Complaint are denied without prejudice,
and the parties will be given leave to revisit the issues
raised, if needed, at a later time.
IV. Conclusion
For these reasons, Defendants’ motions to dismiss
[29] [31] [35] are granted in part and denied in part.
Counts I (RICO) and II (RICO Conspiracy) are hereby
dismissed without prejudice. This Court further lifts
the current stay of discovery and grants Plaintiff leave
to file an Amended Complaint properly re-alleging
Counts I and II, provided he can do so consistent with
his obligations under Rule 11. To the degree
Defendants seek to dismiss Plaintiff’s state law claims
alleged in Counts III to IX, the requests are denied
without prejudice, and the parties will be given leave to
revisit the issues raised, if needed, at a later time.
This matter is set for a status hearing on 7/26/16, at
9:45 a.m. in Courtroom 1725. At the status heating, the
parties should come prepared to discuss the timing for
the filing of any amended complaint, and the parties’
positions regarding the possibility of seeking an
immediate interlocutory appeal of this Court’s order
under 28 U.S.C. § 1292(b).
IT IS SO ORDERED

App. 165
Dated: July 15, 2016
/s/John Robert Blakey
John Robert Blakey
United States District Judge

App. 166

APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
Chicago, Illinois 60604
No. 18-3232
[Filed December 12, 2019]
Before
DAVID F. HAMILTON, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge
AMY J. ST. EVE, Circuit Judge
__________________________
STEVEN MENZIES,
)
Plaintiff Appellant,
)
)
v.
)
)
SEYFARTH SHAW LLP,
)
an Illinois limited liability )
partnership, et al.,
)
Defendants Appellees. )
__________________________ )
Appeal from the United States District
Court for the Northern District of Illinois,
Eastern Division.
No. 1:15 cv 3403

App. 167
John Robert Blakey, Judge.
ORDER
Plaintiff appellant filed a petition for rehearing and
rehearing en banc on November 26, 2019. No judge1 in
regular active service has requested a vote on the
petition for rehearing en banc, and all members of the
original panel have voted to deny panel rehearing. The
petition for rehearing and rehearing en banc is
therefore DENIED.

1

Judge Joel M. Flaum did not participate in the consideration of
this matter.

